No. _________
================================================================

In The

Supreme Court of the United States
---------------------------------i--------------------------------KEVIN LAMPKIN; STEPHEN MILLER, individually
and on behalf of all others similarly situated;
JOE BROWN; FRANK GITTESS; TERRY NELSON;
DIANNE SWIBER; ROBERT FERRELL,
Petitioners,
v.
UBS FINANCIAL SERVICES, INCORPORATED;
formerly known as UBS Painewebber, Incorporated;
UBS SECURITIES, L.L.C., formerly known
as UBS Warburg, L.L.C.,
Respondents.
---------------------------------i--------------------------------On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit
---------------------------------i--------------------------------APPENDIX
VOLUME TWO
---------------------------------i--------------------------------ANDY TINDEL
Counsel of Record
MT2 LAW GROUP
112 East Line Street,
 Ste. 304
Tyler, Texas 75702
(903) 596-0900
atindel@andytindel.com

BONNIE E. SPENCER
DAWN MEADE
DAVID AUGUSTUS
THE SPENCER LAW FIRM
4635 Southwest Freeway,
 Ste. 900
Houston, Texas 77027
(713) 961-7770

================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
APPENDIX
Page
United States Court of Appeals for the Fifth Circuit, Opinion, May 24, 2019 ............................. App. 1
United States Court of Appeals for the Fifth Circuit, Judgment, May 24, 2019 ........................ App. 29
United States District Court for the Southern
District of Texas, Opinion and Order, February 28, 2017 .................................................... App. 31
United States District Court for the Southern
District of Texas, Final Judgment of Dismissal, February 28, 2017 .................................. App. 241
Relevant Statutes ............................................ App. 243
Docket, United States District Court for the
Southern District of Texas, 4:02-cv-00851 ...... App. 261
Plaintiffs’ Third Amended Class Action Complaint ............................................................ App. 336

App. 261
APPEAL,APPEAL_NAT,CLOSED,ENRONNEWBY,MDL,MEMBER,MOTREF
U.S. District Court
SOUTHERN DISTRICT OF TEXAS (Houston)
CIVIL DOCKET FOR CASE #: 4:02-cv-00851
Internal Use Only
Lampkin, et al v. UBS
 Painewebber Inc, et al
Assigned to: Judge
 Melinda Harmon
Demand: $0
Lead case: 4:01-cv-03624
Member case:
 (View Member Case)
Related Case: 4:01-cv-03913
Cause: 15:78m(a) Securities
 Exchange Act

Date Filed: 03/07/2002
Date Terminated:
 02/28/2017
Jury Demand: Plaintiff
Nature of Suit:
 850 Securities/
 Commodities
Jurisdiction:
 Federal Question

Plaintiff
Kevin Lampkin

represented by
Andy Wade Tindel
Mann, Tindel & Thompson
 Law Firm
112 E Line St
Ste 304
Tyler, TX 75702
903-596-0900
Fax: 903-596-0909
Email: atindel@andytindel.
 com
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED

App. 262
Bonnie E. Spencer
The Spencer Law Firm
4635 Southwest Frwy
Suite 900
Houston, TX 77027
713-961-7770
Fax: 713-961-5336
Email: bonniespencer
 @spencer-law.com
LEAD ATTORNEY
ATTORNEY TO BE
NOTICED
Joe Kendall
Kendall Law Group, LLP
3232 McKinney Ave
Ste 700
Dallas, TX 75204
214-744-3000
Email: jkendall@kendall
 lawgroup.com
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Thomas Walter Umphrey
Provost & Umphrey
P O Box 4905
Beaumont, TX 77704
409-835-6000
Fax: 409-838-8811
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED

App. 263
David Lee Augustus
The Spencer Law Firm
4635 Southwest Freeway
Ste 900
Houston, TX 77027
713-961-7770
Fax: 713-961-5336 fax
Email: davidaugustus@
 spencer-law.com
ATTORNEY TO
BE NOTICED
Dawn Renee Meade
The Spencer Law Firm
4635 Southwest Frwy
Suite 900
Houston, TX 77027
713-961-7770
Fax: 713-961-5336
Email: dawnmeade@
 spencer-law.com
ATTORNEY TO
BE NOTICED
Michael Hamilton
Provost Umphrey
4205 Hillsboro Pike
Ste 303
Nashville, TN 37215
615-297-1932
Email: mhamilton@pulf.com
ATTORNEY TO
BE NOTICED

App. 264
Thomas L. Hunt
Thomas L Hunt &
 Associates
5353 W. Alabama Street
Suite 605
Houston, TX 77056
713-977-3447
Fax: 713-977-3359
Email: tom@thomasl
 huntassociates.com
Plaintiff
Janice Schuette
individually and as
representatives of those
similarly situated

represented by
Andy Wade Tindel
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Bonnie E. Spencer
(See above for address
ATTORNEY TO
BE NOTICED
Joe Kendall
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Thomas Walter Umphrey
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED

App. 265
David Lee Augustus
(See above for address)
ATTORNEY TO
BE NOTICED
Dawn Renee Meade
(See above for address)
ATTORNEY TO
BE NOTICED
Michael Hamilton
(See above for address)
ATTORNEY TO
BE NOTICED
Thomas L. Hunt
(See above for address)
Plaintiff
Stephen Miller
individually and on
behalf of all others
similarly situated

represented by
Andy Wade Tindel
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Joe Kendall
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Thomas Walter Umphrey
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED

App. 266
Bonnie E. Spencer
(See above for address)
ATTORNEY TO
BE NOTICED
David Lee Augustus
(See above for address)
ATTORNEY TO
BE NOTICED
Dawn Renee Meade
(See above for address)
ATTORNEY TO
BE NOTICED
Michael Hamilton
(See above for address)
ATTORNEY TO
BE NOTICED
Thomas L. Hunt
(See above for address)
Plaintiff
Joe Brown

represented by
Andy Wade Tindel
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Bonnie E. Spencer
(See above for address)
ATTORNEY TO
BE NOTICED
David Lee Augustus
(See above for address)
ATTORNEY TO
BE NOTICED

App. 267
Dawn Renee Meade
(See above for address)
ATTORNEY TO
BE NOTICED
Michael Hamilton
(See above for address)
ATTORNEY TO
BE NOTICED
Thomas L. Hunt
(See above for address)
ATTORNEY TO
BE NOTICED
Plaintiff
Frank Gittess

represented by
Andy Wade Tindel
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Bonnie E. Spencer
(See above for address)
ATTORNEY TO
BE NOTICED
David Lee Augustus
(See above for address)
ATTORNEY TO
BE NOTICED
Dawn Renee Meade
(See above for address)
ATTORNEY TO
BE NOTICED

App. 268
Michael Hamilton
(See above for address)
ATTORNEY TO
BE NOTICED
Thomas L. Hunt
(See above for address)
ATTORNEY TO
BE NOTICED
Plaintiff
Terry Nelson

represented by
Andy Wade Tindel
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Bonnie E. Spencer
(See above for address)
ATTORNEY TO
BE NOTICED
David Lee Augustus
(See above for address)
ATTORNEY TO
BE NOTICED
Dawn Renee Meade
(See above for address)
ATTORNEY TO
BE NOTICED
Michael Hamilton
(See above for address)
ATTORNEY TO
BE NOTICED

App. 269
Thomas L. Hunt
(See above for address)
ATTORNEY TO
BE NOTICED
Plaintiff
Dianne [sic] Swiber

represented by
Andy Wade Tindel
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Bonnie E. Spencer
(See above for address)
ATTORNEY TO
BE NOTICED
David Lee Augustus
(See above for address)
ATTORNEY TO
BE NOTICED
Dawn Renee Meade
(See above for address)
ATTORNEY TO
BE NOTICED
Michael Hamilton
(See above for address)
ATTORNEY TO
BE NOTICED
Thomas L. Hunt
(See above for address)
ATTORNEY TO
BE NOTICED

App. 270
V.
represented by
Charles Rodney Acker
UBS Financial
Norton Rose Fulbright
Services Inc
f/k/a UBS Painewebber,  US LLP
2200 Ross Ave
Inc.
Suite 3600
Dallas, TX 75201-7932
214-855-8000
Fax: 214-855-8200
Email: rodney.acker@norton
 rosefulbright.com
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED

Defendant

Charles Rodney Acker
(See above for address)
ATTORNEY TO
BE NOTICED
Kerry Marc McMahon
Porter Hedges LLP
1000 Main St
36th Fl
Houston, TX 77002
713-226-6657
Fax: 713-226-6257
Email: kmcmahon@
 porterhedges.com
ATTORNEY TO
BE NOTICED

App. 271
Defendant
UBS Painewebber,
Inc.

represented by
Charles Rodney Acker
(See above for address)
ATTORNEY TO
BE NOTICED
Kerry Marc McMahon
(See above for address)
ATTORNEY TO
BE NOTICED

V.
Party of Interest
Patrick Mendenhall

Party of Interest
Patrick Mendenhall

represented by
Charles Rodney Acker
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
represented by
Charles Rodney Acker
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED

represented by
Claimants (H02-0851) Dawn Renee Meade
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Movant

Joseph John Hroch
12821 Industrial Rd
Houston, TX 77015
713-636-8741
Email: jhroch@wombleco.com

App. 272
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Movant
The Regents of the
University of
California

Plaintiff
Robert Ferrell

represented by
George Paul Howes
5th Circuit Infomation [sic]
655 W Broadway
Ste 1900
San Diego, CA 92101
619-231-1058
Fax: 713-571-0912
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
represented by
Andy Wade Tindel
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Joe Kendall
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Thomas Walter Umphrey
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED

App. 273
Bonnie E. Spencer
(See above for address)
ATTORNEY TO
BE NOTICED
David Lee Augustus
(See above for address)
ATTORNEY TO
BE NOTICED
Dawn Renee Meade
(See above for address)
ATTORNEY TO
BE NOTICED
Michael Hamilton
(See above for address)
ATTORNEY TO
BE NOTICED
Thomas L. Hunt
(See above for address)
V.
Defendant
UBS Securities LLC

represented by
Charles Rodney Acker
f/k/a UBS Warburg, LLC
(See above for address)
LEAD ATTORNEY
ATTORNEY TO
BE NOTICED
Charles Rodney Acker
(See above for address)
ATTORNEY TO
BE NOTICED

App. 274
Date Filed

# Docket Text

03/07/2002

1 COMPLAINT by Kevin Lamkin,
Janice Schuette filed; FILING FEE
$ 150.00 RECEIPT # 518584
(bchurchill) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 03/08/2002)

03/07/2002

2 Order setting Initial Pretrial and
Scheduling Conference on 2:15
7/19/02 before Judge Ewing Werlein,
Jr and Order to Disclose Interested
Persons, filed. Parties notified.
(bchurchill) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 03/08/2002)

03/07/2002

3 AFFIDAVIT by Kevin Lamkin Re:
[1-1] complaint, filed. (ljackson)
Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
03/08/2002)

03/20/2002

4 AFFIDAVIT by Janice Schuette,
filed. (ljackson) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 03/21/2002)

03/22/2002

5 CERTIFICATE OF INTERESTED
PARTIES by Kevin Lamkin, Janice
Schuette, filed. (ljackson) Additional
attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 03/22/2002)

04/18/2002

6 AMENDED COMPLAINT by Kevin
Lamkin, Janice Schuette,(Answer
due 4/28/02 for UBS Painewebber
Inc) amending [1-1] complaint

App. 275
adding Robert Ferrell, UBS Warburg LLC, filed. (ljackson) Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
04/19/2002)
04/18/2002

(2) SUMMONS issued w/amended
complaint. (ljackson) (Entered:
04/19/2002)

04/23/2002

7 AFFIDAVIT by Robert Ferrell, filed
(ckrus) Additional attachment(s)
added on 7/25/2006 (mgoolsby,).
(Entered: 04/24/2002)

04/23/2002

8 AFFIDAVIT by Janice Schuette
Re:, filed (ckrus) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 04/24/2002)

04/23/2002

9 AFFIDAVIT by Kevin Lamkin
Re:, filed (ckrus) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 04/24/2002)

05/09/2002

10 RETURN OF SERVICE executed as
to UBS Warburg LLC 5/1/02 filed.
Answer due on 5/21/02 for UBS
Warburg LLC (ljackson) Additional
attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 05/10/2002)

05/09/2002

11 RETURN OF SERVICE executed as
to UBS Painewebber Inc 5/1/02 filed.
Answer due on 5/21/02 for UBS
Painewebber Inc (ljackson) Additional attachment(s) added on

App. 276
7/25/2006 (mgoolsby,). (Entered:
05/10/2002)
05/21/2002

(Court only) **Added for UBS Painewebber Inc, UBS Warburg LLC
attorney Rodney Acker (ljackson)
(Entered: 05/21/2002)

05/21/2002

12 MOTION to dismiss by UBS Painewebber Inc, UBS Warburg LLC,
Motion Docket Date 6/10/02 [12-1]
motion, filed. (ljackson) Additional
attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 05/21/2002)

05/21/2002

13 MEMORANDUM by UBS Painewebber Inc, UBS Warburg LLC in
support of [12-1] motion to dismiss,
filed. (in brown expandable folder)
(ljackson) Additional attachment(s)
added on 7/25/2006 (mgoolsby,).
(Entered: 05/21/2002)

05/28/2002

14 MOTION for appointment of lead
pltf, and for approval lead counsel,
by Kevin Lamkin, Janice Schuette,
Robert Ferrell, Motion Docket Date
[14-1] motion, 6/17/02 [14-2] motion,
filed. (psmith) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 05/29/2002)

05/29/2002

15 MEMORANDUM of law by Kevin
Lamkin, Janice Schuette, Robert
Ferrell, Stephen Miller in support
of [14-1] motion for appointment of
lead pltf, [14-2] motion for approval
lead counsel, filed (ljackson)

App. 277
Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
05/30/2002)
05/30/2002

(Court only) **Added party Stephen
Miller (ljackson) (Entered:
05/30/2002)

06/03/2002

Motion(s) referred: [14-1] motion for
appointment of lead pltf referred to
Magistrate Judge Frances H. Stacy,
[14-2] motion for approval lead
counsel referred to Magistrate
Judge Frances H. Stacy (ljackson)
(Entered: 06/03/2002)

06/05/2002

(Court only) **Added for Stephen
Miller attorney Thomas Walter
Umphrey (ljackson) (Entered:
06/05/2002)

06/06/2002

16 AGREED MOTION to extend time
to respond to motion to dismiss, to
extend submission date, and for
leave to file reply by Kevin Lamkin,
Janice Schuette, UBS Painewebber
Inc, UBS Warburg LLC, filed. (ljackson) Additional attachment(s) added
on 7/25/2006 (mgoolsby,). (Entered:
06/07/2002)

06/10/2002

17 ORDER granting [16-1] agreed motion to extend time to respond to
motion to dismiss, granting [16-2]
agreed motion to extend submission
date, and granting [16-3] agreed motion for leave to file reply submission date for defts’ motion to dismiss

App. 278
is 7/12/02, Response to motion reset
to 6/24/02 for [12-1] motion to dismiss, Reply to Response to Motion
set to 7/12/02 for [12-1] motion to
dismiss, entered; Parties notified.
(signed by Judge Ewing Werlein, Jr)
(ljackson) Modified on 06/13/2002
(Entered: 06/11/2002)
06/11/2002

Deadline updated; Motion Docket
Date 7/12/02 [12-1] motion to dismiss (ljackson) (Entered:
06/13/2002)

06/12/2002

18 RESPONSE by UBS Painewebber
Inc, UBS Warburg LLC to pltfs’ [141] motion for appointment of lead
pltf, filed. (ljackson) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 06/12/2002)

06/13/2002

(Court only) **Terminated deadlines (ljackson) (Entered:
06/13/2002)

06/24/2002

19 RESPONSE by Kevin Lamkin,
Janice Schuette, Robert Ferrell,
Stephen Miller to defts’ [12-1] motion to dismiss, filed. (part 1 of 2)
(ljackson) Additional attachment(s)
added on 7/25/2006 (mgoolsby,).
(Entered: 06/25/2002)

06/24/2002

19 MOTION for leave to amend complaint by Kevin Lamkin, Janice
Schuette, Robert Ferrell, Stephen
Miller, Motion Docket Date 7/14/02

App. 279
[19-1] motion, filed. (part 2 of 2)
(ljackson) (Entered: 06/25/2002)
06/24/2002

20 SECOND AMENDED CLASS ACTION COMPLAINT by Kevin Lamkin, Janice Schuette, Robert Ferrell,
Stephen Miller,(Answer due 7/4/02
for UBS Warburg LLC, for UBS
Painewebber Inc) amending [1-1]
complaint, filed. (ljackson) Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
06/25/2002)

06/24/2002

21 REPLY by Kevin Lamkin, Janice
Schuette, Robert Ferrell, Stephen
Miller to defts’ response to pltfs’ [141] motion for appointment of lead
pltf, [14-2] motion for approval lead
counsel, filed (ljackson) Additional
attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 06/25/2002)

06/24/2002

22 EXHIBITS to [20-1] amended complaint by Kevin Lamkin, Janice
Schuette, Robert Ferrell, Stephen
Miller, filed. (3 volumes in brown
expandable folder) (ljackson)
Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
06/25/2002)

06/26/2002

Motion(s) referred: [19-1] motion
for leave to amend complaint
referred to Magistrate Judge
Frances H. Stacy for review and

App. 280
determination/recommendation
(sjones) (Entered: 06/26/2002)
07/08/2002

Motion(s) no longer referred: [14-1]
motion for appointment of lead pltf,
[14-2] motion for approval lead
counsel (ljackson) (Entered:
07/08/2002)

07/09/2002

23 AGREED MOTION regarding motion for leave to amend complaint
and response to amended complaint
by Kevin Lamkin, Janice Schuette,
UBS Painewebber Inc, Robert Ferrell, UBS Warburg LLC, Stephen
Miller,. (kprice) Modified on
07/09/2002 Additional attachment(s)
added on 7/25/2006 (mgoolsby,). (Entered: 07/09/2002)

07/10/2002

24 CERTIFICATE OF INTERESTED
PARTIES by Defts UBS Painewebber Inc and UBS Warburg LLC,
filed. (fmremp) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 07/11/2002)

07/10/2002

25 JOINT DISCOVERY/Case Management Plan by Kevin Lamkin, Janice
Schuette, UBS Painewebber Inc,
Robert Ferrell, UBS Warburg LLC
and Stephen Miller, filed. (fmremp)
Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
07/11/2002)

07/12/2002

26 AGREED ORDER granting [23-1]
agreed motion regarding motion for

App. 281
leave to amend complaint and response to amended complaint, entered. Pltfs’ second amended
complaint shall be filed. Defts shall
answer the second amended complaint by 8/15/02. The page limit for
defts’ answer is expanded to not
more than 50 pages. Parties notified.
(signed by Judge Ewing Werlein, Jr)
(ltien) (Entered: 07/12/2002)
07/19/2002

27 Minute Entry Order: Rule 16 Scheduling Conference. Apps: R Acker for
UBS PaineWebber, UBJ Warburg, J
Kendall for Kevin Lamkin, et al; D
Branswan, A Tindel for pltfs, B E
Spencer for Lamkin, et al, J J Hose
for pltfs; denying without prejudice
deft’s [12-1] motion to dismiss as
moot; Parties will jointly submit a
docket control order; terminated
deadlines; Ct Reporter: none, entered. Parties ntfd. (Signed by Judge
Ewing Werlein, Jr) (kprice) (Entered: 07/22/2002)

07/19/2002

28 AGREED MOTION for extension of
time by Kevin Lamkin, Janice
Schuette, UBS Painewebber Inc,
Robert Ferrell, UBS Warburg LLC,
Stephen Miller, filed. (kprice) Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
07/22/2002)

07/25/2002 29 ORDER granting [28-1] agreed
motion for extension of time pltfs’

App. 282
deadline to repond [sic] to defts’
motion to dismiss is extended until
9/19/02, entered. The page limit for
pltfs’ response to motion to dismiss
is expanded to not more than 50
pages. Defts’ deadline to file their
reply is extended until 10/10/02.
Parties notified. (signed by Judge
Ewing Werlein, Jr) (ljackson)
(Entered: 07/26/2002)
07/26/2002

(Court only) **Renoticed document
[29-2] order (ljackson) (Entered:
07/26/2002)

07/26/2002

30 ORDER OF RECUSAL of Judge
Ewing Werlein, Jr, entered; Parties
notified. signed by Judge Ewing
Werlein, Jr) (ltien) (Entered:
07/30/2002)

07/30/2002

Motion(s) no longer referred: [19-1]
motion for leave to amend complaint. (ljackson) (Entered:
07/30/2002)

07/30/2002

31 NOTICE OF TRANSFER (to Judge
Vanessa D. Gilmore) recusal, filed.
Parties notified. (ljackson) (Entered:
07/31/2002)

08/15/2002

32 MOTION to dismiss Pltfs second
amended class action complaint by
UBS Painewebber Inc, UBS Warburg LLC, Motion Docket Date
9/4/02 [32-1] motion, filed. (hlerma)
Additional attachment(s) added on

App. 283
7/25/2006 (mgoolsby,). (Entered:
08/15/2002)
08/15/2002

33 MEMORANDUM by UBS Painewebber Inc, UBS Warburg LLC in
support of [32-1] motion to dismiss
Pltf ’s second amended class action
complaint, filed (This document is in
brown expandable folder.) (hlerma)
Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
08/15/2002)

09/09/2002

34 AGREED MOTION to extend time
by Kevin Lamkin et al and UBS
Painewebber Inc et al, filed. (ljackson) Additional attachment(s) added
on 7/25/2006 (mgoolsby,). (Entered:
09/09/2002)

09/09/2002

35 AGREED ORDER granting [34-1]
agreed motion to extend time Response to (p.427)motion reset to
10/9/02 for [32-1] motion to dismiss
Pltf ’s second amended class action
complaint, m [sic] Motion Docket
Date 10/9/02 [32-1] motion to
dismiss Pltf ’s second amended class
action complaint, Reply to Response
to Motion set to 11/8/02 for [32-1]
motion to dismiss Pltf ’s second
amended class action complaint,
entered; Parties notified. (signed
by Judge Vanessa D. Gilmore)
(ljackson) (Entered: 09/11/2002)

App. 284
10/01/2002

36 ORDER REFERRING CASE to
Magistrate Judge Mary Milloy, entered; Parties notified (signed by
Judge Vanessa D. Gilmore) (ljackson) (Entered: 10/01/2002)

10/07/2002

39 ORDER, entered. Counsel shall
provide a courtesy copy of all pleadings to Judge Milloy’s chambers.
Parties wishing to respond to pleadings regarding discovery disputes
must do so within 10 days of receipt.
Parties notified. (signed by Magistrate Judge Mary Milloy) (ljackson)
(Entered: 10/10/2002)

10/09/2002

37 RESPONSE by Kevin Lamkin,
Janice Schuette to defts’ [32-1]
motion to dismiss Pltf ’s second
amended class action complaint,
filed. (ljackson) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 10/10/2002)

10/09/2002

38 AGREED MOTION for leave to extend page limit for response to dismissal motion and reply by Kevin
Lamkin, Janice Schuette, Robert
Ferrell, Stephen Miller, filed. (ljackson) Additional attachment(s) added
on 7/25/2006 (mgoolsby,). (Entered:
10/10/2002)

10/11/2002

40 INDEX of authorities by Kevin
Lamkin etal to [37-1] response, filed.
(in (2) brown expandable folders)
(ljackson) Additional attachment(s)

App. 285
added on 7/25/2006 (mgoolsby,).
(Entered: 10/11/2002)
10/18/2002

Received and forwarded to CRD:
proposed scheduling order (kprice)
(Entered: 10/19/2002)

10/28/2002

41 SCHEDULING ORDER entered.
Pltfs to file a response to defts’ [321] motion to dismiss by 10/9/02.
Defts to file reply to to [sic] pltfs’ response to defts’ [32-1] motion to dismiss by 11/12/02. If defts’ motion to
dismiss is denied, Court will allow
discovery on class related issues for
a period of 6 months under the
schedule detailed herein. Pltfs will
file their motion for class certification 30 days after the close of all
pre-certification discovery. Defts will
file their response to pltfs’ motion
for class certification 30 days after
pltfs’ motion is filed; pltfs may file a
reply 15 days after defts’ response is
filed. Parties notified. (signed by
Judge Vanessa D. Gilmore) (ltien)
(Entered: 10/29/2002)

11/11/2002

42 ORDER granting [38-1] agreed motion for leave to extend page limit
for response to dismissal motion
and reply, entered. The pltfs’ response may be 60 pages long and
the defts’ reply may be 35 pages
long. Parties notified. (signed by

App. 286
Magistrate Judge Mary Milloy)
(ljackson) (Entered: 11/12/2002)
11/12/2002

43 NOTICE of Hearing: telephone conference for 10:30 11/14/02 before
Magistrate Judge Mary Milloy, filed.
(ljackson) (Entered: 11/12/2002)

11/12/2002

44 REPLY BRIEF by Defts UBS Painewebber Inc and UBS Warburg LLC
in support of their [32-1] motion to
dismiss Pltf ’s second amended class
action complaint, filed. (placed in
brown expandable folder) (fmremp)
Modified on 11/13/2002 Additional
attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 11/13/2002)

11/13/2002

(Court only) **Terminated document [19-1] motion for leave to
amend complaint (ljackson) (Entered: 11/13/2002)

11/14/2002

45 Minute entry: Telephone Conference
held. Apps: Spencer, Meade, Tindel
and Havard f/pltf; Acker f/deft; Defts
to file additional briefing in re to
pltf Ferrell’s, et al motion for appointment of lead pltf and for approval of lead counsel by 12/2/02, as
stated on the record; If parties need
a hearing they are to notify the
Court as stated on the record; terminated deadlines; Ct Reporter: ERO.
(kprice) (Entered: 11/17/2002)

11/14/2002

46 Minute entry: Telephone Conference
held. Apps: Spencer, Meade, Tindel

App. 287
and Havard f/pltfs; Acker f/deft; Attorney Tindel is to notify the Court
by 11/15/02 whether the parties will
be submitting a proposed order as to
the appointment of lead counsel and
for approval of lead counsel and/or
to sever the issues as to Spencer and
Associates as stated on the record;
Ct Reporter: ERO. (kprice) (Entered:
11/17/2002)
11/15/2002

Received a call from Attorney Tindel
advising the court that the parties
will be submitting a proposed order
in reference to appointment of lead
pltf and approval of lead counsel
and will sever counsel issues as to
Spencer and Associates/JH (kprice)
(Entered: 11/17/2002)

11/21/2002

Revd proposed order re: motion for
appointment lead pltf and lead
counsel, fwd’d to crd. (per jh) (ljackson) (Entered: 11/21/2002)

11/21/2002

47 ORDER, entered. Kevin Lamkin,
Janice Schuette, Robert Ferrell, and
Stephen Miller are appointed as
lead pltfs fo [sic] the putative class.
Ordered that Provost Umphrey Law
Firm is appointed as lead counsel
for the putative class. Ordered that
pltfs’ additional request to approve
Spencer & Assoc as local counsel for
the putative will be taken under advisement. Parties notified. (signed

App. 288
by Magistrate Judge Mary Milloy)
(ljackson) (Entered: 11/21/2002)
11/21/2002

(Court only) **Added for Kevin
Lamkin, Janice Schuette, Robert
Ferrell, Stephen Miller attorney
Andy Wade Tindel (ljackson) (Entered: 11/21/2002)

11/21/2002

(Court only) **Renoticed document
[47-1] order (ljackson) (Entered:
11/21/2002)

11/22/2002

(Court only) **Terminated document [14-1] motion for appointment
of lead pltf, [14-2] motion for approval lead counsel (ljackson) (Entered: 11/22/2002)

11/22/2002

CASE reassigned to Judge Melinda
Harmon (ckrus) (Entered:
11/26/2002)

11/22/2002

11/22/2002

12/06/2002

48 ORDER of Consolidation. This case
is consolidated into H-01-3624 and
H-01-3913, entered; Parties notified.
(signed by Judge Melinda Harmon)
(ckrus) (Entered: 11/26/2002)
Consolidated Member Case Lead
Case Number: H-01-3624 & H-013913 (ckrus) (Entered: 11/26/2002)
49 AGREED MOTION objecting to and
moving for reconsideration of the
Court’s [48-1] order of consolidation
by UBS Painewebber Inc, UBS
Warburg LLC, Motion Docket
Date 12/26/02 [49-1] motion, filed.

App. 289
(ddarneille) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 12/09/2002)
12/06/2002

50 MEMORANDUM by UBS Painewebber Inc, UBS Warburg LLC in
support of [49-1] agreed motion for
reconsideration of the Court’s [48-1]
order of consolidation, filed. (ddarneille) Additional attachment(s)
added on 7/25/2006 (mgoolsby,).
(Entered: 12/09/2002)

12/06/2002

51 AGREED MOTION for reconsideration of [48-1] order of consolidation,
objections to consolidation MOTION
for findings of fact and conclusions
of law to support consolidation, and
REQUEST for clarification by Kevin
Lamkin, Robert Ferrell, Janice
Schuette, Stephen Miller, Motion
Docket Date 12/26/02 [51-1] motion,
12/26/02 [51-2] motion, 12/26/02
[51-3] motion, filed. (ddarneille)
Additional attachment(s) added
on 7/25/2006 (mgoolsby,). (Entered:
12/09/2002)

12/06/2002

52 MEMORANDUM by Kevin Lamkin,
Robert Ferrell, Janice Schuette,
Stephen Miller in support of [51-1]
agreed motion for reconsideration of
[48-1] order of consolidation, objections to consolidation, [51-2] motion
for findings of fact and conclusions
of law to support consolidation, and
[51-3] request for clarification, filed.

App. 290
(ddarneille) Modified on 12/09/2002
Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
12/09/2002)
06/13/2003

53 MOTION to stay related NASD arbitration by UBS Painewebber Inc,
UBS Warburg LLC, Motion Docket
Date 7/3/03 [53-1] motion, filed.
(ddarneille) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 07/09/2003)

06/13/2003

54 MEMORANDUM by UBS Painewebber Inc, UBS Warburg LLC in
support of [53-1] motion to stay related NASD arbitration, filed. (ddarneille) Additional attachment(s)
added on 7/25/2006 (mgoolsby,).
(Entered: 07/09/2003)

06/13/2003

55 APPENDIX by UBS Painewebber
Inc, UBS Warburg LLC for [53-1]
motion to stay related NASD arbitration and [54-1] support memorandum, filed. (ddarneille)
Additional attachment(s) added on
7/25/2006 (mgoolsby,). Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 07/09/2003)

07/07/2003

07/07/2003

(Court only) **Added party Claimants (H02-0851) (ddarneille) (Entered: 07/09/2003)
56 OBJECTION and RESPONSE by
Claimants (H02-0851) to [53-1]
motion to stay related NASD

App. 291
arbitration, filed. (ddarneille) Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
07/09/2003)
07/07/2003

57 MEMORANDUM by Claimants
(H02-0851) in support of [56-1] objection and response to motion to
stay arbitration proceeding, filed.
(ddarneille) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 07/09/2003)

07/10/2003

58 PLTFS’ WITHDRAWAL of [51-1]
agreed motion for reconsideration of
consolidation, objections to consolidation, [51-2] motion for findings of
fact and conclusions of law to support consolidation and [51-3] request
for clarification by Kevin Lamkin,
Robert Ferrell, Janice Schuette, Stephen Miller, filed. (ddarneille) Additional attachment(s) added on
7/25/2006 (mgoolsby,). (Entered:
07/11/2003)

07/10/2003

(Court only) **Terminated document [51-1] motion for reconsideration of [48-1] order of consolidation,
[51-2] motion for findings of fact and
conclusions of law to support consolidation, [51-3] motion for clarification (ddarneille) (Entered:
07/11/2003)

07/18/2003

59 REQUEST by UBS Painewebber
Inc, UBS Warburg LLC for status

App. 292
conference concerning discovery specific to the Lamkin action, filed.
(ddarneille) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 07/22/2003)
07/30/2003

60 Minute entry: Telephone Conference
held. Apps: J Kendall (by telephone)
for pltfs; R Acker (by telephone) for
defts. Telephone conference held on
deft’s Request Concerning Discovery
Specific to the Lamkin Action (No
59). Parties agree to share limited
discovery, as stated on the record. Ct
Reporter: F Warner. (kprice) (Entered: 08/01/2003)

11/12/2003

61 MEMORANDUM AND ORDER;
UBS PAine Webber [sic], Inc and
UBS Warburg LLC’s motion for reconsideration (#49 in H02-851, #1177
in H01-3624 and #524 in H01-3913)
is DENIED; motion to dismiss (#32
in H02-851) is DENIED and motion
to stay (#53 in H02-851) is MOOT,
entered. Parties notified. (signed by
Judge Melinda Harmon) (tward)
(Entered: 11/13/2003)

12/10/2003

62 EMERGENCY MOTION for clarification by Kevin Lamkin, Janice
Schuette, Stephen Miller, Motion
Docket Date 12/30/03 [62-1] motion,
filed. (tward) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 12/11/2003)

App. 293
12/10/2003

(Court only) **Added for Kevin
Lamkin, Janice Schuette, Stephen
Miller attorney Joe Kendall. (tward)
(Entered: 12/11/2003)

12/12/2003

63 ORDER granting pltf ’s [62-1] motion for clarification, Deft’s shall file
and answer within twenty days of
entry of this order. The Court further orders that counsel shall confer
and propose and agreed docket control schedule Set docket control
schedule for 1/9/04. If they are unable to do so, they should submit arguments in writing to the Court so
that it can determine a reasonable
schedule for this case, entered; Parties notified. (signed by Judge
Melinda Harmon) (tward) (Entered:
12/18/2003)

12/24/2003

(Court only) **Renoticed document
[63-1] relief Set docket control
schedule for 1/9/04, [63-2] order
(mperales) (Entered: 12/24/2003)

01/07/2004

64 AGREED MOTION to extend deadline to respond to to [sic] pltf ’s second amended class action complaint
by UBS Painewebber Inc, filed.
(tward) Additional attachment(s)
added on 7/25/2006 (mgoolsby,). (Entered: 01/07/2004)

01/08/2004

65 ORDER granting UBS Paine Webber Inc and UBS Warburg LLC’s
[64-1] agreed motion to extend

App. 294
deadline to respond to to [sic] pltf ’s
second amended class action complaint Reset answer to pltf ’s second
amended class action complaint for
1/21/04 for UBS Painewebber Inc,
for UBS Warburg LLC, entered;
Parties notified. (signed by Judge
Melinda Harmon) (tward) (Entered:
01/09/2004)
01/08/2004

66 AGREED RESPONSE by Kevin
Lamkin, Janice Schuette, Robert
Ferrell, Stephen Miller, UBS Painewebber Inc, UBS Warburg LLC to
[63-2] order, filed. (part 1 of 2)
(tward) Additional attachment(s)
added on 7/25/2006 (mgoolsby,). (Entered: 01/09/2004)

01/08/2004

66 AGREED MOTION for extension to
Court’s request for agreed docket
control order by Kevin Lamkin,
Janice Schuette, Robert Ferrell,
Stephen Miller, UBS Painewebber
Inc, UBS Warburg LLC, filed. (part
2 of 2) (tward) (Entered: 01/09/2004)

01/08/2004

(Court only) **Added for Robert Ferrell attorney Joe Kendall. (tward)
(Entered: 01/09/2004)

01/20/2004

67 ORDER granting [66-1] agreed motion for extension to Court’s request
for agreed docket control order.
Pltf ’s and Deft’s shall confer and
propose an agreed docket control
schedule for this action by January

App. 295
30, 2004. If they are unable to do so,
they should submit arguments in
writing to the Court so that it can
determine a reasonable schedule for
this case, entered. Parties Notified
(Signed by Judge Melinda Harmon)
(tward) (Entered: 01/21/2004)
01/20/2004

Deadline updated; Reset notice of
compliance of agreed docket control
schedule due for 1/30/04 (tward)
(Entered: 01/21/2004)

01/21/2004

(Court only) **Renoticed document
[67-1] order (khightower) (Entered:
01/23/2004)

01/21/2004

68 ANSWER by UBS Painewebber Inc,
UBS Warburg LLC to second
amended class action complaint,
filed. (tward) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 01/26/2004)

01/30/2004

69 MOTION to enter proposed docket
control order by UBS Painewebber
Inc, UBS Warburg LLC, Motion
Docket Date 2/19/04 [69-1] motion,
filed. (tward) Additional attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 02/02/2004)

01/30/2004

70 MOTION to approve docket control
order and request for oral argument
by Kevin Lamkin, Janice Schuette,
Robert Ferrell, Stephen Miller,
Motion Docket Date 2/19/04 [70-1]
motion filed. (tward) Additional

App. 296
attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 02/02/2004)
02/06/2004

71 Notice of change of address by
Kevin Lamkin, Janice Schuette for
attorney Bonnie E Spencer, filed.
(information fwd’d to attorney
admissions) (tward) Additional
attachment(s) added on 7/25/2006
(mgoolsby,). (Entered: 02/10/2004)

04/05/2004

72 ORDER; Pending before the Court
are the following motions: (1) Deft
UBS Financial Services Inc (f/k/a
UBS Paine Webber Inc) and UBS
Securities LLC’s (Ma. UBS Warburg
LLC) motion to enter proposed
docket control order or in the alternative to postpone entry of any
docket control order in H02-851
pending the entry of an amended
docket control order in Newby (H013624) (instrument #69 in H02-851);
and (2) a motion to approve docket
control order filed by pltfs’ Kevin
Lamkin, Janice Schuette, Robert
Ferrell and Stephen Miller, individually and on behalf of the putative
class (#70 in H02-851). Because
these motions impact upon the deposition protocol established by the
parties and approved by the Court,
the Court ORDERS that copies of
this order not only be sent to the
usual parties’ counsel, but in particular to G. Paul Howes. The Court

App. 297
further ORDERS that Mr Howes
shall file responses to the two motions as soon as possible, , entered;
Parties notified. (signed by Judge
Melinda Harmon) (tward) (Entered:
04/07/2004)
04/07/2004

(Court only) **Added party Univ of
California. (tward) (Entered:
04/08/2004)

04/07/2004

73 RESPONSE by Univ of California to
[70-1] motion to approve docket control order and request for oral argument, [69-1] motion to enter
proposed docket control order, filed.
(tward) Additional attachment(s)
added on 7/25/2006 (mgoolsby,). (Entered: 04/08/2004)

04/08/2004

75 ORDER; pltf ’s request for an exemption to the deposition protocol
established by the parties and approved by the Court is DENIED and
their [70-1] motion to approve
docket control order is DENIED.
UBS defts’ [69-1] motion to enter
proposed docket control order is
MOOT because of the deposition
protocol, entered; Parties notified.
(signed by Judge Melinda Harmon)
(tward) (Entered: 04/12/2004)

04/09/2004

74 REPLY by Kevin Lamkin, Janice
Schuette, Robert Ferrell to Newby
Lead Pltf ’s response to [70-1] motion to approve docket control order

App. 298
and request for oral argument, filed.
(tward) Additional attachment(s)
added on 7/25/2006 (mgoolsby,).
(Entered: 04/09/2004)
03/30/2005

76 NOTICE of Change of Address by
Andy Tindel, Provost*Umphrey Law
Firm L.L.P., counsel for Kevin Lamkin, filed. (Tindel, Andy) (Entered:
03/30/2005)

06/07/2005

77 MOTION to Compel Production of
Documents from Non-Party, Patrick
Mendenhall by Kevin Lamkin,
Janice Schuette, Robert Ferrell,
Stephen Miller, filed. Motion Docket
Date 6/27/2005. (Attachments: # 1
(p.31) Proposed Order)(rroberts,)
(Entered: 06/08/2005)

06/07/2005

78 NOTICE of Affiliation of Counsel by
Thomas L Hunt on behalf of Kevin
Lamkin, Janice Schuette, Robert
Ferrell, Stephen Miller, filed. (kmurphy,) (Entered: 06/08/2005)

06/07/2005

79 AMENDED NOTICE OF AFFILIATION OF COUNSEL by Thomas L
Hunt on behalf of Kevin Lamkin,
Janice Schuette, Robert Ferrell,
Stephen Miller, filed. (kmurphy,)
(Entered: 06/08/2005)

06/30/2005

80 MOTION for Extension of Time
Submission Date and Deadline for
Non-Party Patrick Mendenhall to
Respond to Plaintiffs’ 77 (p.968)
Motion to Compel by Patrick

App. 299
Mendenhall, Kevin Lamkin, Janice
Schuette, Robert Ferrell, Stephen
Miller, filed. Motion Docket Date
7/20/2005. (Filed in CA H 01-3624
#3661 by Charles Acker)(kmurphy,)
Additional attachment(s) added on
7/1/2005 (kmurphy,). (Entered:
07/01/2005)
06/30/2005

81 ORDER granting 80 (p.986) Agreed
Motion to Extend Submission Date
and Deadline for Non-Party Patrick
Mendenhall to Respond to Plaintiffs’
Motion to Compel.(Signed by Judge
Melinda Harmon) Parties notified.(kmurphy,) (Entered:
07/01/2005)

07/05/2005

82 NOTICE Of Withdrawal of re: 77
(p.968) MOTION to Compel Production of Documents from Non-Party,
Patrick Mendenhall by Kevin Lamkin, Janice Schuette, Robert Ferrell,
Stephen Miller, filed. (mewilliams,)
(Entered: 07/06/2005)

08/05/2005

(Court only) ***Motions terminated:
77 (p.968) MOTION to Compel Production of Documents from NonParty by 82 (p.995) Notice of Withdrawal, Patrick Mendenhall. (htippen,) (Entered: 08/05/2005)

08/08/2005

83 EMERGENCY MOTION to Compel
Responses to Requests for Production upon all Defts, by all plaintiffs,
filed. Motion Docket Date 8/29/2005.

App. 300
(Attachments: # 1 (p.31) Continuation)(kmurphy,) (Entered:
08/09/2005)
08/09/2005

84 ORDER denying without prejudice
83 (p.998) Motion to Compel. Pltfs
and dfts in CA H 03-4359 and CA
H 02-851 shall meet and confer in
an effort to work out their differences on this discovery. (Signed by
Judge Melinda Harmon) Parties
notified.(kmurphy,) (Entered:
08/10/2005)

03/31/2006

85 APPLICATION for Issuance of Letter of Request under the Hague
Convention Re Luqman Arnold, by
Kevin Lamkin, Janice Schuette,
Robert Ferrell, Stephen Miller, filed.
Motion Docket Date 4/20/2006. (Attachments: # 1 (p.31) Proposed Order)(psmith,) (Entered: 04/03/2006)

03/31/2006

86 Proposed LETTER REQUEST for
International Judicial Assistance
Pursuant to the Hague Convention
of March 18, 1970 on the taking of
Evidence in Civil or Commercial
Matters re: the 85 (p.1045) MOTION, filed. (Attachments: # 1 (p.31)
Exhibit A# 2 (p.44) Exhibit # 3
(p.45) Exhibit # 4 (p.47) Exhibit # 5
(p.49) Exhibit # 6 (p.51) Exhibit # 7
(p.81) Exhibit)(psmith,) Additional
attachment(s) added on 4/3/2006
(psmith,). (Entered: 04/03/2006)

App. 301
04/28/2006

87 ORDER granting expedited consideration of Pltf ’s Mtn to Compel Production of Documents. Parties
wishing to file a response shall file a
response by 05/05/06.(Signed by
Judge Melinda Harmon) Parties notified.(htippen,) (Entered:
04/28/2006)

05/01/2006 108 JOINT EMERGENCY MOTION to
Compel Production and MOTION to
Expedite Consideration by Kevin
Lamkin, Janice Schuette, Robert
Ferrell, Stephen Miller, filed. Motion
Docket Date 5/22/2006. (Attachments: # 1 (p.31) Proposed Order # 2
(p.44) Proposed Order Granting Expedited Consideration) This document was originally filed
electronically by attorney as inst
#49 in Civil Action No. H-034359.(ltien,) (Entered: 05/18/2006)
05/02/2006

88 ORDER that lead Plaintiff ’s Request for Issuance of Letter Request
Under the Hague Convention is
granted. Doc. 85 (p.1045) (Signed by
Judge Melinda Harmon) Parties notified.(ejuarez,) Modified on 5/4/2006
(ejuarez,). (Entered: 05/04/2006)

05/02/2006

89 Letter Rogatory Issued as to: Letter
of Request for International Judicial
Assistance Pursuant to the Hague
Convention of March 18, 1970 on
the taking of evidnece [sic] in Civil
or Commercial Matters. Related Doc

App. 302
# 86 (p.1056)., filed.(ejuarez,) (Entered: 05/05/2006)
05/05/2006

90 Opposed RESPONSE in Opposition
to 83 (p.998) MOTION to Compel
Responses to Requests for Production upon all Defts MOTION for
Emergency, filed by UBS Painewebber Inc. (Attachments: # 1 (p.31) Affidavit Declaration of Brendan P.
Cullen)(McMahon, Kerry) (Entered:
05/05/2006)

05/07/2006

91 EXHIBITS 1-3 to the RESPONSE in
Opposition to 83 (p.998) MOTION to
Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)

05/07/2006

92 EXHIBITS 4-8 to the RESPONSE in
Opposition to 83 (p.998) MOTION to
Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)

05/07/2006

93 EXHIBITS 9-15 to the RESPONSE
in Opposition to 83 (p.998) MOTION
to Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)

App. 303
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)
05/07/2006

94 EXHIBITS 16-21 to the RESPONSE
in Opposition to 83 (p.998) MOTION
to Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)

05/07/2006

95 EXHIBITS 22-24 to the RESPONSE
in Opposition to 83 (p.998) MOTION
to Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)

05/07/2006

96 EXHIBITS 25-26 to the RESPONSE
in Opposition to 83 (p.998) MOTION
to Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)

05/07/2006

97 EXHIBITS 27-30 to the RESPONSE
in Opposition to 83 (p.998) MOTION
to Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)

App. 304
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)
05/07/2006

98 EXHIBITS 31-32 to the RESPONSE
in Opposition to 83 (p.998) MOTION
to Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)

05/07/2006

99 EXHIBITS 33-34 to the RESPONSE
in Opposition to 83 (p.998) MOTION
to Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)
Modified on 5/8/2006 (espencer,).
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)

05/07/2006 100 CONTINUATION OF EXHIBIT 34
to the RESPONSE in Opposition to
83 (p.998) MOTION to Compel Responses to Requests for Production
upon all Defts MOTION for Emergency, filed by UBS Painewebber
Inc. (McMahon, Kerry) Modified on
5/8/2006 (espencer,). (Entered:
05/07/2006)
05/07/2006 101 EXHIBIT 35 to the RESPONSE in
Opposition to 83 (p.998) MOTION to
Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS

App. 305
Painewebber Inc. (McMahon, Kerry)
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)
05/07/2006 102 EXHIBIT [sic] 36-37 to the RESPONSE in Opposition to 83 (p.998)
MOTION to Compel Responses to
Requests for Production upon all
Defts MOTION for Emergency, filed
by UBS Painewebber Inc. (McMahon,
Kerry) Modified on 5/8/2006 (espencer,). (Entered: 05/07/2006)
05/07/2006 103 EXHIBIT 38 to the RESPONSE in
Opposition to 83 (p.998) MOTION to
Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)
05/07/2006 104 EXHIBIT [sic] 39-49 to the RESPONSE in Opposition to 85
(p.1045) MOTION, filed by UBS
Painewebber Inc. (McMahon, Kerry)
Modified on 5/8/2006 (espencer,).
(Entered: 05/07/2006)
05/09/2006 105 Supplemental RESPONSE in Opposition to 83 (p.998) MOTION to
Compel Responses to Requests for
Production upon all Defts MOTION
for Emergency, filed by UBS Painewebber Inc. (McMahon, Kerry)
(Entered: 05/09/2006)

App. 306
05/15/2006 106 PLEADING STRICKEN PER ORDER 110 (p.2175) RESPONSE to
Westboro and Stonehurst Plaintiff ’s
Submission in Support of the
Giancarlo and Lamkin Plaintiffs’
108 (p.2125) Emergency MOTION
to Compel Production of Documents,
filed by UBS Painewebber Inc.
(McMahon, Kerry) Modified on
5/25/2006 - linked to #108 (ltien,).
Modified on 6/8/2006 (espencer,).
(Entered: 05/15/2006)
05/15/2006 107 Agreed RESPONSE to Bank Defendants’ and Enron’s Motion to Extend
Expert Deadlines in the Consolidated and Coordinated Cases, filed
by Kevin Lamkin. (Meade, Dawn)
(Entered: 05/15/2006)
05/15/2006 109 ORDER on 108 (p.2125) Joint Emergency Motion to Compel Production
and Request for Expedited Consideration.(Signed by Judge Melinda
Harmon) Parties notified.(ltien,)
(Entered: 05/18/2006)
06/07/2006 110 ORDER striking 106 (p.2053) Response,. Pleading does not comply
with order (No. 4018) in CA 01-3624
issued 10/11/05.(Signed by Judge
Melinda Harmon) Parties notified.(espencer,) (Entered:
06/08/2006)
06/09/2006 111 ORDER striking 107 (p.2120) Response. Pleading does not comply

App. 307
with Order (No. 4018) in CA 01-3624
issued 10/11/05.(Signed by Judge
Melinda Harmon) Parties notified.(espencer,) (Entered:
06/09/2006)
07/17/2006 112 STATEMENT to proceed independently of certified class by Kevin
Lamkin, Janice Schuette, Robert
Ferrell, Stephen Miller, filed.(kejones,) (Entered: 07/18/2006)
07/18/2006 113 NOTICE of Production of Expert Reports by UBS Painewebber Inc, filed.
(McMahon, Kerry) (Entered:
07/18/2006)
07/25/2006 114 ORDER - Plaintiffs’ Counsel for
cases CA H 01-4063, H 01-4125,
H 01-4128, H 01-4150, H 01-4208,
H 01-4209, H 01-4326, H 02-0851,
H 02-2160, H 02-3754 and H 023942 shall file appropriate motion
to dismiss if the case encompassed
within the Tittle [sic] action or a
statement indicating that they wish
to proceed independently. CA H 020851 and H 03-2257 cases are not
consolidated with Tittle [sic] but are
coordinated.(Signed by Judge Melinda
Harmon) Parties notified.(kmurphy,)
(Entered: 07/26/2006)
07/26/2006 115 AMENDED ORDER amending CA
H 01-3913 1221 Order. Plaintiffs’
counsel for CA H 01-4040, H 014063, H 01-4089, H 01-4125,

App. 308
H 01-4128, H 01-4150, H 01-4208,
H 01-4209, H 01-4209 [sic], H 014299, H 01-4326, H 02-267, H 021058, H 02-2160, H 02-3754, H 023942 shall file an appropriate motion to dismiss if the case is encompassed within the Tittle [sic] action
or a statement to proceed independently. CA H 02-851 and CA H
03-2257 are coordinated with Tittle
[sic] CA H 01-3913.(Signed by Judge
Melinda Harmon) Parties notified.
(kmurphy,) (Entered: 07/26/2006)
08/11/2006 116 MOTION for a Distinct Scheduling
Order by all plaintiffs, filed. Motion
Docket Date 8/31/2006. (Attachments: # 1 (p.31) Proposed Order)(kejones,) (Entered: 08/11/2006)
08/11/2006 117 Unopposed MOTION for Leave to
Amend 20 (p.270) Amended Complaint, by all plaintiffs, filed. Motion
Docket Date 8/31/2006. (Attachments: # 1 (p.31) Continuation, # 2
(p.44) Continuation, # 3 (p.45) Continuation,# 4 (p.47) Continuation,
# 5 (p.49) Continuation, # 6 (p.51)
Continuation, # 7 (p.81) Continuation, # 8 (p.84) Proposed Order)(jbradford,) (Entered:
08/14/2006)
08/14/2006 118 DEMAND for Trial by Jury by all
plaintiffs, filed.(ltien,) (Entered:
08/16/2006)

App. 309
08/16/2006 119 DESIGNATION OF REBUTTAL
EXPERTS by Kevin Lamkin, Janice
Schuette, Robert Ferrell, Stephen
Miller, Dianne Swiber, Terry Nelson,
Joe Brown, and Frank Gittess,
filed.(jbradford,) (Entered:
08/16/2006)
08/16/2006 120 ORDER granting Plaintiffs’ 117
(p.2198) Motion to Amend Complaint.(Signed by Judge Melinda
Harmon) Parties notified.(kmurphy,)
(Entered: 08/17/2006)
08/16/2006 121 ORDER granting Agreed 116
(p.2189) Motion for District Scheduling Order.(Signed by Judge Melinda
Harmon) Parties notified.(kmurphy,)
(Entered: 08/18/2006)
08/24/2006 122 Third AMENDED Class Action
Complaint against UBS Financial
Services Inc, UBS Securities LLC
filed by Joe Brown, Frank Gittess,
Terry Nelson, Dianne Swiber, Kevin
Lamkin, Janice Schuette, Robert
Ferrell, Stephen Miller. Related
document: 20 (p.270) Amended
Complaint/Counterclaim/Crossclaim
etc., filed by Stephen Miller,Kevin
Lamkin, Janice Schuette, Robert
Ferrell. (Attachments: # 1 (p.31)
Continuation # 2 (p.44) Continuation # 3 (p.45) Continuation # 4
(p.47) Continuation # 5 (p.49) Continuation # 6 (p.51) Continuation # 7
(p.81) Continuation # 8 (p.84)

App. 310
Continuation # 9 (p.86) Affidavit)(cpeebles) (Entered: 08/25/2006)
09/14/2006 124 ORDER of USCA for the Fifth Circuit (certified copy) dated 8/30/2006
(USCA No. 05/20582). Motion to substitute appellant Kenneth Lay with
the executrix of his estate, Linda
Lay is granted., filed.(mmar,) (Entered: 09/18/2006)
09/15/2006 123 ORDER of USCA for the Fifth Circuit (certified copy) dated 8/23/2006
(USCA No. 05-20380). Motion for an
order substituting Linda Lay as executrix of Kenneth Lay’s estate is
granted., filed.(mmar,) (Entered:
09/18/2006)
09/29/2006 125 NOTICE of Motion to Dismiss Plaintiff ’s Third Amended Class Action
Complaint (#122) by UBS Painewebber, Inc., filed. (McMahon, Kerry)
(Entered: 09/29/2006)
09/29/2006 126 MEMORANDUM in Support Motion
to Dismiss by UBS Painewebber,
Inc., filed. (Attachments: # 1 (p.31)
Proposed Order Proposed Lampkin
Order* 2 (p.441)(McMahon, Kerry)
(Entered: 09/29/2006)
09/29/2006 127 APPENDIX re: 122 (p.2356)
Amended Complaint/Counterclaim/
Crossclaim etc.,, by UBS Painewebber, Inc., filed. (Attachments:
# 1 (p.31) Exhibit Lomuscio Declaration Exhibit 4# 2 (p.44) Exhibit

App. 311
Lomuscio Declaration Exhibit
5)(McMahon, Kerry) (Entered:
09/29/2006)
09/29/2006 128 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 129 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 130 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 131 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 132 APPENDIX by UBS Painewebber,
Inc., filed. (Attachments: # 1 (p.31)
Exhibit Lomuscio Declaration Exhibit 9# 2 (p.44) Exhibit Lomuscio
Declaration Exhibit 10)(McMahon,
Kerry) (Entered: 09/29/2006)
09/29/2006 133 APPENDIX by UBS Painewebber,
Inc., filed. (Attachments: # 1 (p.31)
Exhibit Lomuscio Declaration Exhibit 12# 2 (p.44) Exhibit Lomuscio
Declaration Exhibit 13# 3 (p.45) Exhibit Lomuscio Declaration Exhibit
14)(McMahon, Kerry) (Entered:
09/29/2006)
09/29/2006 134 APPENDIX by UBS Painewebber,
Inc., filed. (Attachments: # 1 (p.31)
Exhibit Lomuscio Declaration

App. 312
Exhibit 16# 2 (p.44) Exhibit Lomuscio Declaration Exhibit
17)(McMahon, Kerry) (Entered:
09/29/2006)
09/29/2006 135 APPENDIX by UBS Painewebber,
Inc., filed. (Attachments: # 1 (p.31)
Exhibit Lomuscio Declaration Exhibit 19)(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 136 APPENDIX by UBS Painewebber,
Inc., filed. (Attachments: # 1 (p.31)
Exhibit Lomuscio Declaration Exhibit 21# 2 (p.44) Exhibit Lomuscio
Declaration Exhibit 22)(McMahon,
Kerry) (Entered: 09/29/2006)
09/29/2006 137 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 138 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 139 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 140 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 141 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)

App. 313
09/29/2006 142 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 143 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 144 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 09/29/2006)
09/29/2006 125 Notice of MOTION to Dismiss 122
(p.2356) Third Amended Class Action Complaint, by UBS Financial
Services Inc, UBS Securities LLC,
filed. Motion Docket Date
10/19/2006. (Entered: 12/11/2006)
10/31/2006 145 Agreed MOTION for Extension of
Time to Respond to Defendants Motion to Dismiss Plaintiffs Third
Amended Class Action Complaint by
all plaintiffs, filed. Motion Docket
Date 11/20/2006. (Tindel, Andy) (Entered: 10/31/2006)
10/31/2006 146 Agreed PROPOSED ORDER re: 145
(p.4759) Agreed MOTION for Extension of Time to Respond to Defendants Motion to Dismiss Plaintiffs
Third Amended Class Action Complaint, filed.(Tindel, Andy) (Entered:
10/31/2006)
11/06/2006 147 ORDER extending Plaintiff ’s Response Deadline to Defendants’
Motion to Dismiss Plaintiffs Third
Amended Action Complaint 145

App. 314
(p.4759) Motion for Extension of
Time.(Signed by Judge Melinda
Harmon) Parties notified.(sbyrum,)
(Entered: 11/07/2006)
11/06/2006

(Court only) ***Set/Reset Deadlines:
Responses due by 11/27/2006 Replies due by 1/8/2007 (sbyrum,)
(Entered: 11/07/2006)

11/27/2006 148 RESPONSE to 166 (p.5316) MOTION to Dismiss 122 (p.2356) Third
Amended Class Action Complaint,
filed by Kevin Lampkin, Janice
Schuette, Joe Brown, Frank Gittess,
Terry Nelson, Dianne Swiber,
Robert Ferrell, Stephen Miller. (Attachments: # 1 (p.31) Continuation
MemorandumInSupportOfPsResponseToMotionToDismiss)(Augustus, David) Modified on 12/11/2006 linked to #166 (ltien,). (Entered:
11/27/2006)
11/27/2006 149 Declaration of David L. Augustus
and Attachments 1 - 2 (To Memorandum Of Law In Support of Ps Response To Motion To Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 150 Attachment 3 to Memorandum of
Law In Support of Plaintiffs Response to Motion To Dismiss by

App. 315
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 151 Attachments 4 - 8 to Memorandum
of Law in Support of Plaintiffs Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 152 Attachment 9 to Memorandum of
Law in Support of Plaintiffs Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 153 Attachments 10 - 11 to Memorandum of Law in Support of Plaintiffs
Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 154 Attachments 12 - 13 to Memorandum of Law in Support of Plaintiffs
Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,

App. 316
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 155 Attachments 14 - 15 to Memorandum of Law in Support of Plaintiffs
Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 156 Attachments 16-1 to 16-9 to Memorandum of Law in Support of Plaintiffs Response to Motion to Dismiss
by Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 157 Attachments 17 - 20 to Memorandum of Law in Support of Plaintiffs
Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 158 Attachments 21 to 24-2 to Memorandum of Law in Support of Plaintiffs
Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry

App. 317
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 159 Attachments 25 - 31 to Memorandum of Law in Support of Plaintiffs
Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 160 Attachments 32 - 35 to Memorandum of Law in Support of Plaintiffs
Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 161 Attachment 36 to Memorandum of
Law in Support of Plaintiffs Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 162 Attachments 37- 39 to Memorandum
of Law in Support of Plaintiffs Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert

App. 318
Ferrell, Stephen Miller, filed.(Augustus, David) (Entered: 11/27/2006)
11/27/2006 163 Attachments 40 - 44 to Memorandum of Law in Support of Plaintiffs
Response to Motion to Dismiss by
Kevin Lampkin, Janice Schuette,
Joe Brown, Frank Gittess, Terry
Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller, filed.(Augustus,
David) (Entered: 11/27/2006)
11/27/2006 164 RESPONSE to 166 (p.5316) MOTION to Dismiss 122 (p.2356) Third
Amended Class Action Complaint,
filed by Kevin Lampkin, Janice
Schuette, Joe Brown, Frank Gittess,
Terry Nelson, Dianne Swiber, Robert
Ferrell, Stephen Miller. (Augustus,
David) Modified on 12/11/2006 linked to #166 (ltien,). (Entered:
11/27/2006)
11/27/2006 165 PROPOSED ORDER re: 164
(p.5306) Response to Motion,
filed.(Augustus, David) (Entered:
11/27/2006)
11/27/2006 164 [sic] Alternatively, MOTION for
Leave to Amend Complaint by all
plaintiffs, filed. Motion Docket Date
12/18/2006. (Entered: 12/11/2006)
01/02/2007 166 MOTION to Certify Class by Kevin
Lampkin, Janice Schuette, Joe
Brown, Frank Gittess, Terry Nelson,
Dianne Swiber, Robert Ferrell,
Stephen Miller, filed. Motion Docket

App. 319
Date 1/22/2007. (Attachments: # 1
(p.31) # 2 (p.44) Exhibit # 3 (p.45)
Exhibit # 4 (p.47) Exhibit # 5 (p.49)
Exhibit # 6 (p.51) Exhibit # 7 (p.81)
Exhibit # 8 (p.84) Exhibit # 9 (p.86)
Exhibit # 10 (p.88) Exhibit # 11
(p.89) Exhibit)(Hunt, Thomas) (Entered: 01/02/2007)
01/08/2007 167 REPLY in Support of 125 (p.2518)
MOTION to Dismiss 122 (p.2356)
Amended Complaint/Counterclaim/
Crossclaim etc.,,, filed by UBS Painewebber, Inc.. (Attachments: # 1
(p.31) Supplement Supplemental
Declaration)(McMahon, Kerry) (Entered: 01/08/2007)
01/08/2007 168 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 01/08/2007)
01/08/2007 169 APPENDIX by UBS Painewebber,
Inc., filed. (Attachments: # 1 (p.31
Appendix Exhibits 1-3 (cont))
(McMahon, Kerry) (Entered:
01/08/2007)
01/08/2007 170 APPENDIX by UBS Painewebber,
Inc., filed. (Attachments: # 1 (p.31)
Appendix Exhibits 1-3
(cont))(McMahon, Kerry) (Entered:
01/08/2007)
01/08/2007 171 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 01/08/2007)

App. 320
01/08/2007 172 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 01/08/2007)
01/08/2007 173 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 01/08/2007)
01/08/2007 174 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 01/08/2007)
01/08/2007 175 APPENDIX by UBS Painewebber,
Inc., filed.(McMahon, Kerry) (Entered: 01/08/2007)
01/08/2007 176 APPENDIX by UBS Painewebber,
Inc., filed. (Attachments: # 1 (p.31)
Exhibit Exhibits 4-5 (cont))
(McMahon, Kerry) (Entered:
01/08/2007)
01/08/2007 177 APPENDIX by UBS Painewebber,
Inc., filed. (Attachments: # 1 (p.31)
Errata Exhibits 4-5 (cont))
(McMahon, Kerry) (Entered:
01/08/2007)
01/29/2007 178 RESPONSE to 167 (p.5522) Reply in
Support of 125 (p.2518) Motion to
Dismiss, filed by Kevin Lampkin,
Janice Schuette, Joe Brown, Frank
Gittess, Terry Nelson, Dianne Swiber, Robert Ferrell, Stephen Miller.
(Attachments: # 1 (p.31) Supplemental Declaration of David L. Augustus# 2 (p.44) Attachment 1# 3
(p.45), Attachment 2# 4 (p.47) Attachment 3# 5 (p.49) Attachment 4

App. 321
# 6 (p.51) Attachment 5)(Hunt,
Thomas) Modified on 2/6/2007 linked to #125 (Hien,). (Entered:
01/29/2007)
01/30/2007 179 NOTICE of Change of Address by
Rodney Acker and Ellen Sessions,
counsel for UBS Financial Services
Inc, UBS Painewebber, Inc., UBS Securities LLC, filed. (Acker, Charles)
(Entered: 01/30/2007)
01/30/2007 180 Agreed MOTION for Extension of
Time Class Certification Briefing by
UBS Financial Services Inc, UBS
Painewebber, Inc., UBS Securities
LLC, filed. Motion Docket Date
2/20/2007. (Acker, Charles) (Entered:
01/30/2007)
01/30/2007 181 Agreed PROPOSED ORDER re: 180
(p.5806) Agreed MOTION for Extension of Time Class Certification
Briefing, filed.(Acker, Charles) (Entered: 01/30/2007)
02/01/2007 182 ORDER granting 180 (p.5806)
Agreed Motion to Amend Briefing
Schedule for Class Certification.
(Signed by Judge Melinda Harmon)
Parties notified.(ltien,) (Entered:
02/02/2007)
02/05/2007 183 RESPONSE to 178 (p.5712) Surreply in Opposition to 125 (p.2518),
Motion to Dismiss, filed by UBS Financial Services Inc, UBS Securities
LLC. (Acker, Charles) Modified on

App. 322
2/6/2007 - linked to #125 (ltien,).
(Entered: 02/05/2007)
02/06/2007 184 (Re-Filing Due to Missing Page) Exhibit E to Lead Plaintiffs’ Motion for
Class Certification by Kevin Lampkin, Janice Schuette, Joe Brown,
Frank Gittess, Terry Nelson, Dianne
Swiber, Robert Ferrell, Stephen
Miller, filed.(Hunt, Thomas)
(Entered: 02/06/2007)
04/02/2007 185 Joint MOTION for Clarification by
all plaintiffs, filed.Motion Docket
Date 4/23/2007. (Hunt, Thomas)
(Entered: 04/02/2007)
04/02/2007 186 (CORRECTED DOCKET ENTRY:
Plaintiffs Joint NOTICE Of Dispute
And Motion For Determination Regarding The Court’s Stay Order,
Newby #5638) Joint MOTION for
Clarification by all plaintiffs,
filed.Motion Docket Date 4/23/2007.
(Hunt, Thomas) Text Modified on
6/27/2007 (htippen,). (Entered:
04/02/2007)
04/03/2007 187 NOTICE in Opposition re: 186
(p.5876) Joint MOTION for Clarification, 185 (p.5835) Joint MOTION
for Clarification by UBS Financial
Services Inc, UBS Painewebber, Inc.,
UBS Securities LLC, filed. (Acker,
Charles) (Entered: 04/03/2007)
04/20/2007 188 NOTICE Regarding Stay re: 186
(p.5876) Joint MOTION for

App. 323
Clarification, 185 Joint MOTION for
Clarification by UBS Financial Services Inc, UBS Painewebber, Inc.,
UBS Securities LLC, filed. (Acker,
Charles) (Entered: 04/20/2007)
06/14/2007 189 ORDER granting 185 (p.5835) Motion for Determination regarding
the Court’s Stay Order (#185 in
H-02-851 and #139 in H-03-4359).
The Court ORDERS that the motion
for determination is GRANTED.
The Court concludes that not only
the appeal of the reversal of this
Court’s class certification in Newby,
but also the Supreme Court’s granting a writ of certiorari in the Charter Communications action warrant
continuing the stay in these two
suits until the Supreme Court issues an opinion on the scope of
§ 10(b).(Signed by Judge Melinda
Harmon) Parties notified.(htippen,)
(Entered: 06/14/2007)
06/14/2007

(Court only) Set/Cleared Flags.
Stayed flag set. (htippen,) (Entered:
06/14/2007)

06/14/2007

(Court only) ***Motion(s) terminated by 189 (p.5926) Order granting 185 (p.5835) motion: 186
(p.5876) Joint MOTION for Clarification. (htippen,) (Entered:
06/27/2007)

App. 324
07/28/2010 190 Joint MOTION to Lift Stay by
Joe Brown, Robert Ferrell, Frank
Gittess, Kevin Lampkin, Stephen
Miller, Terry Nelson, Janice
Schuette, Dianne Swiber, filed. Motion Docket Date 8/18/2010. (Meade,
Dawn) (Entered: 07/28/2010)
08/05/2010 191 RESPONSE to 190 (p.5928) Joint
MOTION to Lift Stay filed by UBS
Financial Services Inc, UBS Painewebber, Inc., UBS Securities LLC.
(Acker, Charles) (Entered:
08/05/2010)
08/05/2010 192 DECLARATION of Stephen M.
Dollar re: 191 (p.5932) Response
to Motion, filed.(Acker, Charles)
(Entered: 08/05/2010)
08/06/2010 193 Joint REPLY to Response to 190
(p.5928) Joint MOTION to Lift Stay,
filed by Joe Brown, Robert Ferrell,
Frank Gittess, Kevin Lampkin,
Stephen Miller, Terry Nelson, Janice
Schuette, Dianne Swiber. (Meade,
Dawn) (Entered: 08/06/2010)
08/06/2010 194 PROPOSED ORDER re: 190
(p.5928) Joint MOTION to Lift Stay,
filed.(Meade, Dawn) (Entered:
08/06/2010)
08/09/2010 195 EXHIBITS re: 193 (p.5945) Reply to
Response to Motion by Joe Brown,
Robert Ferrell, Frank Gittess, Kevin
Lampkin, Stephen Miller, Terry Nelson, Janice Schuette, Dianne Swiber,

App. 325
filed.(Meade, Dawn) (Entered:
08/09/2010)
11/16/2010 196 NOTICE of Pending Motion re: 190
(p.5928) Joint MOTION to Lift Stay
by Kevin Lampkin, filed. (Tindel,
Andy) (Entered: 11/16/2010)
08/11/2011 197 ORDER granting in part and denying in part 1901 Joint MOTION to
Lift Stay; the motion to lift the stay
is granted, but denied as to the
scheduling conference. The Court
will dismiss the pending motions to
dismiss shortly. STAYED flag
cleared..(Signed by Judge Melinda
Harmon) Parties notified.(htippen,)
(Entered: 08/11/2011)
08/18/2011 198 MOTION for Leave to File Fourth
Amended Complaint by Joe Brown,
Robert Ferrell, Frank Gittess, Kevin
Lampkin, Stephen Miller, Terry
Nelson, Dianne Swiber, filed. Motion
Docket Date 9/8/2011. (Attachments:
# 1 (p.31) Exhibit A, # 2 (p.44) Exhibit A Supp 1, # 3 (p.45) Exhibit A
Supp 2, # 4 (p.47) Exhibit A Supp 3,
# 5 (p.49) Exhibit A Supp 4, # 6
(p.51) Exhibit A Supp 5, # 7 (p.81)
Exhibit A Supp 6, # 8 (p.84) Exhibit
A Supp 7, # 9 (p.86) Exhibit A Supp
8, # 10 (p.88) Exhibit A Supp 9, # 11
(p.89) Exhibit B, # 12 (p.90) Proposed Order)(Meade, Dawn) Filers

App. 326
modified on 8/30/2011 (ltien,). (Entered: 08/18/2011)
09/07/2011 199 Agreed MOTION for Extension of
Time to Extend Briefing Deadlines
for Plaintiffs’ Motions for Leave to
Amend in Lampkin v. UBS Financial Services, Inc., et al. and
Giancarlo v. UBS Financial Services,
Inc., et al. by UBS Financial Services Inc, UBS Securities LLC, filed.
Motion Docket Date 9/28/2011. (Attachments: # 1 (p.31) Order Granting Agreed Motion to Extend
Briefing Deadlines for Plaintiffs’
Motions for Leave to Amend in
Lampkin v. UBS Financial Services,
Inc., et al. and Giancarlo v. UBS Financial Services, Inc., et al.)(Acker,
Charles) (Entered: 09/07/2011)
09/15/2011 200 RESPONSE in Opposition to 198
(p.5976) MOTION for Leave to File
Fourth Amended Complaint, filed by
UBS Financial Services Inc, UBS
Painewebber, Inc., UBS Securities
LLC. (Attachments: # 1 (p.31) Proposed Order)(Acker, Charles) (Entered: 09/15/2011)
09/15/2011 201 DECLARATION of Stephen M.
Dollar re: 200 (p.6236) Response
in Opposition to Motion, filed.
(Attachments: # 1 (p.31) Exhibit 1,
# 2 (p.44) Exhibit 2, # 3 (45) Exhibit
3, # 4 (p.47) Exhibit 4, # 5 (p.49)
Exhibit 5, # 6 (p.51) Exhibit 6, # 7

App. 327
(p.81) Exhibit 7, # 8 (p.84) Exhibit 8,
# 9 (p.86) Exhibit 9, # 10 (p.88)
Exhibit 10, # 11 (p.89) Exhibit
11)(Acker, Charles) (Entered:
09/15/2011)
09/19/2011 202 Agreed MOTION to Vacate 182
(p.5816) Order on Motion for Extension of Time by Joe Brown, Robert
Ferrell, Frank Gittess, Kevin Lampkin, Stephen Miller, Terry Nelson,
Dianne Swiber, UBS Financial Services Inc, UBS Securities LLC, filed.
Motion Docket Date 10/11/2011.
(Attachments: # 1 (p.31) Proposed
Order)(Tindel, Andy) (Entered:
09/19/2011)
02/22/2012

Archive Data: FRC Shipment id:
2011, Accession number: 021-100230, Location number: shelved,
Box number: 20-21, Type of documents sent to FRC: c, Date documents shipped to FRC: 12/14/2009,
Disposal authority: IIA7b(2), Disposal date: 01/01/2034, Restriction
code: N, Notes: Closed Civil Case
Files. Notes 2: 4:02cv0043 through
4:02cv2698, filed. (dkellyadi,) (Entered: 02/22/2012)

03/12/2012 203 ORDER denying 198 (p.5976) Motion for Leave to File.(Signed by
Judge Melinda Harmon) Parties
notified.(htippen,) (Entered:
03/12/2012)

App. 328
03/12/2012 204 Clerks Notice regarding CMECF
notice returned undeliverable from
paulh@rgrdlaw.com on the account
of George Paul Howes. The referenced email address has been deleted from your CM/ECF account,
filed. (tferguson,) (Entered:
03/12/2012)
06/27/2012

(Court only) ***Motion(s) terminated as MOOT by 209 (p.6566) Order denying DI Motion: 199 (p.6227)
Agreed MOTION for Extension of
Time to Extend Briefing Deadlines
for Plaintiffs’ Motions for Leave to
Amend in Lampkin v. UBS Financial Services, Inc., et al. and
Giancarlo v. UBS Financial Services,
Inc., et al.. (htippen,) (Entered:
06/27/2012)

07/03/2012 205 ORDER granting 202 (p.6532) Motion to Vacate Amended Briefing
Schedule for Class Certification and
to Reset Briefing Schedule Deadlines.(Signed by Judge Melinda Harmon) Parties notified.(bthomas,)
(Entered: 07/03/2012)
07/09/2013 206 ORDER. Status Report due within
thirty days. (Signed by Judge
Melinda Harmon) Parties notified.(rvazquez) (Entered:
07/09/2013)
07/19/2013 207 MOTION to Perpetuate Expert Testimony by Claimants (H02-0851),

App. 329
filed. Motion Docket Date 8/9/2013.
(Meade, Dawn) (Entered:
07/19/2013)
08/08/2013 208 STATUS REPORT by UBS Financial Services Inc, UBS Securities
LLC, filed.(Acker, Charles) (Entered:
08/08/2013)
08/08/2013 209 RESPONSE in Opposition to 207
(p.6549) MOTION to Perpetuate Expert Testimony, filed by UBS Financial Services Inc, UBS Securities
LLC. (Attachments: # 1 (p.31) Proposed Order)(Acker, Charles) (Entered: 08/08/2013)
08/29/2013 210 NOTICE of Referral of Motion to
Magistrate Judge Frances H. Stacy
re 2.0/ MOTION to Perpetuate
Expert Testimony, filed. (rvazquez)
(Entered: 08/29/2013)
09/03/2013 211 MOTION for Oral Hearing on
Motion to Perpetuate Testimony
Hearing re: 21:17, MOTION to Perpetuate Expert Testimony by Joe
Brown, Robert Ferrell, Frank
Gittess, Kevin Lampkin, Stephen
Miller, Terry Nelson, Janice
Schuette, Dianne Swiber, filed. Motion Docket Date 9/24/2013. (Spencer, Bonnie) (Entered: 09/03/2013)
09/04/2013 212 NOTICE of Referral of Motion to
Magistrate Judge Frances H. Stacy
re 211 MOTION for Oral Hearing
on Motion to Perpetuate Testimony

App. 330
Hearing re: 207 (p.6549) MOTION
to Perpetuate Expert Testimony,
filed. (rvazquez) (Entered:
09/04/2013)
09/04/2013 213 ORDER granting 207 (p.6549) Motion to Perpetuate the Testimony of
Expert Witnesses.(Signed by Magistrate Judge Frances H Stacy) Parties notified.(wbostic) (Entered:
09/04/2013)
09/05/2013 214 RESPONSE in Opposition to 211
(p.6581) MOTION for Oral Hearing
on Motion to Perpetuate Testimony
Hearing re: 207 (p.6549), MOTION
to Perpetuate Expert Testimony,
filed by UBS Financial Services Inc,
UBS Securities LLC. (Acker,
Charles) (Entered: 09/05/2013)
09/05/2013 215 NOTICE of Filing of Deposition
Transcripts by Joe Brown, Robert
Ferrell, Frank Gittess, Kevin Lampkin, Stephen Miller, Terry Nelson,
Janice Schuette, Dianne Swiber,
filed. (Attachments: # 1 (p.31) Exhibit Exhibit 1, # 2 (p.44) Exhibit
Exhibit 2, # 3 (p.45) Exhibit Exhibit
3)(Meade, Dawn) (Entered:
09/05/2013)
09/06/2013 216 REPLY to Response to 211 (p.6581)
MOTION for Oral Hearing on Motion to Perpetuate Testimony Hearing re: 207 (p.6549) MOTION to
Perpetuate Expert Testimony, filed

App. 331
by Joe Brown, Robert Ferrell, Frank
Gittess, Kevin Lampkin, Stephen
Miller, Terry Nelson, Janice
Schuette, Dianne Swiber. (Spencer,
Bonnie) (Entered: 09/06/2013)
09/11/2013 217 ORDER denying as moot 211
(p.6581) Motion for Hearing; granting 207 (p.6549) Motion to perpetuate the expert witnesses.(Signed by
Magistrate Judge Frances H Stacy)
Parties notified.(bwhite, 4) (Entered:
09/11/2013)
10/21/2013 218 Unopposed MOTION for Extension
of Time to Perpetuate Expert Testimony by Joe Brown, Robert Ferrell,
Frank Gittess, Kevin Lampkin,
Stephen Miller, Terry Nelson,
Janice Schuette, Dianne Swiber,
filed. Motion Docket Date
11/12/2013. (Attachments: # 1 (p.31)
Exhibit Exhibit A)(Spencer, Bonnie)
(Entered: 10/21/2013)
10/23/2013 219 ORDER granting 218 (p.8359) Motion for Extension of Time.(Signed
by Judge Melinda Harmon) Parties
notified.(rvazquez) (Entered:
10/28/2013)
11/12/2013 220 MOTION for Michael Hamilton to
Appear Pro Hac Vice by Kevin
Lampkin, et. al., filed. Motion
Docket Date 12/3/2013. (gsalinas, 5)
(Entered: 11/15/2013)

App. 332
11/26/2013 221 ORDER granting 220 (p.8367) Motion to Appear Pro Hac Vice.(Signed
by Judge Melinda Harmon) Parties
notified.(rvazquez) (Entered:
11/26/2013)
12/10/2013 222 NOTICE of Supplement of Documents for Expert Reports by Joe
Brown, Robert Ferrell, Frank
Gittess, Kevin Lampkin, Stephen
Miller, Terry Nelson, Janice
Schuette, Dianne Swiber, filed.
(Attachments: # 1 (p.31) Exhibit
Exhibit 1)(Meade, Dawn) (Entered:
12/10/2013)
06/16/2014 223 Opposed MOTION Motion [sic] to
Rule by Joe Brown, Robert Ferrell,
Frank Gittess, Kevin Lampkin, Stephen Miller, Terry Nelson, Janice
Schuette, Dianne Swiber, filed. Motion Docket Date 7/7/2014. (Attachments: # 1 (p.31) Exhibit Exhibit A,
# 2 (p.44) Exhibit Exhibit B)(Spencer, Bonnie) (Entered: 06/16/2014)
07/07/2014 224 RESPONSE to 223 (p.8436) Opposed MOTION Motion [sic] to Rule
filed by UBS Financial Services Inc,
UBS Painewebber, Inc., UBS Securities LLC. (Ettinger, Lauren)
(Entered: 07/07/2014)
02/28/2017 225 OPINION AND ORDER (Signed
by Judge Melinda Harmon) Parties
notified.(rhawkins) (Entered:
02/28/2017)

App. 333
02/28/2017 226 FINAL JUDGMENT. Case terminated on 2/28/2017(Signed by
Judge Melinda Harmon) Parties
notified.(rhawkins) (Entered:
02/28/2017)
03/28/2017 227 MOTION for Reconsideration of
226 (p.8696) Final Judgment, 225
(p.8468) Order by Joe Brown, Robert
Ferrell, Frank Gittess, Kevin Lampkin, Stephen Miller, Terry Nelson,
Dianne Swiber, filed. Motion Docket
Date 4/18/2017. (Meade, Dawn) (Entered: 03/28/2017)
03/28/2017 228 PROPOSED ORDER re: 227
(p.8697) MOTION for Reconsideration of 226 (p.8696) Final Judgment,
225 (p.8468) Order, filed.(Meade,
Dawn) (Entered: 03/28/2017)
04/18/2017 229 RESPONSE in Opposition to 227
(p.8697) MOTION for Reconsideration of 226, Final Judgment, 225
(p.8468) Order, filed by UBS Financial Services Inc, UBS Securities
LLC. (Acker, Charles) (Entered:
04/18/2017)
08/25/2017 230 OPINION AND ORDER denying
227 (p.8697) MOTION for Reconsideration of Final Judgment, 225
(p.8468) Order (Signed by Judge
Melinda Harmon) Parties notified.(rhawkins) (Entered:
08/25/2017)

App. 334
09/21/2017 231 NOTICE OF APPEAL to US Court
of Appeals for the Fifth Circuit re:
226 (p.8696) Final Judgment, 203
(p.6543) Order on Motion for Leave
to File, 225 (p.8468) Order, 230
(p.8728) Order by Joe Brown, Robert
Ferrell, Frank Gittess, Kevin Lampkin, Stephen Miller, Terry Nelson,
Dianne Swiber (Filing fee $ 505, receipt number 0541-18954437),
filed.(Tindel, Andy) (Entered:
09/21/2017)
09/22/2017 232 Clerks Notice of Filing of an Appeal.
The following Notice of Appeal and
related motions are pending in the
District Court: 231 (p.8732) Notice
of Appeal,. Fee status: Paid. Reporter(s): F. Warner; ERO, filed. (Attachments: # 1 (p.31) Notice of
Appeal, # 2 (p.44) ORDER denying
198 Motion for Leave to File, # 3
(p.45) Opinion and Order, # 4 (p.47)
Final Judgment of Dismissal, # 5
(p.49) Opinion and Order Denying
Motion to Reconsider, # 6 (p.51) Public Docket Sheet) (jtabares, 1) (Entered: 09/22/2017)
09/22/2017

Appeal Review Notes re: 231
(p.8732) Notice of Appeal,. Fee status: Paid. The appeal filing fee has
been paid.Hearings were held in
the case. DKT13 transcript order
form(s) due within 14 days of the filing of the notice of appeal. Number

App. 335
of DKT-13 Forms expected: 3,
filed.(jtabares, 1) (Entered:
09/22/2017)
10/02/2017

Notice of Assignment of USCA No.
17-20608 re: 231 (p.8732) Notice of
Appeal, filed.(mperez, 1) (Entered:
10/02/2017)

10/06/2017 233 DKT13 TRANSCRIPT ORDER REQUEST by Plaintiffs/Andy Tindel.
No hearings This order form relates
to the following: 231 (p.8732) Notice
of Appeal filed.(Tindel, Andy) (Entered: 10/06/2017)

App. 336
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN LAMPKIN,
JANICE SCHUETTE,
ROBERT FERRELL,
and STEPHEN MILLER,
Individually and on
Behalf of All Others
Similarly Situated,
    Plaintiffs,
VS.
UBS FINANCIAL
SERVICES, INC., and
UBS SECURITIES LLC,
    Defendants.

§
§
§
§
§
§
§
§
§
§
§
§
§
§

Judge Melinda Harmon
CIVIL ACTION NO.
H:02-CV-0851

PLAINTIFFS’ THIRD
AMENDED CLASS ACTION COMPLAINT
1. The Plaintiffs, Kevin Lampkin, Janice Schuette,
Bobby Ferrell, Stephen Miller, Dianne Swiber, Terry
Nelson, Joe Brown, and Frank Gittess (collectively
“Plaintiffs”) file this their Third Amended Class Action
Compliant [sic] and would respectively show the Court
as follows:
I. JURISDICTION AND VENUE
2. Original jurisdiction is proper in this Court
pursuant to 28 U.S.C. §1331 because the claims arise
under the laws of the United States, specifically, §11,

App. 337
§12(a)(2)and §15 of the Securities Act of 1933, 15 U.S.C.
§77(k), §77(l) and §77(o) et seq.; §10(b), 10(b)(5) and §20
of the Securities Exchange Act of 1934, 15 U.S.C.
§78j(b) and §78(t) et seq.; and the Private Securities
Litigation Reform Act, 15 U.S.C. §78(u)(4) and 15
U.S.C. §78(a) et seq.
3. Venue is proper in the Houston Division of the
Southern District of Texas under 28 U.S.C. § 1391(b),
as the Defendants have significant contacts in this district and division, and this is the district and division
in which a substantial part of the events or omissions
giving rise to the claim occurred.
4. In connection with the acts alleged in this
complaint, Defendants, directly or indirectly, used the
means and instrumentalities of interstate commerce,
including, but not limited to, the mails, interstate telephone communications and the facilities of the national securities market.
II. PARTIES
5. Plaintiff Kevin Lampkin (“Lampkin”) is a resident of Hamilton, Mississippi. Kevin Lampkin files
this action for himself, and as representative of a class
of similarly situated people pursuant to Rule 23 of the
Federal Rules of Civil Procedure and the Private Securities Litigation Reform Act, 15 U.S.C. § 78u-4. Lampkin purchased Enron Corp. (“Enron”) equity securities
during the relevant time period in a UBS PaineWebber,
Inc. account in reliance on the information provided to
him, and absence of information withheld from him, by

App. 338
UBS PaineWebber, Inc. and without any knowledge of
the facts underlying the federal securities fraud claims
asserted herein. Additionally, Lampkin purchased or
acquired in a UBS PaineWebber, Inc. account options
to purchase Enron equity securities without any knowledge of the false statements contained in the referenced registration statements and/or prospectuses.
6. Plaintiff Janice Schuette (“Schuette”) is a resident of Robstown, Texas. Schuette files this action for
herself, and as representative of a class of similarly situated people pursuant to Rule 23 of the Federal Rules
of Civil Procedure and the Private Securities Litigation Reform Act, 15 U.S.C. § 78u-4. She transferred Enron equity securities into a UBS PaineWebber, Inc.
account during the relevant time period and held those
securities in reliance on the information provided to
her, and absence of information withheld from her, by
UBS PaineWebber, Inc. and without any knowledge of
the facts underlying the federal securities fraud claims
asserted herein.
7. Plaintiff Bobby Ferrell (“Ferrell”) is a resident
of Houston, Texas. Ferrell files this action for himself,
and as representative of a class of similarly situated
people pursuant to Rule 23 of the Federal Rules of Civil
Procedure and the Private Securities Litigation Reform Act, 15 U.S.C. § 78u-4. Ferrell is a former Enron
employee and maintained an individual retirement account at UBS PaineWebber, Inc. during the relevant
time period. He held Enron equity securities in this account in reliance on the information provided to him,
and absence of information withheld from him, by UBS

App. 339
PaineWebber, Inc. and without any knowledge of the
facts underlying the federal securities fraud claims asserted herein. Additionally, Ferrell purchased or acquired in a UBS PaineWebber, Inc, account options to
purchase Enron equity securities without any knowledge of the false statements contained in the referenced registration statements and/or prospectuses.
8. Plaintiff Stephen Miller (“Miller”) is a resident
of Houston, Texas. Miller files this action for himself,
and as representative of a class of similarly situated
people pursuant to Rule 23 of the Federal Rules of Civil
Procedure and the Private Securities Litigation Reform Act, 15 U.S.C. § 78u-4. Miller purchased Enron
equity securities in a UBS PaineWebber, Inc. account
during the relevant time period in reliance on the information provided to him, and absence of information
withheld from him, by UBS PaineWebber, Inc. and
without any knowledge of the facts underlying the federal securities fraud claims asserted herein.
9. Plaintiff Dianne Swiber (“Swiber”) is a resident of Katy, Texas. Swiber files this action for herself,
and as representative of a class of similarly situated
people pursuant to Rule 23 of the Federal Rules of Civil
Procedure and the Private Securities Litigation Reform
Act, 15 U.S.C. § 78u-4. Swiber purchased or acquired in
a UBS PaineWebber, Inc. account options to purchase
Enron equity securities without any knowledge of the
false statements contained in the referenced registration statements and/or prospectuses.

App. 340
10. Plaintiff Terry Nelson (“Nelson”) is a resident
of Gardner, Illinois. Nelson files this action for himself,
and as representative of a class of similarly situated
people pursuant to Rule 23 of the Federal Rules of Civil
Procedure and the Private Securities Litigation Reform Act, 15 U.S.C. § 78u-4. Nelson held both Enron equity securities and options to purchase Enron equity
securities in a UBS PaineWebber, Inc. account during
the relevant time period in reliance on the information
provided to him, and absence of information withheld
from him, by UBS PaineWebber, Inc. and without any
knowledge of the facts underlying the federal securities fraud claims asserted herein.
11. Plaintiff Joe Brown (“Brown”) is a resident of
Baytown, Texas. Brown files this action for himself,
and as representative of a class of similarly situated
people pursuant to Rule 23 of the Federal Rules of Civil
Procedure and the Private Securities Litigation Reform Act, 15 U.S.C. § 78u-4, Brown purchased Enron
equity securities in a UBS PaineWebber, Inc. account
during the relevant time period in reliance on the information provided to him, and absence of information
withheld from him, by UBS PaineWebber, Inc. and
without any knowledge of the facts underlying the federal securities fraud claims asserted herein.
12. Plaintiff Frank Gittess (“Gittess”) is a resident of Houston, Texas. Gittess files this action for
himself, and as a representative of a class of similarly
situated people pursuant to Rule 23 of the Federal
Rules of Civil Procedure and the Private Securities
Litigation Reform Act, 15 U.S.C. § 78u-4. Gittess

App. 341
purchased Enron preferred securities in a UBS PaineWebber, Inc. account during the relevant time period
in reliance on the information provided to him, and
absence of information withheld from him, by UBS
PaineWebber, Inc. and without any knowledge of the
facts underlying the federal securities fraud claims asserted herein.
13. Defendant UBS Financial Services, Inc., previously known as UBS PaineWebber, Inc. (hereinafter
“PW”), is a Delaware corporation authorized to do business in Texas and has appeared by counsel in this lawsuit. PW is a subsidiary of Swiss banking conglomerate
UBS AG.
14. Defendant UBS Securities LLC, previously
known as UBS Warburg, LLC (hereinafter “Warburg”),
is a Delaware limited liability company authorized to
do business in Texas and has appeared by counsel in
this lawsuit. UBS is also a subsidiary of Swiss banking
conglomerate UBS AG.
15. PW and Warburg may be collectively referred
to herein as “Defendants.” PW, Warburg, and UBS AG
may be collectively referred to herein as “UBS.”
III. CLASS ACTION ALLEGATIONS
16. Plaintiffs bring this action pursuant to Rule
23 of the Federal Rules of Civil Procedure on behalf of
the following classes of people:
(i) Lampkin, Miller, Brown, and Gittess
bring claims on their own behalf and on behalf of all

App. 342
persons similarly situated who purchased or acquired
Enron’s publicly traded equity and/or preferred securities in a UBS PW account from November 5, 2000
through and including December 2, 2001 (the “1934
Act Class Period”) (the “Purchase Class”);
(ii) Schuette, Ferrell, and Nelson bring claims
on their own behalf and on behalf of all persons similarly situated who held Enron’s publicly traded equity
securities in a UBS PW account during the 1934 Act
Class Period (the “Hold Class”);
(iii) Lampkin, Ferrell, and Swiber bring
claims on their own behalf and on behalf of all persons
similarly situated who purchased or acquired options
to purchase Enron equity securities, and/or purchased
or acquired Enron equity securities through the exercise of an option to purchase Enron equity securities,
pursuant to the prospectuses identified in Paragraphs
230-234 below through UBS PW from October 19, 1998
through and including November 19, 2001 (the “1933
Act Class Period”) (the “Section 12 Class”);
(iv) Lampkin, Ferrell, and Swiber bring claims
on their own behalf and on behalf of all persons similarly situated who purchased or acquired options to
purchase Enron equity securities, and/or purchased or
acquired Enron equity securities through the exercise
of an option to purchase Enron equity securities, pursuant to the registration statements identified in Paragraph 230 below through UBS PW during the 1933
Act Class Period (the “Section 11 Class”).

App. 343
17. Excluded from the class are Defendants and
subsidiaries or affiliates of Defendants, any past or
present officers, directors or employees of Defendants
(and members of their immediate families or subsidiaries or affiliates of Defendants or any national, state
or local governmental entities/agencies or departments.
Also excluded from the class are entities or individuals
convicted of engaging or participating in a fraud in
connection with Enron Corp. or any of its subsidiaries
or affiliates.
18. The members of the Classes are so numerous
joinder of all members is impracticable. While the exact number of Class members is unknown at the present time, discovery shows the putative classes well
exceed 45,000 members.
19. Plaintiffs’ claims are typical of the claims of
the Classes because Plaintiffs and all the Class members sustained damages which arose out of Defendants’ unlawful conduct complained of herein.
20. Plaintiffs are representative parties who will
fairly and adequately protect the interests of the Class
members. Plaintiffs have retained counsel who are experienced and competent. Plaintiffs have no interest
which is in conflict with those of the Classes they seek
to represent.
21. A class action would be superior to all other
available methods for the fair and efficient adjudication of this controversy. Plaintiffs know of no difficulty
to be encountered in the management of this action
precluding its maintenance as a class action.

App. 344
22. The prosecution of separate actions by individual Class members would create. a risk of inconsistent
and varying adjudications, which could establish incompatible standards of conduct for Defendants. Questions
of law and fact common to the Classes predominate
over any questions which may affect only individual
members. Among the common questions of law and
fact as to the securities fraud allegations under the
1934 Act are:
(a) whether the Defendants engaged in a course
of conduct or adhered to certain business
practices that violated the anti-fraud provisions of the 1934 Act;
(b) whether the Defendants failed to disclose to
Class members material facts;
(c) whether the Defendants had a duty to disclose
to Class members the alleged materials facts;
(d) whether the Defendants had a duty to take
action to protect the Class members;
(e) whether a causal connection exists between
the content of the non-disclosed facts and any
harm actually suffered by the Class members;
and
(f ) the extent and the appropriate measure of
damages sustained by Class members.


App. 345
23. Among the common questions of law and fact
as to the strict liability allegations under the 1933 Act
are:
(a) whether PW is an underwriter under the 1933
Act in connection with certain Enron registration statements;
(b) whether PW is a seller under the 1933 Act in
connection with certain Enron prospectuses;
(c) whether any harm suffered by the Class members resulted from false or misleading representations in one or more Enron registration
statements and/or prospectuses for which PW
was a [sic] underwriter and/or seller, respectively; and
(d) the extent and the appropriate measure of
damages sustained by Class members.
IV. RESPONDEAT SUPERIOR LIABILITY
24. Defendants’ employees violated federal securities laws at a time when Defendants had the power
and/or ability to control their employees’ actions. Defendants’ advocation of the violations complained of
herein or, alternatively, their failure to prevent these
violations, may not be excused by any theory that they
had a reasonable, and enforced, supervisory system in
place. Defendants are responsible for their employees’
conduct under the doctrine of respondeat superior under § 15 of the Securities Act of 1933 and §20 of the
Securities Exchange Act of 1934. 15 U.S.C. § 77(o), as
amended, and 15 U.S.C. § 78(t), as amended.

App. 346
V. SUMMARY OF CLAIMS
A. Claims under the Securities Exchange
Act of 1934
25. Generally, defendants may violate the antifraud provisions of the Securities Exchange Act of 1934
(the “1934 Act”) in two separate ways: (1) through materially false statements or statements which are materially misleading due to the omission of additional
information; and (2) through non-representational
acts, i.e., by employing a device, scheme, or artifice to
defraud or engaging in any act, practice, or course of
business which operates as a fraud. Plaintiffs bring
their fraud claims against Defendants based upon the
second category of violations, specifically for engaging
in a scheme or course of conduct violating Section 10(b)
of the 1934 Act as implemented through Subsections
(a) and (c) of Rule 10b-5. Defendants’ acts, practices,
and course of business combined to operate a fraud
upon the Plaintiffs and deceived them into believing
the price at which they purchased or held their Enron
securities was deter wined by the natural interplay of
supply and demand. Defendants’ obligations to Plaintiffs, both under Rule 10b-5 and pursuant to a brokerage relationship, required disclosure of all which was
necessary to fulfill the fundamental purpose of the securities laws. UBS positioned itself between two classes
of clients – its retail brokerage clients and its corporate
client – such that UBS could not fulfill its legal obligations both to Plaintiffs and Enron concurrently. UBS
failed to disclose information and knowledge it possessed during the 1934 Class Period regarding the

App. 347
manipulation of Enron’s public financial appearance,
some of which was accomplished through UBS, nor did
UBS disclose the conflicts under which it operated its
brokerage business. This information was material in
the sense that a reasonable investor would have considered the information important in making decisions
to trade in Enron securities through a UBS retail brokerage account. Ignorant of this undisclosed information, Plaintiffs acquired and/or held Enron equity
securities in their UBS retail brokerage accounts during the 1934 Act Class Period. UBS’s failure to disclose
to Plaintiffs the material knowledge possessed by UBS
concerning Enron, and by participating in financing
devices and schemes to inflate the appearance of Enron’s financial status, that is, engaging in acts, practices, and a course of business that would operate as a
fraud or deceit on others, had the effect of concealing
the circumstances that bore on Plaintiffs’ ultimate economic loss, e.g., it concealed, among other things, the
risks that Enron would be unable to service its debt
and consequently suffer financial collapse. Thus, UBS’s
failure to disclose material information to Plaintiffs
and course of business operated as a fraud and deceit
upon others and was a significant contributing cause
of the reasonably foreseeable economic losses that ultimately materialized from the risk concealed by UBS.
B. Claims under the Securities Act of 1933
26. Plaintiffs bring claims against PW under
the Securities Act of 1933 (the “1933 Act”) based on
PW’s role as the exclusive broker and stock option plan

App. 348
administrator for Enron during the 1933 Act Class Period. PW acted as a “seller” and “underwriter” of Enron
securities under the 1933 Act and is liable for the
materially false financial statements contained in the
Enron prospectuses and registration statements identified herein.
VI. UBS AND ENRON HISTORIES
27. UBS is one of the largest banks in the world.
It is an integrated bank, offering traditional commercial loans, investment banking opportunities and retail
brokerage services. UBS’s integrated status, combined
with its endless hunger for investment banking dollars, combined to create a lethal force against Plaintiffs
herein, who constituted UBS’s retail customers. The
monster that came to be the “integrated bank” created
a situation that allowed UBS to capitalize on its superior knowledge, make money, then use Plaintiffs as a
buffer to absorb the risk inherent in Enron investments. To fully understand how dangerous UBS was to
the plaintiffs, one must briefly examine the historical
changes that allowed its rise, the importance of the retail broker, PW, to its business model, and the issues
that made servicing Enron by participating in transactions they knew had no principal business purpose
other than to misrepresent income flows, an irresistible scheme that operated as a fraud and deceit on others.


App. 349
A. BANKING LEGISLATIVE HISTORY
28. In the wake of the stock market crash of 1929,
Congress passed the Glass-Steagall Bank Act of 1933
to erect a wall between commercial banking and investment banking activities. The Act effectively prevented
banks from doing business on Wall Street through
§§20 and 32. Section 20 forbade member banks from
affiliating with a company “engaged principally” in the
“issue, flotation, underwriting, public sale, or distribution at wholesale or retail or through syndicate participation of stocks, bonds, debentures, notes, or other
securities.” Section 32 prohibited member banks from
having interlocking directorships or close officer or employee relationships with a firm “principally engaged”
in investment banking activities.
29. The Glass-Steagall Act was enacted to prevent three pervasive occurrences associated with the
combination of investment and commercial banking
activities:
i.

Risk to commercial and savings deposits when
banks invest their assets in securities;

ii.

Issuance of loans made to shore up the price
of securities or the financial position of companies in which a bank had invested assets;
and

iii. Conflicts of interest as between a bank’s financial interests, an issuing client’s interests,
and a brokerage client’s interests.
30. Post Glass-Steagall, and through the remainder of the Twentieth Century, Congress continued its

App. 350
goal of limiting the growth and resulting power of
banks. As a result, during the 1930’s and 1940’s, banks
focused on the fundamental practices of taking deposits and making loans.
31. The 1950’s ushered in a new age of “aggressive” activities to once again consolidate some banking
activities. Again, Congress took action to protect the
public. First, in 1956 Congress enacted the Bank Holding Company Act to prevent financial-services conglomerates from amassing too much power. Then, in
response to aggressive acquisitions and expansion by
the insurance company TransAmerica Corp., which
owned Bank of America and an array of other businesses, Congress created a barrier between banking
and insurance. In passing the protectionist legislation,
Congress took the prudent action to prevent the risk of
loss to a bank associated with investment activities
and insurance underwriting.
32. However, in the late 1990’s, decades after
these legislative actions, Congress changed its attitude about the banking industry and wholesale protection for consumers. On April 6, 1998, Citicorp and the
Travelers Group announced their merger. Pre-merger,
Citicorp operated as a bank holding company and
Travelers operated as an insurance underwriter. Travelers also owned Salomon Smith Barney, a retail brokerage securities firm. To facilitate the merger, in November
of 1999. Congress passed the Gramm-Leach-Bliley Act
(“GLBA”). The GLBA repealed the provisions of the
Glass-Steagall Act that prohibited the combining of
commercial and investment bank activities. Thus, the

App. 351
GLBA eliminated the restrictions on commercial and
investment banks by granting financial holding companies, like Travelers and Citicorp, the ability to own
commercial banks, investment banks, insurance companies, and securities firms. For the first time since the
era of the Great Depression, the GLBA ushered in a
new era wherein one entity like UBS could integrate
operations for the benefit of a corporate client like
Enron, providing an influential combination of lending, investment banking, and securities activities. UBS
moved immediately to establish itself as such an entity.
B. UBS HISTORY
33. By 1990, the banking industry as a whole
was in decline and the role of banks was in question.
The traditional strengths of banks as providers of capital was being undermined by the ability of borrowers
to access the capital markets directly. The emergence
of non-bank, stand-alone competitors increased the
risk and reduced the profitability of many commercial
banks. The equity values of banks suffered as a consequence. At the same time, technology was advancing
very quickly. Costs for sophisticated financial computing decreased by close to one hundred percent (100%)
and deregulation and globalization were contentious
issues.
34. In the midst of these issues, Swiss Bank Corporation began the journey down the road that would
lead to its merger with Union Bank of Switzerland and

App. 352
the creation of the global giant UBS. On May 10,1995,
Swiss Bank Corporation acquired S.G. Warburg, Plc., a
European investment bank. The new company was
called SBC Warburg. SBC Warburg expanded into the
United States in September of 1997, by acquiring the
New York investment bank Dillon Read & Co. The investment banking division then became known as SBC
Warburg Dillon Read. One year later, in June, 1998,
SBC merged with Union Bank of Switzerland (“Union
Bank”), creating UBS AG.
35. Early analysis did not favor the merger
between these two powerhouse Swiss banks. In. February 2000, UBS restructured and branded its investment banking operations UBS Warburg. The initial
focus of UBS Warburg’s expansion plans turned out to
be the well established United States brokerage firm
PaineWebber, Inc. In July, 2000, UBS announced it was
acquiring the 121-year-old institution for $10.8 billion
in cash and stock. UBS described the merger in a July
12, 2000 Media Release as follows:
PaineWebber will become an integral part of
UBS Warburg. Combining UBS Warburg’s
premium content and global reach with PaineWebber’s private client franchise, and uniting
the two highly complementary institutional
franchises creates a preeminent global investment services firm. UBS Warburg will be one
of the few financial institutions possessing
top-class private, institutional and corporate
client franchises, across the world, served by
a full range of content, products and services.

App. 353
36. Acquiring PW added more than 8,000 brokers and 2.7 million clients to the UBS portfolio. UBS’s
stated rationale for the merger was to add “a leading
position with US affluent and high net worth clients to
what is already the world’s largest private bank.” According to UBS:
UBS Warburg has a particularly strong position in distributing non-US products to US clients, and PaineWebber brings significant
equity and fixed income distribution strength
and a top ten ranked US equity research
team. Strong US retail distribution will also
enhance the ability to win primary mandates
globally. UBS Warburg provides a wealth of
content with a wide range of attractive products and expertise that can be leveraged for
PaineWebber’s private clients, from top-ranked
global equity research to direct access to new
issues across the world’s securities markets,
and a superior private equity capability.
37. UBS attracted an influx of new talent as well.
In November of 2000, Warburg announced the arrival
of Ken Moelis, the former co-head of investment banking in the Americas for Credit Suisse First Boston.
Moelis agreed to join Warburg as co-head of its American investment banking unit. John Costas, Warburg’s
then COO, said upon the announcement, “It is our
intent to build aggressively upon our current investment banking platform and continue to accelerate our
growth. Simply stated, our goal is to be among the top
investment banks in the United States.” Thus, by the
end of 2000, UBS quieted its critics by securing its

App. 354
place in the American markets and reporting global
profits of $4.8 billion, an increase of $600 million over
the previous year.
38. At the beginning of 2001, UBS announced it
would manage PW’s private clients through the business unit called UBS PaineWebber. PW’s institutional
clients remained managed by Warburg. While the
move reflected UBS’s desire to increase its reach into
the growing wealth management industry, John Costas stressed to The Wall Street Journal that the division would not impact any of the benefits already
produced by the combination of the investment bank
and PW.
39. While most of Wall Street pulled out the axe
in 2001, laying off hundreds of bankers, UBS did just
the opposite. From March 2001 to June 2002, the firm
increased its U.S. investment banking staff by 10%, according to The Wall Street Journal. UBS’s hiring frenzy
began just after Moelis helped recruit senior bankers
in sectors such as real estate, technology and industrials. Moelis even poached the financial services team of
Credit Suisse First Boston, the firm he left, to join
UBS.
40. UBS’s radical changes throughout 2000 and
2001 transformed it into a new Wall Street, and global,
player. In 2001 the firm became Europe’s top investment bank based on revenues generated from investment banking activities. According to the Wall Street
Journal, the firm reported a 7.5% European market
share in investment banking revenues in 2001, up

App. 355
from 4.5% in 2000. In the U.S., the firm broke into the
Top 10 in overall investment banking revenues. It
nearly doubled its U.S. market share in 2001 to 3.2%,
good enough for ninth place in total investment banking revenues. UBS Warburg also broke into the U.S. top
10 list of equity underwriters. The firm reported that
U.S. investment banking operations represent about
40% of total revenues, compared with less than 15%
previously. UBS’s ambition to be the world’s most powerful bank manifested itself most visibly in its business
relationship with Enron.
C. THE ROLE

OF

PAINEWEBBER

41. Plaintiffs’ claims in this case are different
than every other Enron-related legal action. Plaintiffs
seek to represent every investor who purchased, acquired and/or held Enron equity and preferred securities in a PW account, during the class periods. The
1934 Act Class Period begins with UBS’s merger with
PW, and the responsibilities and duties attendant
thereto.
42. UBS’s acquisition of PW’s retail brokerage
business, through which it generated profits from
its retail clients’ trades in Enron securities, clearly
establishes UBS as a primary violator of Rule 10b-5
as to the Plaintiffs and those they seek to represent.
Through the acquisition of PW’s retail brokerage business, UBS assumed concrete duties of disclosure to a
specific class of investors – its retail clients. By remaining silent while these retail clients, to whom UBS owed

App. 356
duties of disclosure, purchased, acquired, and/or held
Enron equity and preferred securities during the 1934
Act Class Period, UBS committed a primary violation
of the anti-fraud provisions of the Securities Exchange
Act. See, e.g., Affiliated Ute Citizens v. United States,
406 U.S. 128 (1972).
43. The 1934 Act established a self-regulating
scheme by means of self-regulatory organizations
(“SROs”), including the National Association of Securities Dealers, Inc. (“NASD”) and the New York Stock Exchange (“NYSE”). The Securities and Exchange
Commission (“SEC”), in turn, supervises these SROs.
The SROs developed rules of professional conduct to
act as industry standards, some of which focus on customer protection and investor rights. Although the
1934 Act provides no specific private right of action for
a violation of a [sic] SRO rule or regulation, nevertheless a breach of such a rule or regulation implicates a
violation of Section 10(b)/Rule 10b-5. During the 1934
Act Class Period, as well as today, SRO rules and regulations governed UBS’s communications and relationship with its retail clients. By way of example, NASD
Rule 2210(d) is one of a number of NASD and NYSE
rules generally requiring its members, such as UBS, to
deal fairly with their customers. It mandates that:
All member communications with the public
shall be based on principles of fair dealing and
good faith and should provide a sound basis
for evaluating the facts in regard to any particular security or securities or type of security, industry discussed, or service offered. No

App. 357
material fact or qualification may be omitted
if the omission, in the light of the context of
the material presented, would cause the communications to be misleading.
44. Federal common law during the 1934 Class
Period, and continuing today, placed a legal duty on
UBS not to treat its retail clients unfairly. Under the
“shingle” doctrine of broker conduct, when a brokerdealer hangs out its shingle it implicitly represents
that it will deal fairly with the public and in accordance with the standards of the profession. Thus, the
1934 Act, SEC rules, SRO rules and regulations, as
well as federal common law all required UBS either to
notify its retail clients about the material information
known by UBS relating to Enron securities purchased
or acquired in UBS accounts, or if UBS could not disclose this information for any reason, then to restrict
trading and suspend research coverage of those securities.
45. Another fact distinguishing Plaintiffs’ claims
from every other Enron-related claim is the exclusive
relationship between UBS and Enron at the retail brokerage level. When UBS acquired PW, UBS also acquired all the rights and obligations associated with
PW’s role as the exclusive administrator of Enron’s
stock option plans. By letter agreement dated October
19, 1998, PW contracted to assume exclusively the administrative function for Enron’s stock option plans in
exchange for the exclusive right to be the brokerage
firm for all stock option exercises by Enron employees.
Through this administrative role, UBS acquired an

App. 358
instant retail brokerage relationship with nearly every
employee of Enron and its affiliate companies. The severe degree of recklessness with which UBS operated
its business is especially highlighted in the story of
this subclass of Plaintiffs, who in addition to having
significant concentrations of their investments tied
to Enron, also had their salaries and retirements tied
to Enron. Plaintiffs’ 1933 Act claims stem from this
unique relationship.
D. UBS COMMITMENT

TO AN

ENRON RELATIONSHIP

46. UBS did not always enjoy close ties to Enron.
Prior to the merger between SBC and Union Bank,
each entity engaged Enron only in a limited scope of
business. Union Bank’s negative experience, in the
early 1980s, with Enron’s predecessor company, Houston Natural Gas, resulted in a reluctance to commit
large credit amounts to Enron. SBC’s credit officer considered Enron’s financial profile weaker than Moody’s
and S&P’s ratings and recognized Enron’s aggressive
rate of growth as an additional risk to conducting business with Enron.
47. The universe of knowledge regarding Enron’s
financial situation that SBC and Union Bank carried
into their merger is well documented. As early as 1995,
Union Bank’s credit officer characterized Enron’s offbalance sheet liabilities as “significant” and its use of
leverage as “aggressive.” Union Bank considered Enron’s disclosures “weak” and its credit officer recognized Enron Capital & Trade Resources (“ECT”), the

App. 359
business later labeled as Enron’s Wholesale Division,
as a business resulting in “significant off-balance sheet
exposures,” “bringing nontraditional risks,” and “add[ing]
to pressure on leverage.” By 1997, Union Bank had labeled ECT a “black box.”
48. In 1997, Union Bank credit executives recognized that Enron utilized “structured preferred issues
that have equity treatment, but effectively debt characteristics,” “off-balance sheet financings,” and “50% or
less owned joint ventures” to reduce the appearance of
balance sheet leverage. Union Bank concluded that
Enron’s “earnings management,” through its “very sophisticated manner” of measuring project returns, use
of off-balance sheet financings, etc., “will continue to
make it difficult to compare Enron’s financials from
year to year.” At that time, Union Bank executives already knew that Enron’s off-balance sheet obligations,
now labeled as “beyond reasonable business levels”
and “excessive . . . to capital,” totaled $5.6 billion, raising its balance sheet leverage to 70%. Union Bank was
also aware that Enron had a short fall in funds flow
from operations to cover its capital expenditures and
equity investments which, along with dividends, had
to be financed with increasing debt and equity issues.
Notwithstanding, these executives simply trusted Enron to manage its situation and “not ‘bet the company.’ ”
49. Preceding and immediately subsequent to
the SBC Union Bank merger, the most significant business conducted between Enron and UBS was that of
equity risk management. The equity risk management

App. 360
consisted mostly of equity swap and equity forward
contracts (discussed in detail below). In late 1998, however, UBS sought to capitalize on the synergies of its
merger by establishing a more comprehensive relationship with Enron. On December 11, 1998, UBS executives met with Fastow to discuss the UBS/Enron
relationship going forward. Ken Crews (“Crews”), the
North American head of UBS’s corporate finance department, and Jim Hunt (“Hunt”), a Managing Director in the corporate finance department in UBS’s
Dallas, Texas office, represented UBS at the meeting.
The meeting resulted in UBS’s commitment to a relationship with Enron and the coordination of that relationship through the appointment of Hunt as UBS’s
“relationship banker” for Enron.
50. It was well known within the banking industry that Enron rewarded banks, who provided credit
capacity, by paying exorbitant amounts of money on investment banking fees. From 1998 forward, the Crews/
Hunt team of executives at UBS’s investment bank
worked tirelessly to expand UBS’s credit capacity for
Enron so that UBS could participate in capturing a
portion of the more than $100 million in non-credit
related investment banking dollars Enron paid annually. The only limit to UBS’s relationship with Enron
turned out to be the sustained reluctance of UBS’s
credit executives to extend greater amounts of credit
to Enron.
51. However, this lack of credit capacity for Enron did not prevent UBS from becoming a knowing
participant in a number of transactions designed to

App. 361
create a false public appearance of Enron’s financial
position for the purpose and effect of progressing UBS’
scheme to optimize investment banking fees from Enron in conflict with and at the expense of its obligations
to UBS’s retail customers who brought[sic], sold and/or
held Enron securities through UBS PW. Specifically,
UBS participated in five (5) separate transactions over
the course of an approximate two year period that did
not have a principal legitimate business purpose but
the purpose and results of which, individually and cumulatively, were to create a false public appearance of
Enron’ s financial position.
52. These transactions consist of (1) two amendments to equity forward contracts between UBS and
Enron; (2) an underwriting of notes issued as part of
Enron’s Osprey/Whitewing structure; (3) a commitment to extend credit to Enron’s E-Next Generation facility; and (4) an underwriting of credit linked notes in
Enron’s Yosemite IV structure. In addition to UBS’s
participation in these transactions, a score of UBS officers obtained significant amounts of information regarding Enron’s questionable business practices over
the course of other activities as well. This information
then spread up through the UBS global structure, but
not out to UBS’s retail clients. UBS undertook trading
activities to eliminate its credit exposure to Enron for
its own benefit, while in possession of this material,
non-public information, while simultaneously allowing
its retail clients to purchase and hold Enron equity securities without the same benefit of UBS’s institutional knowledge.

App. 362
E. ENRON HISTORY1
53. Until the late fall of the same year, the 2001
Fortune 500 Rankings ranked Enron as the seventh
largest corporation in the world, based upon revenues. It grew from a traditional energy production and
transmission company in the mid-1980s to a global enterprise. As such, it was an industry leader in the purchase, transportation, marketing, and sale of natural
gas and electricity, and other energy sources and related financial instruments. Further, it spearheaded
the development, construction, and operation of pipelines and various types of power facilities.
54. By the mid-1990s, Enron’s business and business model had changed dramatically. Starting out as
a company that had a concentration in natural gas
pipelines, it became over time a company that depended less on pipelines and transportation and more
on energy trading and investing in new technologies and
businesses. In its 2000 Annual Report, Enron described
its four business segments as Wholesale Services, Energy Services, Broadband Services, and Transportation
Services. Enron Wholesale Services was highlighted as
its largest and fastest growing business. Wholesale
Services created trading markets in gas, oil, electricity,
and other energy produced and provided price risk
 In this section, Plaintiffs highlight the elements of Enron’s
background key to understanding UBS’s violations of Subsections
(a) and (c) of Rule 10b-5 by utilizing the various reports filed by
the Court-Appointed Examiners in the Enron Corp. bankruptcy
proceedings. Unless otherwise indicated, the material is taken directly from one or more of these reports.
1

App. 363
management and other related services. Enron Energy
Services, Enron’s retail arm, served users of energy in
the commercial and industrial markets. Enron Broadband Services, newly minted in 2000, was in the “hot”
telecommunications sector. Enron Transportation Services, the newly renamed segment, housed Enron’s
pipelines and Portland General.
55. Enron’s rapid expansion into new businesses
made it a voracious consumer of cash. Enron’s management communicated to the investment community its
awareness of the issues posed by its expansion and
gave assurances that Enron could manage its way
through these risks without upsetting investor expectations. Enron considered its credit ratings critical to
this success. As recognized in the “Management’s Discussion and Analysis of Financial Condition and Results of Operations” (“MD&A”) section of Enron’s 1999
Annual Report, Enron’s continued investment grade
status was critical to the success of its wholesale business as well as its ability to maintain adequate liquidity.
56. By 1999, Enron’s Wholesale Services was by
far the most significant of Enron’s business segments,
accounting for 66% of its 1999 income before interest,
minority interests and income taxes (“IBIT”). In order
to continue the growth of this business, Enron needed
to trade with other market participants without being
required to post collateral. Thus, the continued success of Enron’s entire business depended upon the
continued success of its Wholesale Services business

App. 364
segment, which was in turn dependent upon Enron’s
credit ratings for its senior unsecured long-terms debt.
57. The credit rating depended on achieving certain financial ratios. The five key credit ratios consisted of: funds flow interest coverage; pre-tax interest
coverage; funds flow from operations to total obligations; total obligations to total obligations plus shareholders’ equity and certain other items; and debt to
total capital. Enron identified the components in its
2000 Annual Report as follows:
•

Funds flow from operations, defined as net
cash provided by operating activities (from
the cash flow statement) less cash provided
from decreases in working capital (or plus
cash used for increases in working capital);

•

Balance Sheet Debt, defined as short-term and
long-term debt appearing on the face of the
balance sheet;

•

Total Obligations, defined as Balance Sheet
Debt, plus guarantees of debt of third parties
and guarantees of lease residual values, plus
any excess of price risk management liabilities over price risk management assets. Guaranteed debt was reduced by the value Enron
attributed to the assets supporting the underlying debt. Debt of unconsolidated equity affiliates was not included because (unless
guaranteed) it was non-recourse to Enron;

•

Shareholders’ Equity and certain other items,
defined as shareholders’ equity, plus the
mezzanine items, minority interests and

App. 365
company-obligated preferred securities of
subsidiaries;
•

Adjusted Earnings for credit analysis, defined
as IBIT, less gain on sale of non-merchant assets and the excess of earnings from equity
method of investees over distributions from
those investees, plus impairment losses; and

•

Interest Expense, defined as interest incurred,
less interest capitalized, plus estimated lease
interest expense.

58. On June 11, 1991, Enron wrote to the SEC
Office of Chief Accountant to inform the SEC that Enron intended to use mark to market (MTM) accounting
for its gas trading business, Enron Gas Services. Under
MTM accounting, assets are carried at their “fair
value,” based upon publicly quoted prices, or if there
are none available, based upon management’s estimate using the best information available to determine the fair value of the assets. Changes in values
from quarter-to-quarter are recorded as gains or losses
in the income statement.
59. By letter dated January 30, 1992, the SEC
Chief Accountant, Walter P. Schuetze, informed Enron
that, based upon Enron’s representations, the SEC accounting staff would not object to Enron’s use of MTM
accounting for its natural gas trading activities beginning in 1992. Ultimately, MTM accounting spread
throughout Enron. The seeds for financial engineering
were sown in 1997, when Enron determined that it
should use MTM accounting for its “merchant investments.” Enron analogized what it called its “merchant

App. 366
bank activities” to those of venture capital investment
companies, which are permitted to use MTM accounting under GAAP. Through MTM accounting, Enron
often recognized earnings long before its activities
generated any cash. Analysts took notice of Enron’s
acceleration of earnings through MTM accounting,
which led to a “quality of earnings” issue for Enron. By
the end of 1999, Enron’s quality of earnings problem –
the gap between income and actual funds flow from
operations – was a serious problem affecting Enron’s
liquidity.
60. As of December 31, 2000, approximately
$22.8 billion of Enron’s assets were accounted for using
MTM accounting. The MTM accounting assets represented 35% of its $65.5 billion of total assets. A mere
5% fluctuation in value of these assets would have resulted in gain or loss of $1.1 billion, an amount greater
than Enron’s 2000 net income of $979 million. Without
regard to valuation abuses, Enron’s problem was not
the use of MTM accounting. Rather, Enron’s problem
was its resort to financial engineering to address the
effects of MTM accounting. MTM accounting is a double-edged sword: It can result in income or it can result
in losses. To hide the losses, Enron began to seriously
manipulate financials. For example, as discussed further below, UBS and Enron completed two transactions that had no legitimate business purposes other
than to avoid the negative effects MTM could have on
Enron’s public financial statements and to progress
UBS’s scheme to optimize its Enron revenues in
conflict with its obligations to its retail customers.

App. 367
Ultimately, these types of financial manipulations led
to one of the greatest falls in American corporate history for Enron, the loss of billions of dollars by UBS’s
retail customers, but no significant business disruption
for UBS.
61. In the autumn of 2001, Enron made a series
of financial disclosures and restatements of its financial statements pertaining in large part to certain related party transactions. These disclosures, in turn,
triggered a chain of events culminating in Enron’s unprecedented bankruptcy filing. In an earnings release
on October 16, 2001, Kenneth Lay (“Lay”) announced,
among other things, that Enron was taking “after-tax
non-recurring charges” of $1.01 billion in the third
quarter and reduction in shareholder equity of $1.2 billion. These “non-recurring charges” resulted in a net
loss for the third quarter of $618 million, compared to
reported new income of $404 million for the preceding
quarter and $292 million for the third quarter of 2000.
Although the earnings charge consisted of several components, one component, and the entire charge to equity, related to Enron’s early termination during the
third quarter of certain structured finance arrangements
with a “previously disclosed entity.” The “previously
disclosed entity” was LJM2 Co-Investment, L.P. (“LJM2”),
a private investment limited partnership funded in
December 1999. Andrew S. Fastow (“Fastow”), Enron’s
CFO, and Michael J. Kopper (“Kopper”), another Enron
executive, ran LJM2.
62. Several significant events followed these disclosures. On October 24, 2001, Enron announced its

App. 368
placement of Fastow on a leave of absence. On October
31, 2001, Enron announced that its Board of Directors
formed a Special Investigative Committee to examine
and recommend actions with respect to transactions
between Enron and entities connected with related
parties. Then, on November 8, 2001, Enron announced
its intention to restate its financial statements for
1997 through 2000 and the first and second quarters
of 2001 to reduce previously reported net income by an
aggregate $586 million. Enron attributed the restatement to transactions involving three entities, one of
which was LJMI, an investment partnership whose
general partner was a limited partnership wholly
owned by Fastow.
63. Enron filed its third quarter 10-Q, including
interim financial statements, on November 19, 2001,
giving effect to the previously announced “non-recurring
charges” and restatement of prior financial statements. In addition, Enron reported in its third quarter
2001 balance sheet total debt under generally accepted
accounting principles (“GAAP”) of $12.978 billion. Also
on November 19, 2001, senior Enron executives met
with certain of Enron’s banks, including UBS, at the
Waldorf Astoria hotel in New York City. At the presentation, Jeff McMahon (“McMahon”), Enron’s new CFO,
identified a series of bad investments as the first cause
of Enron’s problems. The investments he listed were
Azurix, Broadband, Elektro, Dabhol, and certain merchant investments. Enron’s merchant investments
were composed of the capital that it provided, generally, to energy and technology businesses seeking debt

App. 369
or equity. Enron’s poor investment decisions resulted
in the need for cash to fund the investments and the
need to avoid losses if the investments did not work.
Enron was reluctant to issue equity to address its need
for cash for fear of an adverse effect on its credit ratings. Enron’s use of mark-to-market (“MTM”) accounting accentuated the tension between cash demands
and credit ratings by creating a large gap between net
income and funds flow from operations. This “quality
of earnings” problem made it particularly challenging
for Enron to raise cash without issuing equity while
maintaining its credit rating.
VII. UBS/PW AND ENRON RELATIONSHIP
64. UBS and Enron’s relationship was a mutually self-serving relationship that took precedence over
and conflicted with the interests of UBS’s retail customers. As discussed above, PW’s client base was a key
component to UBS’s success as a global bank. It was
also a key component to UBS’s Enron relationship because PW provided millions of retail investors to whom
UBS could funnel Enron and Enron-related securities,
effectively transferring Enron risk to the marketplace.
In return, Enron provided PW with a “goldmine” in the
form of a captive agreement that gave UBS the first
bite at capturing Enron employee wealth to generate
retail fees and income.


App. 370
A. THE GOLDMINE
65. In early 1993, Rocky Val Emery began his career as a financial adviser with PW. Ultimately he was
assigned to work at the PW “Heritage Branch,” located
at 1111 Bagby St., Houston, Texas, the energy capital
of the world. As a rookie broker, he landed a client
named Bill Roamy, who was an executive with Enronowned EOG Resources. While working out at the gym,
Roamy discussed with Emery the fact that Enron was
putting together an “all employee” stock option program and that a number of investment firms were bidding for a contract to be administrator of the Stock
Option program. Emery immediately saw the opportunity to make a great deal of money. So, he developed
an original platform for providing the administrative
services at PW.
66. Emery took the initiative to pitch his plan to
Enron. Enron was impressed with his idea and in 1994
chose PW as the Administrator of its Enron Employee
Stock Option Plans. Emery had the primary responsibility to oversee the services rendered to Enron and the
Enron employees who opened accounts with PW. To
render the services, Emery formed a working group
within PW that became known as “The Emery Group.”
The Emery Group started out with approximately five
brokers working on the account. That number grew to
around 100 by 2001. The Emery Group provided services to PW for four years. Then, in 1998, PW and Enron entered into a written, three year contract.

App. 371
67. Under the PW/Enron contract. PW was the
exclusive administrator of Enron’s Employee Stock Option Plans. That meant that, when an Enron employee
chose to exercise stock options, the employee was required to do so through PW. Once the stock exercise
was complete, the employee could either keep their
money with PW or move his/her business to another
firm. The Enron Contract was extremely valuable to
PW. During the bidding process for the Enron Contract, the closest bidder to PW required a $200,000.00
per year fee for the administration services. PW charged
Enron no fee to administer the Stock Option Plans. Instead, PW charged the employees a nominal six cents
per share to exercise their options, and used the administrative services as a “loss leader” to get retail
business. Its goal was to retain wealth created by the
Enron employees as they exercised their stock options.
68. To retain the wealth, PW put a business
model into place. Each time an Enron employee received a grant of stock options, PW sent that employee
a packet. The packet included information about the
grant, including the grant number, the number of
shares, the exercise price, the vesting dates, how to
exercise, the processes, tax treatments, and any other
information the employee needed to know to exercise
the options. PW included information about its free
services to Enron employees who chose to open PW accounts. Those services included a free Resource Management Account (RMA) ($85.00 per year value), free
stock option analysis and free financial plans (hundreds of dollars in value). Also included in the packet

App. 372
was a new account form for the Enron employees to fill
out and return.
69. By 1999, there were approximately 45,000 to
50,000 Enron employee participants in the Employee
Stock Option Plans. Twenty-five percent of them would
fill out the information and return the account forms
immediately, while another 25% would trickle in over
a few months. Another 25% would open accounts when
they exercised their options.
70. Once PW received the new account application form, it would open an account for the Enron employee, regardless of whether that employee actually
invested any money with the firm. Once an Enron employee actually exercised any options, PW would open
its flagship account, the RMA account, for that employee. In fact, every Enron employee who exercised
stock options received a free RMA account, unless they
specifically declined to open it. Through its business
model, PW initially retained 25% of the Enron employee business, that number steadily grew so that,
eventually, PW was capturing and retaining about 60%
of the Enron employee wealth created when they exercised their stock options.
71. If an Enron employee wanted to exercise options, he could contact PW by telephone. If the Enron
employee who called was (1) an insider or (2) had options worth $500,000.00 or more, that person was
transferred specifically to Rocky Emery. Otherwise, the
call would be forwarded, on a rotating basis, to the brokers who worked within the Emery group. Once the

App. 373
PW broker answered the phone, he would immediately
offer the Enron employee a free “financial plan.” This
was extremely important because, in order for a PW
broker to get an Enron employee account assigned to
him, he had to complete a financial plan for the potential client. Thus, virtually every Enron employee who
opened an account with UBS received a financial plan
and, therefore, became an advisory client of UBS under
the Investment Advisors Act.
72. The money flow from Enron employees was
so lucrative that one Emery Group broker described it
as “like shooting fish in a barrel.” Another trainee, who
was still doing his initial training in Weehawkin, NJ,
left his training session with a $350,000.00 account
simply from responding to an inquiry from an Enron
employee. By the year 2000, the Heritage branch was
ranked number two in the entire country with $50 million in earnings. Of that $50 million, $14 million was
created by Rocky Emery alone, not including his 100
brokers who also serviced the Enron Stock Option Plan
account. PW received 65% to 70% of the money generated by Emery and the other brokers working the Enron account. Thus, the Enron Stock Option Plan was
very profitable to PW, and thus very valuable to keep.
B. THE PRICE
73. Nothing comes free. Enron’s good graces
were no exception. PW understood that keeping its
sweetheart deal meant keeping Enron happy.

App. 374
1. Secret Agreements
74. To do so, PW instituted internal policies regarding communications about Enron. For example,
PW had a secret “gentleman’s agreement” with Enron
regarding the communications that would occur between PW financial advisors and their Enron employee/
ex-employee clients. The “gentlemen’s agreement” prohibited PW financial advisors from (1) advising their
clients to sell Enron stock; (2) advising their clients to
exercise Enron options; and (3) saying anything about
Enron that might be considered to be negative. PW advisors were allowed to generally advise their Enron
employee clients to diversify. Thus, in flagrant disregard of the NASD rules regarding communication with
clients, PW required its financial advisors to speak
with clients in code language where they intended “diversify” to mean “sell,” hoping that the clients could decipher the message. Further, PW hid the “gentleman’s
agreement” from their clients, never revealing that the
communications between them were limited or that
full disclosure would not be had.
2. Muddy Communications
75. Further, PW financial advisors were required
to send mixed signals to their clients as a matter of
policy. Anytime a PW client asked his financial advisor
about Enron, the financial advisor was required to
provide the client with UBS research analyst Ron
Barone’s (“Barone”) “Strong Buy” rating on the stock.
The financial advisors could then advise the client to

App. 375
“diversify” if the client was heavily concentrated in Enron holdings. Thus, the client was faced with a “diversification” recommendation simultaneous with what
UBS financial advisors understood (including Mark
Sutton, the President of PW private Client Group) to
be a “buy” recommendation. This practice was another
flagrant violation of the NASD rules regarding misleading communications.
76. The UBS equity research analyst, Barone, on
the other hand, intended to give Enron a “Strong Buy”
rating, not a recommendation. Barone expected that,
when the PW brokers received his “Strong Buy” rating,
that they would read the Note, understand the Note
and, if the stock was appropriate for their clients, discuss same with the client. He never intended that his
Note be interpreted as a “buy” recommendation that
was even appropriate for PW retail account holders.
This information was never revealed to the PW clients.
3. See No Evil – Ignore The Obvious
77. While Enron stock value reached its all time
high in January, 2001, trouble loomed on the horizon.
It was a trouble of which PW as well aware. Many,
many of the high level executives at Enron maintained
accounts at PW and were personal clients of Rocky
Emery. In the mid-summer of 2000, a sudden firestorm
of selling Enron stocks began within the ranks of the
upper level executives at Enron:

App. 376
JULY, 2000
Employee

Date

John Baxter
Total

17

No.
Shares
2,064
2,064

Closing Est.
Price Value
72.4375 149,511.00
$149,511.00

AUGUST, 2000

Ken Harrison 31
Stanley Horton 31
Mark Koenig 31
Total

No.
Shares
350,000
95,000
38,385
483,385

Running Total

485,449

Employee

Date

Closing
Price
84.8750
84.8750
84.8750

Est.
Value
29,706,250.00
8,063,125.00
3,257,926.88
$41,027,301.88
$41,027,301.88

SEPTEMBER, 2000

Kenneth Lay 1
Cindy Olson 1
Jeffrey Skilling 5
Kenneth Rice 5
Mark Frevert 18
Stanley Horton 18
Ken Harrison 21
Joseph Sutton 22
Joseph Sutton 25
Joseph Sutton 26
Total

Closing
No.
Shares Price
75,000
85.3125
16,380
85.3125
86,441
86.0000
124,102 86.0000
300,000 89.4375
20,000
89.4375
250,000 80.6250
50,000
82.8750
150,000 84.4375
15,000
86.6875
1,086,923

Est.
Value
6,398,437.50
1,397,418.75
7,433,926.00
10,672,772.00
26,831,250.00
1,788,750.00
20,156,250.00
4,143,750.00
12,665,625.00
1,285,312.50
$92,773,491.75

Running Total

1,572,372

$133,950,304.63

Employee

Date

App. 377
OCTOBER, 2000

Richard Causey 2
Stanley Horton 2
Joseph Sutton 2
Joseph Sutton 2
Total

No.
Shares
80,753
20,002
15,000
15,000
130,755

Running Total

1,703,127

Employee

Date

Closing
Price
86.4375
86.4375
86.4375
86.4375

Est.
Value
6,980,087.44
1,728,922.88
1,296,562.50
1,296,562.50
$11,302,135.32
$145,252,439.95

NOVEMBER, 2000
Employee

Date

Andrew Fastow3
John Baxter 6
Norman
Blake, Jr. 6
Kenneth Lay 6
Jeffrey Skilling 6
Jeffrey Skilling 6

No.
Shares
24,196
31,250

Closing
Price
77.3750
81.5625

21,200
250,108
126,068
12,602

81.5625
81.5625
81.5625
81.5625

Andrew Fastow13
Mark Metts 13
Jeffrey Skilling 17
Total

27,884
17,711
130,000
641,019

Running Total

2,344,146

Est.
Value
1,872,165.50
2,548,828.13

1,729,125.00
20,399,433.75
10,282,421.325
1,027,850.63
(Schwab)
79.4375 2,215,035.25
79.4375 1,406,917.56
81.5000 1,406,917.56
$52,076,777.07
$197,329,217.02

App. 378
DECEMBER, 2000

Cindy Olson 15
Kenneth Rice 22
Cindy Olson 27
Total

No.
Shares
7,698
100,000
24,441
132,139

Running Total

2,476,285

Employee

Date

Closing
Price
77.5625
81.1875
82.8125

Est.
Value
597,076.13
8,118,750.00
2,024,020.31
$10,739,846.44
$208,069,063.46

JANUARY, 2001
Employee

Date

No.
Shares
30,770

Closing Est.
Price Value
79.8750 2,457,753.75

James Derrick, 2
Jr.
Stanley Horton 2
John Baxter 5
Richard Buy 5
Kenneth Rice 8
Kenneth Rice 26
Richard Buy 29
Total

25,000
79.8750
179,095 71.3750
40,123
71.3750
790,090 71.2500
790,090 82.0000
7,511
80.7700
1,862,679

1,996,875.00
12,782,905.63
2,863,779.13
56,293,912.50
64,787,380.00
606,663.47
$141,789,269.48

Running Total

4,338,964

$349,858,332.94

App. 379
FEBRUARY, 2001

Cindy Olson 1
John Baxter 5
Stanley Horton 5
Steven Kean 5
Kenneth Lay 5
Greg Vignos 12

No.
Shares
13,409
12,500
25,000
77,822
183,000
1,043

Kenneth Rice 20
Jeffrey Skilling 20
Total

400,000
130,000
842,774

Running Total

5,181,738

Employee

Date

Closing
Price
78.7900
81.8100
81.8100
81.8100
81.8100
79.8000

Est.
Value
1,056,495.11
1,022,625.00
2,045,250.00
6,366,617.82
14,971,230.00
83,231.40
(Merrill)
75.0900 30,036,000.00
75.0900 9,761,700.00
$65,343,149.33
$415,201,482.27

MARCH, 2001

Richard Buy 7
Stanley Horton 12
Cindy Olson 15
Total

No.
Shares
14,254
13,334
6,915
34,503

Running Total

5,216,241

Employee

Date

Closing
Price
70.0000
61.2700
66.5300

Est.
Value
997,780.00
816,974.18
460,054.95
$2,274,809.13
$417,476,291.40

App. 380
MAY, 2001
Employee

Date

Kenneth Lay 3
Robert Jaedicke 7
Mark Koenig 7
Charles
14
Lemaistre
Richard Causey 18
Stanley Horton 18
Jeffrey Skilling 21
Lou Pai
24
Lou Pai
29
Lou Pai
29
Total
Running Total

No.
Shares
224,000
8,000
21,590
8,000

Closing
Price
58.3500
58.0400
58.0400
58.7500

Est.
Value
13,070,400.00
464,320.00
1,253,083.60
470,000.00

482
2,028
140,000
300,000
90,000
160,000
972,100

54.9000
54.9000
54.9900
54.1600
53.0500
53.0500

26,461.80
1,099,537.20
7,698,600.00
16,248,000.00
4,774,500.00
8,488,000.00
$53,592,902.60

6,188,341

$471,069,194.00

JUNE, 2001

Lou Pai
1
Stanley Horton 4
James Derrick,
Jr.
8
Lou Pai
8

No.
Shares
300,000
50,000

Closing
Price
53.0400
54.5400

160,000
32,811

Lou Pai
Lou Pai

22,818
6,086

51.1300 8,180,800.00
51.1300 1,677,626.43
(Chase)
51.1300 1,166,684.34
51.0000 310,386.00
(Chase)
$29,974,496.77

Employee

Date

8
11

Total

571,715

Running Total

6,760,056

Est.
Value
15,912,000.00
2,727,000.00

$501,043,690.77

App. 381
JULY, 2001

Kenneth Rice 19
Total

No.
Shares
385,966
385,966

Running Total

7,146,022

Employee

Date

Closing Est.
Price Value
49.0800 18,943,211.28
$18,943,211.28
$519,986,902.05

AUGUST, 2001

Kenneth Rice 6
Total

No.
Shares
19,133
19,133

TOTAL

7,165,155

Employee

Date

Closing Est.
Price Value
44.5000 851,4184.50
$851,4184.50
$520,838,320.55

Thus, within 13 months time, 21 insiders alone sold off
more than one half of a billion dollars in Enron stock,
generating $520,838,320.55 in wealth and hundreds of
thousands of dollars in sales fees alone (at $.06 per
share) for PW.
4. Speak No Evil – Keep Your Mouth Shut
78. Insider sales of this magnitude waves a big
red flag for anyone watching. Nevertheless, PW closed
its eyes to the goings on, and focused on keeping the
rank and file invested in Enron securities. PW was so
resolute that, even when dissent arose from within its
ranks, PW moved immediately to squelch it. Enron
would not tolerate adverse statements about the company’s stock. In the summer of 2000, David Loftus, in
management with PW, was traveling and discussing
the market with another passenger on the plane. They

App. 382
discussed Enron. Loftis commented on some issues regarding Enron’s business decisions. Within one week,
he was called on the carpet at PW, and instructed that
he was not to say anything negative about Enron.
79. Another PW broker, Chung Wu (“Wu”) (discussed further below), in the fall of 1999, heard on the
Dow Jones news wire that Enron was contemplating
the sale of all overseas assets. In a telephone conversation with a client, who was also an Enron employee, he
mentioned that the possible sale of such assets may not
be a good sign. A few days later, Wu was approached by
Ken Logsdon, another broker and member of the Emery Group. The Emery Group had an elite section of
about ten “lieutenants” who were Rocky Emery’s “right
hand men.” Ken Logsdon was one of them. Logsdon
told Wu not to relay information regarding Enron to
Enron employees. Logsdon went on to tell Wu that Enron had a list of brokers who had given their employees
adverse information, and that Wu’s name was on it.
Logsdon even admitted that he was on the “sanctioned
broker” list. He further told Wu that providing unfavorable information regarding Enron, to Enron employees, would “displease Enron management.”
80. Pat Mendenhall, the Heritage Branch Manager, Rocky Emery and Willie Finnigan, the Heritage
Branch Sales Manager, told brokers in the branch,
on numerous occasions, that if they disseminated any
adverse information about Enron to the Enron employees, they would be reprimanded, sanctioned, yanked
from the Enron account, or even terminated. Every

App. 383
time someone “screwed up,” the brokers were told
about the specific incident and the person involved was
identified. They were told flatly: If you “piss off ” Enron, “you’re done.” The overriding idea in the branch,
regarding Enron, was simply: “Don’t bite the hand that
feeds you.”
81. In July, 2001, Craig Ellis joined PW, in the
Heritage branch, as a consultant to help the sales force
with various investments. During a sales meeting, in
response to a question regarding Enron, Ellis characterized the company as “cook the books” Enron. Again,
Ken Logsdon took action and immediately complained
to Patrick Mendenhall, who silenced Ellis. This secret
policy was taken to its extreme in an incident involving
PW broker Chung Wu. The incident, though one cog in
the wheel, is a perfect example of the control that Enron exerted over PW and the lengths to which PW
would go to serve its master.
5. Silence The Rogue
82. For twenty years, Chung Wu operated four
Chinese restaurants in the Houston area. While operating the restaurants, he attended the University of
Houston and obtained his MBA in finance. Wu chose to
leave the restaurant business and embark upon a second career as an investment broker. He worked for a
short period of time at Morgan Stanley. Ultimately, he
joined PW, at the Heritage branch, where he worked
from April 21, 1999 until he was terminated on August
21, 2001.

App. 384
83. Wu was assigned to work with the Emory
Group at PW. As such, his client base was comprised
predominantly of Enron employees and former employees who had chosen to open an account with PW
for the purpose of exercising their Enron stock options.
He further realized that most of his clients were heavily concentrated in Enron stock and unexercised stock
options.
84. UBS’s position on Enron made it very difficult for Financial Advisors to do their job. They seemed
to constantly walk the tight rope of balancing their clients’ interests with PW’s directives. One slip of the
tongue could ruin a career. Even so, Wu realized that
his clients, as a result of their employment with Enron,
had a significant over-concentration in Enron stock
through their retirement accounts and stock option holdings. He further realized that such over-concentration
was a potentially dangerous situation. Thus, Wu started
to watch Enron closely in December, 2000.
85. In addition to the over-concentration issues
facing his clients, Wu watched Enron closely because
he believed the expectations for the stock were overly
optimistic (UBS maintained a “Strong Buy” recommendation on Enron stock constantly through the end
of November, 2001). As a Financial Advisor, Wu could
not take a contrary position on Enron unless he did his
own due diligence and maintained copies of the information upon which he based his opinions and recommendations. Thus, he did his homework meticulously.

App. 385
86. Wu created real, personal relationships with
his clients. He communicated with them often and had
a continually growing list of customers who wished to
be updated, particularly via e-mail, with Wu’s information regarding Enron Stock. From December, 2000
through August, 2001, Chung Wu spent a significant
amount of time, after hours, considering the value of
Enron stock by reviewing public filings, and comparing
Enron’s P/E reports to those of similarly situated, or
peer, companies.
87. Wu performed his review of Enron, through
publically [sic] available documents, for eight months,
and began sending e-mails to his clients regarding Enron stock, and attaching P/E ratio charts. By March
2001, Wu corresponded with his clients to discuss Enron’s “worsening condition.” During the same time period, and despite the PW/UBS “Strong Buy” on Enron
stock, from December, 2000 through March, 2001, PW
sold over $65,000,000 worth of Enron common stock for
four top Enron executives alone: Ken Lay ($20,604,300),
Jeff Skilling ($12,382,100), Ken Rice ($20,604,300) and
Cliff Baxter ($13,694,751).
88. On May 14, 2001, Wu sent another e-mail to
his clients, including the husband of Representative
Plaintiff, Janice Schuette, regarding his opinion on the
Enron stock. Wu provided an in depth review of Enron’s P/E ratio, the problems with its India plant and
Enron’s silence toward its worsening financial condition. In fact, Wu stated “Enron offers no information on
financial impacts [sic] on pulling out of India’s projects
. . . EBS still has a loss in Q.1, 2001 and its market

App. 386
value has gone down significantly. . . .”. For a period of
almost 5 1/2 months, Wu corresponded with his clients,
keeping them abreast of his growing concerns about
Enron’s worsening financial condition.
89. Meanwhile, PW was continuing to conduct a
massive stock sell-off for highly placed Enron executives. In April and May 2001, UBS unloaded another
$56,000,000 of Enron stock for Lay ($4,144,380), Skilling ($5,216,400), Ken Rice ($1,096,465) and Lou Pai
($45,833,700). Throughout this massive sell off, Wu
continued to review Enron’s public disclosure documents on behalf of his clients. Despite PW’s constant
refrain of UBS’s “Strong Buy” on Enron stock.
90. On June 15, 2001, Wu e-mailed his clients a
new P/E ratio chart comparing Enron to other energy
companies. On July 17, 2001, he sent his clients an
e-mail attaching UBS analyst Ron Barone’s newest
analysis of Enron stock. On August 15, 2001, Wu sent
his clients an e-mail discussing Enron’s institutional
selling. Each correspondence sent was transmitted to
the same 73 or so clients.
91. In June and July of 2001, UBS continued to
facilitate the executives’ massive liquidation of Enron
stock. Ken Lay ($6,808,155), Jeff Skilling ($1,034,200),
Ken Rice ($18,993,991) and Lou Pai ($3,215,605) sold
a combined $30,000,000 in stock. Thus, in just eight
months, while maintaining a “Strong Buy” position
and touting Enron stock to Enron rank and file employees and the Class Members, PW liquidated over

App. 387
$150,000,000 worth of Enron stock for five top Enron
executives.
92. As the months continued and Wu kept analyzing Enron’s published records, Wu became very suspect of PW’s “Strong Buy” rating on Enron stock. In
August, 2001, Wu reviewed Enron’s newly issued 10K
and 10Q. He had been following press releases regarding Enron and its divestment of assets, loss of management personnel, etc. The information he gathered led
him to believe that Enron’s financial situation was deteriorating. On August 20, 2001, Chung Wu worked
late. He reviewed UBS’s most recent “Strong Buy” Research Note, Enron’s most recent SEC filings, Enron’s
12-31-00 10K, its April, 2001 10Q, and Enron’s newly
issued second quarter 10Q. His concerns about Enron’s
worsening condition culminated in his last correspondence to his clients, sent on August 21, 2001, at 12:20
a.m.:
Financial situation is deteriorating in Enron
and price drops another $7.00 from last P/E
report while most of the others stay the same
or improve . . . I would advise you to take some
money off the table even at this point. For
those who still has [sic] problems separating
themselves from the stocks or vested options,
please think about selling ‘Call’ against the
long positions or selling ‘Uncovered Call’
against the vested options with the consideration of having sufficient assets to satisfy the
maintenance requirement . . . Time is value
and waiting to make a decision would cost you
a fortune.

App. 388
His warning was to no avail. In fact, it was his undoing,
causing a ripple effect and resulting in his immediate
termination from PW.
93. Jeff Donahue (“Donahue”), Enron’s Senior
Vice President of Corporate Development, was a PW
retail client whose account was assigned to Wu in the
course of his work during this same time period, Donahue frequently met and communicated with UBS’s
relationship banker, Jim Hunt, regarding Enron’s need
to sell and/or leverage all of its international assets.
Donahue, who had requested to be on Wu’s e-mail list,
received Wu’s e-mail directly on August 21, 2001. Upon
receipt of the e-mail, Donahue sprang into action.
94. At 6:12 a.m. on August 21, 2001, Donahue
forwarded Wu’s e-mail to Enron employees Kelly Boots
and Tim DeSpain, expressing his desire to have Wu
terminated. Donahue then forwarded Wu’s e-mail to
Hunt. Hunt, in turn, forwarded Donahue’s e-mail to
Barone. Hunt explained how the e-mail was brought to
his attention by “an SVP of Enron” who stated “that
this PW guy should be fired[.]” Hunt asked Barone to
whom he should direct the e-mail. Barone told Hunt to
contact Lee Feinberg, the head of UBS’s stock option
plan business. Hunt then thanked Donahue for bringing the situation to his attention and assured him that
his request had been delivered to “the appropriate person.”
95. However, Donahue/Hunt/Barone were not
the only Enron/UBS people on Wu’s trail. Joan Amero
was one of Wu’s clients who worked for Enron-owned

App. 389
PGE in Portland, Oregon. Amero forwarded the e-mail
to her boss, Joyce Bell (“Bell”), who worked in PGE’s
Human Resources department. Joyce Bell sent a copy
to her boss, Arleen Barnett (“Barnett”), asking what
Barnett thought of the advice. Ultimately Bell sent a
copy of the e-mail to her counterparts in Enron’s Human Resources division, Aaron Brown (“Brown”) and
Pam Butler, both mid-level managers in the Employee
Compensation department at Enron.
96. After reading the e-mail, Brown immediately
contacted his superior, Mary Joyce (“Joyce”). Joyce was
the Senior Vice President of Executive Compensation
at Enron. She was a signatory to subsequent PW/Enron
agreements regarding the Stock Option Administration Contract. She was a private client of Rocky Emery
who, by August 21, 2001, had liquidated all of her Enron holdings. She was the person with whom PW would
negotiate to renew the Stock Option Administration
Contract, which expired in a scant two months (October, 2001). Finally, PW knew that its major competition
for the stock option contract was none other than Rocky
Emery himself who had, by mid-July, 2001, left PW and
moved his operations to First Union/Wachovia.
97. Joyce was not one to mince words. She immediately called Mendenhall. According to UBS’s response to a Congressional inquiry into the matter:
Mary Joyce and Aaron Brown, the Enron personnel responsible for administering Enron’s
stock option plan, contacted PaineWebber on
August 21, 2001, to bring Mr. Wu’s e-mail to
the Firm’s attention. Ms. Joyce expressed her

App. 390
extreme displeasure that the e-mail had been
sent to dozens of Enron employees, requested
that the Firm address the situation promptly,
and in words or tone expressed her view that
strong disciplinary action be taken.
98. After his conversation with Joyce, Mendenhall called Wu on his extension, around 1:08 p.m. CST,
to have the following conversation:
CW: Yes, Pat?
PM: Are you sending out an e-mail to Enron
employees telling them that the financials are deteriorating and you recommend taking some stock off the table?
CW: I did, yeah, this morning.
PM: Why would you do that? You can’t do
that!
CW: Okay, I’m sorry.
PM: Chung, you can’t, how many did you
send it to?
CW: Um, 30, 30 or 40 of them.
PM: Oh Jesus Christ Chung!! What are you
thinking!? You can’t do that!! Enron has
just crawled four feet up my ass! You
cannot recommend to buy or sell that
stock! You know that!
CW: Okay, I’m sorry, I didn’t realize that . . .
PM: Get me a list of everyone you sent it to
...

App. 391
CW: Okay . . .
PM: Chung, this is. . . .
CW: I . . .
PM: Who approved the e-mail?
CW: Nobody, I was working real late last
night and I sent it out around 12:30 at
nighttime . . . and . . . uh . . .
PM: From here?
CW: Yes, from here, yes . . . I was studying
10Q . . .
PM: Chung, you are not an analyst . . . you
cannot make a Goddamned recommendation on Enron stock! You know that! I
told you 50 times! I told everybody! You
don’t make a recommendation on Enron!
CW: Um . . .
PM: This has gotten to the head guy at Enron
now, they are calling me . . .
CW: I’m so sorry, I’m just . . .
PM: I need a list of who you sent it to, right
now.
CW: Okay . . . alright . . . I’ll bring it up to you
...
99. Wu went to Mendenhall’s office and gave him
a copy of his e-mail. According to Wu, Mendenhall reviewed the document and said, “Chung, you are right,
you are right, but why did you put it in writing? You

App. 392
just don’t put it in writing. Mary Joyce is so pissed she’s
throwing things in her office.” Mendenhall then obtained a copy of Wu’s distribution list, told Wu that he
might be taken off the “Enron project,” and instructed
Wu to go back to his office and wait.
100. Brown followed up the call to Mendenhall
with e-mails. The first, was sent to Kurt Grunsfeld and
copied to Mendenhall. Grunsfeld was employed with
UBS in the retail brokerage home office in Weehawken,
New Jersey. He assisted the Heritage Branch regarding the administration of the Enron stock option plan
contract. Brown’s e-mail said, “please handle this situation. I’ve also forwarded to Pat Mendenhall. This is
extremely disturbing to me.” The second e-mail, again
sent to Grunsfeld and copied to Mendenhall, was sent
less than five minutes later and further stated, “Several people at PGE received this. I want to see the full
distribution list.” Within minutes, in violation of NASD
and PW confidentiality rules, PW assistant branch
manager Pattie Trieglaff faxed a copy of the distribution list to Brown.
101. Grunsfeld then e-mailed Bobby Fisher
(“Fisher”), the PW vice president within the Heritage
Branch who assumed responsibility for administering
the Enron Stock Option Plan Contract after Rocky Emery left PW, attaching Wu’s e-mail and stating, “Please
read. I am calling you now to discuss.” Sometime thereafter, Mendenhall and UBS in-house counsel Peter
Bado called UBS’s human resources department concerning the situation. The conversation was memorialized in UBS’s human resources records:

App. 393
Pat Mendenhall called. Sent E-mail to around
70 clients about ENRON saying that the stock
is not doing well. He also sent out a chart that
was not approved. This company is saying they will drop UBS PaineWebber
now. Pat spoke to Peter Bado who told Pat
*******REDACTED******** Pat would like to
terminate trainee today. *********************
3:30 w/Bado and BoM. BoM had already
terminated due to client Enron request.
102. Along with agreeing to terminate Wu, PW
agreed to prepare and disseminate a retraction correspondence to the recipients of Wu’s e-mail. At 1:27 p.m.
CST, Barnett at PGE received a telephone call or a
message from Brown regarding Wu. She sent the following e-mail to Bell, regarding the content of the information she received from Brown:
Aaron Brown anticipates that Wu Chang [sic]
will be terminated shortly. Since his e-mail
does not mirror Pain-Webber’s official statement in regard to Enron stock, it was very
likely unauthorized and Enron is quite upset.
Enron will be requesting the list of e-mail recipients and a follow-up is being considered.
Within less than thirty minutes of his initial conversation with Mendenhall, Brown was already reporting to
PGE employees that Wu would be terminated from his
job.
103. About 2:15 p.m., Willie Finnegin (“Finnegin”), the Sales Manager for the Heritage Branch,
called Wu into his office. Finnegin told Wu that Barone

App. 394
had been on vacation that day but that he had to return from vacation and go into his office to “take care
of your shit.” Finnegin said that there was just “too
much heat” over the e-mail and that PW had to terminate Wu.
104. Around 3:30 CST, Mendenhall sent the following e-mail to Joyce:
I apologize for how I handled the conversation. I was and still am so upset and frustrated at the e-mail, that I still haven’t calmed
down. I should have known that if I was this
frustrated, that you, as our client, were more
so. It is not my intent to hide behind anyone. I take full responsibility and will remedy
the situation. We will get your approval prior
to any retraction being sent. The Financial
Advisor has been terminated. Once again I’m
sorry. Thanks. Pat
105. Meanwhile, Fisher had been busy obtaining
and delivering the “retraction” letter that would be
sent to Wu’s clients. After delivering the letter to Enron
to review prior to PW’s sending it to Wu’s clients,
Fisher discussed the issues with his business partner
Alan Klenke who, despite being out of town, knew
about the day’s events:
AK: What’s going on?
BF: Uh . . . just got back from . . . uh . . . the
uh . . . whach-a-ma-call-it . . . Enron . . .
delivering the uh . . .
AK: Oh yeah, how’d that go?

App. 395
BF: Uh, fair. Fair.
AK: Who’d you meet with over there?
BF: Uh, Aaron. I bumped right into, guess
who?
AK: Mary Joyce?
BF: Yeh . . . so . . . that’s a thrill a minute.
AK: What did she say?
BF: Um . . . I don’t think she put together
who I was until she was halfway down
the hall. She was like, “Hi,” and I’m like,
“Hi. I just want to tell you I’m so sorry.”
And she was like on a beeline, and she
said, “Oh, that’s alright.” So, like I say,
I’m not sure she knew what was up, so
...
AK: What were you delivering, an apology
letter?
BF: Yeah, a retraction letter that we were
supposed to have an hour prior. We told
them four and I ran it over there AT five
and uh you know . . .
AK: Retracting Chung’s statements?
BF: Yes. Exactly. So, and then I had to figure
out how to get a .pdf copy of the research
report, which I did, which everyone said
I couldn’t do, heh heh. So, now I’m getting ready to e-mail all 80 people, the “So
Sorry” list . . .
AK: The .pdf of . . .

App. 396
BF: Exactly. So, anyhow, how’s your day
been?
(Conversation unrelated to Wu issue)
BF: Alright, I’m in the middle of trying to get
this dang e-mail out to them timely.
What else, what else happened? I’m in
Chung’s office right now.
AK: Uh, are you really?
BF: And I ran into him on the way back from
there but I was on the phone and he was
with his wife or something and he just
kind of waved, with a dumb look on his
face. So . . .
AK: What did he say? Any reports on his . . .
BF: Nah. He’s sorry. It was late and he
wanted to get it out. He knew he should
have got it Compliance approved, but . . .
He said, “It’s factual,” which it probably is but, uhm, you know, you just
don’t say it . . .
AK: Yeah, you don’t do that . . .
Fisher testified that he believed in giving “white
glove” treatment to Enron. He explained that, aside
from the “gentlemen’s agreement,” “white glove” treatment meant the following: “If he [Aaron Brown] was
angry because it was raining, I would carry over an
umbrella.”
106. The retraction that Fisher and Kienke discussed, and that Fisher delivered to Enron on August

App. 397
21, 2001, is a letter from Mendenhall, drafted by UBS’s
in-house counsel, with no specified addressee:
I have just learned that former UBS PaineWebber Financial Advisor, Chung Wu, sent an
e-mail dated August 21, 2001, to certain Enron employees and former Enron employees
concerning Enron. Foremost, I wish to apologize for Mr. Wu’s statements. To the fullest extent possible, on behalf of UBS PaineWebber, I
hereby retract Mr. Wu’s statements.
Please be assured that the e-mail was not approved by UBS PaineWebber management
and was sent in violation of UBS PaineWebber
policies. Mr. Wu’s statements are contrary to
UBS PaineWebber’s current recommendation
concerning Enron stock. Specifically, UBS PaineWebber analyst Ron Barone has a strong buy
recommendation on the stock. Attached for
your reference is a recent copy of our latest
Research Note from August 17, 2001.
With Enron’s approval, UBS PaineWebber
will send copies of this letter to each of the Enron employees and former employees to whom
Mr. Wu’s e-mail was sent.
Again, I sincerely apologize for Mr. Wu’s actions and any inconvenience it has caused.
Very truly yours,
Patrick M. Mendenhall
Senior Vice President
Branch Manager.

App. 398
107. Bernadette Etienne (“Etienne”) was Brown’s
secretary at Enron. In discovery, Enron produced a
copy of the original letter Fisher delivered to Brown.
That letter had an editorial delete sign next to the
small paragraph that said “With Enron’s approval,
UBS PaineWebber will send copies of this letter to each
of the Enron employees and former employees to whom
Mr. Wu’s e-mail was sent.” The letter had a further note
on the bottom, in Etienne’s handwriting, that said,
“Spoke w/Bobby Fisher on 8/21 at 5:18 p.m.” Etienne
testified that (1) the editorial delete symbol on the letter was typical of those used by Joyce at Enron; (2) the
note on the bottom of the letter is typically the way she
notes any action she is instructed to take by Joyce/
Brown and (3) the note regarding Fisher likely means
that she spoke with him about the deletion of the paragraph because, had she been unable to reach him, she
would have recorded same with her note.
108. At 6:22 p.m. CST, without ever reviewing
the holdings, investment objectives, or any other information concerning those who received Wu’s recommendation to sell Enron stock, Mendenhall retracted Wu’s
sell advice by e-mailing the text of the foregoing apology letter to Wu’s clients, but with the following sentence excluded per Joyce’s instruction: “With Enron’s
approval, UBS PaineWebber will send copies of this
letter to each of the Enron employees and former employees to whom Mr. Wu’s e-mail was sent.” In the area
where that sentence exists on the version hand delivered to Enron, Mendenhall attached the .pdf file of
UBS’s current research report for Enron, including

App. 399
UBS’s “Strong Buy” rating on the stock. The retraction
worked. Mendenhall testified that not one recipient of
his retraction e-mail took Wu’s advice to sell their Enron securities.
109. Mendenhall also sent a copy of the retraction e-mail to Joyce. The next morning Joyce responded
to Mendenhall’s e-mails with an e-mail stating: “This
is great. Thanks.” About ten minutes later, she sent another e-mail to Mendenhall, and copied it to Brown:
“Keep this e-mail and if we get any inquiries, please
send this. Don’t think we need to send to the HR Vps
as yet. Let me know if any call.”
110. Despite the fact that Joyce accomplished
what she set out to do, UBS banker Jim Hunt was not
through. Hunt e-mailed Donahue to inform him that
the “rogue broker” had been fired and that UBS retracted Wu’s e-mail, apologized, and sent out Barone’s
“Strong Buy recommendation piece.” Further, Hunt’s
daily calendar from August 24, 2001 indicates a telephone conference between he and Mendenhall. After
the conversation, Mendenhall sent Hunt an e-mail forwarding the retraction that UBS had already sent to
Wu’s clients. In turn, Hunt forwarded Mendenhall’s email to Donahue along with an explanation.
6. “Seal” The Deal
111. After navigating its way through another
potential damaging situation with Enron, PW immediately instituted a firm, written policy to force compliance with the “gentlemen’s agreement” and prevent a

App. 400
similar situation from occurring in the future. Specifically, PW corporate management decreed that, with
respect to stock option issuers such as Enron, PW financial advisors were prohibited from giving their retail clients any advice regarding the subject company,
but rather only refer the retail clients to UBS’s current
research report and rating on the stock. In other words,
after August 21, 2001, UBS prohibited its financial
advisors from providing UBS retail clients with any information on Enron other than the official UBS position on the stock, which remained a “Strong Buy” until
days before Enron’s bankruptcy.
112. In fact, UBS’s public “Strong Buy” rating on
Enron stock never wavered, preventing UBS’s financial advisors from giving any information during that
period other than a “Strong Buy” recommendation.
Highlighting UBS’s outrageous conduct is the fact that
the Chief Executive Officer of UBS’s retail brokerage
business, the man responsible for the corporate gag
policy on UBS brokers, did not even know at the time
what a “Strong Buy” rating meant. He, like the clients
who received the rating, assumed “Strong Buy” meant
that an investor should actually buy Enron stock. This
assumption seems logical in light of the deceptive way
in which PW used the term and the research notes.
7. Hindsight
113. UBS cared more about its “relationship”
with Enron than it cared about anything else, including its retail customers (the putative class members

App. 401
herein). A Houston Chronicle article stated baldly that
UBS had a strong motive to please Enron.
Once the dust settles on this announcement,
we would be buyers of (Enron) at any price below $39 per share,” Barone wrote on August
18, 2001. He said a “strong buy” rating was
valid because the stock-price “could be approaching a bottom” as it declined into the
$30s. Earlier in the year it had been above
$80. Ten of the 15 major analysts who followed
Enron still rated the company as a “buy” or
“strong buy” as late as Nov. 8 [2001], even after
word the Securities and Exchange Commission
was investigating the company’s practices.
UBS PaineWebber may have been particularly
sensitive about upsetting Enron in August for
other reasons than just going against what
was then seen as conventional wisdom. Just a
month earlier, First Union Securities had successfully lured away Emery Financial Group,
one of PaineWebber’s largest teams. Emery
had cornered much of Enron’s stock option
plan and deferred compensation work. From a
casual meeting with an Enron employee at a
gym seven years ago, Emery Financial and its
lead partner, Rocky Emery, created what one
former Enron executive described as its own
fiefdom within PaineWebber. The number of
prominent Enron employees Emery landed as
customers and the work Emery did offering
stock option services to dozens of others in the
company made the operation a big breadwinner in the Houston office. Even today, Emery
is the financial adviser to many top Enron

App. 402
executives, including former Chairman and
CEO Ken Lay.
Those guys at Emery seemed to know everything that was going on at Enron,” said the
former Enron executive. “Nearly all the executives did business with them, so when you’d
call over there they knew who was dumping
stock when.
First Union is said to have paid more than $10
million for Emery and his Enron business,
which is likely worth a lot less since the company’s bankruptcy.2
114. According to an article in Registered Rep.
Magazine, by Rick Weinberg and David A. Gaffen,
dated May 1, 2002,
Wu seems to have been in a classic Catch-22:
PaineWebber policy, according to a document
prepared for Congressman Henry Waxman by
private client group head Mark Sutton, says
representatives have to disclose the analyst’s
recommendation if their own recommendation runs counter to it . . . [T]he ramifications
for all reps are extol mous as they try to feed
management – and still act as financial advisors providing objective advice. “This is bad
for all firms, not just for UBS,” says a Merrill
Lynch rep on the West Coast. “When one company does something so bad, so immoral and
so unprofessional, it reflects poorly on the
 Copyright 2002 Houston Chronicle, March 5, 2002 Tom
Fowler article, PaineWebber Analyst says Enron Advice Led to
Firing.
2

App. 403
entire industry. We’ll all suffer the consequences.” . . . So, what’s a broker to do? One
PaineWebber producer has decided to stop using his firm’s research, and instead spends
over $10,000 a year on independent analysis.
A colleague is talking about leaving the firm
and taking his clients with him. PaineWebber
says reps desiring to go against an analyst
rating need approval, and would have to discuss the matter with superiors. But the ability
to make a strong suggestion for clients is limited – one is unable to provide additional information supporting one’s beliefs, and in the
case of Enron, forced to disclose the “strong
buy” recommendation analyst Ron Barone had
on the stock, though this recommendation
may not be suitable for all clients.
The way this firm is now, if you get a
strong buy on a stock and the firm wants
you to load up on it, you have brokers
laughing their heads off,” says a PaineWebber rep. “I’ve had clients ask me the
last few days, “Why do you want me to
buy this? Does it have a strong buy?” The
clients know it’s a joke, too. The research
department has no credibility whatsoever among brokers. [emphasis added]
The article continues: [E]specially when considering the depth of the relationship between
Enron and PaineWebber, which administered
stock options for Enron and had an underwriting relationship with the Houston-based
bankruptcy.

App. 404
“We will get your approval prior to any retraction being sent,” says an e-mail from Houston
branch manager Pat Mendenhall to Enron
representatives . . . What this means, then, is
that a broker has a hard time contradicting an
analyst report unless he does it in a clandestine manner . . . Of course, Wu called it like he
saw it, and was fired. The PaineWebber rep
who’s considering leaving, figuring it’s one
way to avoid Wu’s fate, says, “You tell the client, “I’ve tried to look after your best interests.
Obviously, the firms aren’t letting me do that.
You’ve been a client for “X” years. You might
as well go with me.”3
8. Meanwhile, Back At The Bank
115. Wu’s termination serves to highlight several
important aspects of Plaintiffs’ claims. For example,
Wu’s termination clearly shows UBS’s coordination of
its entire structure to accomplish a common goal. Additionally, Wu’s termination clearly shows the control
Enron was able to exert over UBS, even during a period of time when UBS had its hands full moving
heaven and earth to rid itself of liability and exposure
to Enron. Most importantly, Wu’s termination clearly
shows UBS’s subordination of its retail clients’ interests to its own and those of Enron. On November 29,
2001, the day after UBS finally downgraded its rating
on Enron from “Strong Buy” to “Hold,” UBS’s global

 Registered Rep Magazine. May 1, 2002, Fighting Your Firm’s
Research Machine, by Rick Weinberg and David A. Gaffen.
3

App. 405
senior credit officer commented that the press regarding the downgrade was embarrassing. It should be especially embarrassing to UBS in light of the fact that
by the first week of September, UBS had already begun
its review to downgrade Enron’s internal rating and by
October, 2001 had concluded such a downgrade would
in fact occur. However, when one of UBS’s Financial
Advisors shared a similar opinion regarding Enron
with UBS’s retail clients, UBS fired him.
VIII. BANKING AS
SOURCE OF UBS KNOWLEDGE
116. Despite its claims of innocence regarding
Enron’s financial chicanery, UBS has a long standing
banking history with Enron. In the course of time, UBS
obtained a great deal of information about Enron’s financial situation and the liquidity/bankruptcy risks
posed by the manner in which Enron funded its operations. Unlike the position UBS took when dealing with
its retail customers, UBS used its superior knowledge
about Enron’s financial situation to limit its exposure
to Enron. The depth of UBS’s knowledge about Enron
and its financials is proven in part through various Enron deals in which UBS played key roles. These deals
include (a) 1999 and 2000 Amendments of existing
Equity Forward Contracts; (b) UBS participation in
the Osprey and Yosemite IV financial structures; and
(c) UBS’s participation in the Enron E-Next Generation loan.

App. 406
117. It is critical to remember the role of these
transactions in the context of Plaintiffs’ claim under
Section 10(b). As explained above, Plaintiffs’ securities
fraud claim relies upon UBS’s knowledge of Enron’s financial manipulations and the associated risks (acquired
from UBS’s active participation in the manipulations
in order to progress UBS’s purpose of maximizing its
Enron-derived income at the expense and in conflict
with its retail customers), UBS’s duty to disclose this
knowledge to its retail clients, and UBS’s failure to disclose this knowledge to its retail clients. The transactions identified below serve to establish, in part, the
knowledge of UBS in relation to Enron’s financial situation during the 1934 Act Class Period, as well as
UBS’s overall deceptive purpose and effect on its retail
clients.
118. In the context of Section 10(b), the Supreme
Court specifically categorizes the nondisclosure of material information in violation of a duty to disclose as a
“deceptive” act prohibited by Section 10(b). In re Enron
Corp. Sec. Litig., 235 F. Supp.2d 549, 569 n. 9 (citing
Santa Fe Indus., Inc. v. Green, 430 U.S. 462, 470 (1977)).
A failure to disclose under these circumstances deceives those to whom a duty of disclosure is owed because the silence communicates a fiction, i.e., that
all known material information has been disclosed. In
other words, if UBS possessed material information
regarding Enron’s financial situation that it failed to
disclose to its retail clients, then UBS committed a primary violation of Rule 10b-5. A fundamental issue,
then, is whether UBS possessed material information

App. 407
regarding Enron’s financial situation during the 1934
Act Class Period. The transactions discussed below
specifically relate to this issue, not whether UBS’s involvement in a particular transaction by itself constitutes a primary violation of Rule 10b-5; although it is
clear that UBS’s involvement in these transactions
also constitutes a primary violation of Rule 10b-5, in
and of itself, because its participation created a false
appearance of fact in furtherance of hiding Enron’s
financial position and UBS actively participated in order to further its scheme of maximizing its Enronderived income at the expense of and in conflict with
its retail clients’ interests who purchased, acquired,
and/or held Enron securities through UBS.
A. EQUITY FORWARD AMENDMENTS
119. Prior to the merger between SBC and Union
Bank, both banks entered into forward contracts with
Enron on Enron’s own stocks (herein called “SBC Forward Contracts” and “Union Bank Forward Contracts,”
respectively, or “Equity Forward Contracts,” collectively). The Equity Forward Contracts were financial
instruments whereby, on a specific future date (the
“Settlement Date”), Enron was contractually obligated
to purchase from UBS, and UBS was contractually obligated to deliver to Enron, a specific number of Enron
shares at a specific price (the “Forward Price”). The Equity Forward Contracts were derivative financial instruments in that the value of the contracts, but not
their terms, fluctuated with the market price of Enron
stock. If at any given time the market price of Enron

App. 408
stock was greater than the Forward Price of the Equity
Forward Contracts, the contracts were “in the money”
for Enron (i.e., UBS owed Enron value in excess of the
value Enron owed UBS). If at any given time the market price of Enron stock was less than the Forward
Price of the Equity Forward Contracts, the contracts
were “out of the money” for Enron (i.e., Enron owed
UBS value in excess of the value UBS owed Enron).
120. The Equity Forward Contracts could be settled in one of two ways. The first settlement option was
to “physically settle” the contracts, meaning that UBS
would deliver shares to Enron and Enron would deliver
cash to UBS. Another option was to “net share settle”
the contracts. If a contract was “net share settled” at a
time when the contract was “in the money” for Enron,
UBS would deliver to Enron the amount of shares necessary at the current market price as equaled the net
value of the contract to Enron.4 If the contract was “out
of the money” for Enron at the time it was “net share
settled,” Enron would deliver to UBS the amount of
shares necessary at the current market price as
equaled the net liability of Enron under the contract.
121. In 1999 and again in 2000, UBS used these
Equity Forward Contracts to complete what in substance were two undocumented and undisclosed loans
to Enron. All the traditional components of a loan were
present. The basic elements of the transaction were the
 If the Equity Forward Contracts were “net share settled,”
the equation would also take into account an underwriter discount. This discount is ignored for ease of explanation.
4

App. 409
transfer from UBS of value in the form of Enron common stock. In consideration for the stock, Enron promised to pay UBS (or forego payments from UBS) in the
future a certain value and reflected that promise in the
amendments to the Equity Forward Contracts. Finally,
the new value Enron promised to pay (or forego) for the
stock was subject to an interest component, again reflected in the amendments to the Equity Forward Contracts. Thus, UBS and Enron effected two true loans,
but documented the transactions in a manner designed to avoid their characterization as loans.
122. The purpose of these undocumented and undisclosed loans, in turn, was to support manufactured
hedge transactions between Enron and two related
party entities, which Enron used improperly to manage
its income. UBS entered into these loan transactions
knowing each amendment of the Equity Forward Contracts would have a double impact on Enron’s financial
statements. First, the undocumented loans from UBS
were not reported as debt. Second, the manufactured
hedge positions were used to preserve MTM income by
negating the possibility of losses in connection with
those assets. These two UBS transactions alone kept
in excess of $260,000,000 in debt from appearing on
Enron’s balance sheet and provided the means by
which net losses associated with merchant investments remained off of Enron’s income statement.
123. In order to achieve their goals, UBS and Enron had to manipulate the transactions so that they
appeared to be something other than what they truly
were: Loans. So, UBS and Enron created deals that

App. 410
employed form-over-substance structures for the purpose of manufacturing a basis for the manner in which
the deals were accounted for on Enron’s books. However, the form-over-substance structure fails in the
final analysis because both the substance of the transaction and the assumptions underlying the manufactured form defeat it. Additionally, in order to ensure
that neither recognized the transactions as a taxable
event, UBS and Enron developed a totally, factually inconsistent “alibi” position regarding what the transactions were in terms of “economic substance.”
1. 1999 Amendment
124. After the merger of SBC and Union Bank,
the Equity Forward Contracts covered 7,803,073 shares
of Enron stock with Forward Prices of approximately
$44.00 per share. In May of 1999, Enron stock was
trading around $74.00, thus the Equity Forward Contracts were “in the money” to Enron in excess of $200
million. To fulfill its obligations under the contract,
UBS had purchased shares of Enron stock as a “hedge”
to transfer to Enron in the event of settlement. On May
17, 1999, Fastow approached Jim Hunt with a proposition that would allow Enron to extract value from the
contracts by using UBS’s hedge shares. Essentially,
Enron wanted to extract the value from the hedge
shares in the amount of the difference between the Forward Price and the increased market value of the
shares, which was approximately $30.00 per share.

App. 411
125. Fastow asked UBS to reset the Forward
Price of a portion of the Equity Forward Contract shares,
to the “present” market value. Then, Fastow asked
UBS to assign, to a third party (which was ultimately
LJM), its obligations as to the remaining number of
shares subject to the Equity Forward Contracts, as
well as that same number of Enron shares held by UBS
to hedge its obligations under the contracts. The reset
price would be calculated to achieve a constant notional amount of the contracts. Fastow described the
amendment, which Enron needed to complete by the
end of the quarter, as a “favor” he could use internally
at Enron to get UBS investment banking business. After his initial conversations, Fastow left the actual
structuring and execution of the deal to his subordinates and to UBS.
126. UBS takes the position that, by participating in the 1999 amendment of the Equity Forward
Contracts, it simply satisfied its contractual obligation
under the contracts. UBS’s position is that (1) Enron
had the contractual right to terminate the Union Bank
Forward Contract at any time;5 (2) UBS acquiesced to
 Enron had the contractual right to terminate the Union
Bank Forward Contract at any time. If Enron terminated the Union Bank Forward Contract in June 1999, the result to Enron
would be the receipt of Enron shares from UBS, a larger number
of shares at an out-of-pocket cost if the contract was physically
settled, or a lesser number of shares at no out-of-pocket cost if the
contract was net share settled. There were two problems for Enron with physical settlement. First, Enron did not want to pay for
the shares used to populate the SPV because that would “hurt
[Enron’s] funds flow ratio (for credit rating purposes).” Second,
Enron’s receipt of shares in settlement of the Union Bank
5

App. 412
the amendment; and (3) its acquiescence was a purely
administrative task for the purpose of preserving the
economics of the Equity Forward Contracts on its
books. But, as is evident from the following, UBS was
an active and knowing participant in a transaction designed to manipulate Enron’s financial appearance
and UBS’s participation was driven by its own deceptive purpose to optimize its Enron-derived income at
the expense of and in conflict with its retail clients’ interests.
127. Foundational to UBS’s “passive role” argument is the premise that UBS did not know, and had
no way of knowing, that Enron sought to achieve an
improper purpose through the amendment. However,
the way UBS agreed to characterize the transaction
obliterates this false premise. The substance of the
transaction, its goals, the agreed upon characterization
of the transaction, and the obvious violation of tax and
accounting principles evidence UBS’s primary role in
a sham transaction which was, in fact, an undocumented and undisclosed loan to Enron. The value derived from the transaction was used to fund LJM,
which in turn provided Enron an accounting hedge to
an otherwise “unhedgable” asset in order to prevent
potential MTM losses associated with that asset. UBS

Forward Contract would have a negative impact in that those
shares would become regarded as treasury shares which could not
be used by Enron for operational profit purposes due to GAAP
prohibitions. With regard to UBS, termination of the contract
meant UBS would lose $1 million in annual revenues associated
with the settlement of half of the Union Bank Forward Contract.

App. 413
knew the result of its actions would be the presentation of a false appearance on Enron’s financial reports
and would operate as a deceit on its own retail customers purchasing, acquiring, or holding Enron securities
through a UBS accont [sic].
128. The driving force behind the amendment of
the Equity Forward Contracts was to provide “seed”
capital to a special purpose vehicle (“SPV”) Enron
could use to hedge stocks which it could not sell (the
“Illiquid Positions”).6 Enron accounted for the Illiquid
Positions using MTM accounting, which created earnings volatility, and Enron wanted to obtain an asset to
hedge against this volatility. UBS knew achieving this
hedge was the ultimate goal of the transaction.
129. Had Enron merely purchased the stock
from UBS and provided it to LJM, Enron could not use
 In March 1998, Enron invested $10 million in the stock of
Rhythms NetConnections, Inc. (“Rhythms”), a privately-held Internet service provider, by purchasing 5.4 million shares of stock
at $1.85 per share. On April 7, 1999, Rhythms went public at
$21.00 per share. In May 1999, Enron’s investment in Rhythms
was worth approximately $300 million, but a lock-up agreement
prohibited Enron from selling its shares before the end of 1999.
Because Enron accounted for the investment as part of its merchant portfolio, it marked the Rhythms position to market, meaning increases and decreases in the value of Rhythms stock were
reflected on Enron’s income statement. The evidence shows conclusively that Enron informed UBS of the illiquid Positions, its
goal of funding the SPV with Enron stock, its goal of using the
gain in the Equity Forward Contracts for the benefit of the SPV,
and its goal of using that SPV to create an accounting hedge to
the Illiquid Positions. This was the end sought. The question UBS
and Enron had to answer was how to achieve it.
6

App. 414
the derivative instrument received from LJM as a
hedge against the Illiquid Positions. UBS knew about
and discussed this issue with Enron. When a company
reacquires its own stock, GAAP requires that the company account for that stock as treasury stock. Under
both GAAP and the Internal Revenue Code,7 a company is prohibited from recognizing, as a gain or loss,
that which is received in exchange for the issuance of
its own stock. In order for the derivative instrument
received by Enron to act as an accounting hedge to the
Illiquid Positions, Enron had to recognize any gain or
loss associated with the position.
130. Enron and UBS discussed this hurdle in
connection with the restructuring of the Equity Forward Contracts. On June 25, 1999, the parties engaged
in a conference call. Present on the call for UBS were
Hunt, Michael Collins (“Collins”) (officer in UBS’s Equity Risk Management group), Paul Freilich (“Freilich”)
(UBS’s tax officer), and David Kelly (“Kelly”) (UBS
in-house counsel). Present on the call for Enron were
Kopper and Ben Glisan (“Glisan”), Enron’s Vice President of the Structured Finance Group. Also present on
the call was Petrina Chandler, a lawyer from Vinson &
Elkins, L.L.P. Glisan characterized the purpose of the
conference call as an opportunity for Enron to provide
UBS with “full(er) disclosure” of Enron’s goals for the
transaction. Glisan explained to UBS in more detail
 Section 1032(a): Nonrecognition of Gain or Loss – No gain
or loss shall be recognized to a corporation on the receipt of money
or other property in exchange for stock (including treasury stock)
of such corporation.
7

App. 415
Enron’s goal of resolving the unwanted earnings volatility created by the Illiquid Positions. The parties then
discussed the prohibitions that would prevent Enron
from recognizing a gain or loss on the derivative instrument if Enron receives it in exchange for Enron’s
issuance of stock.
131. UBS and Enron devised a transaction that
allowed LJM to “purchase” Enron stock directly from
UBS and thus, from UBS’s and Enron’s formalistic
point of view, avoided the GAAP and Section 1032
issues. They treated this transaction as though it substantively changed the character, and thus the accounting treatment, of Enron’s gain on the Equity
Forward Contracts.
132. The “elegant solution” addressed two separate problems with gains in two separate assets:
(1) Enron had a gain in the Illiquid Positions that it
could not protect because they were illiquid and accounted for by using MTM accounting; and (2) the Equity Forward Contracts had value in them that Enron
could not account for or recognize as income because of
the prohibitions of GAAP and Section 1032.8 Enron
and UBS devised a transaction structure so that Enron
could recognize the maximum accounting benefit of
both gains. In the resulting transaction, UBS transferred Enron common stock with a current market
value of $274,221,708.64 to LJM in exchange for Enron’s
 Section 1032 also applies to gains in forward contracts and
states, “No gain or loss shall be recognized by a corporation with
respect to any lapse or acquisition of an option to buy or sell its
stock (including treasury stock).”
8

App. 416
agreement to embed approximately $150,000,000.00 of
value to UBS in the Equity Forward Contracts, as well
as a “transaction fee” of $300,000.00. LJM then provided Enron with a promissory note and a derivative
instrument hedging the Illiquid Position, these two assets also having a combined value of approximately
$150,000,000.00 on the date of the transaction.9
133. The amendment was accomplished by dividing the SBC Forward Contract into two separate contracts and dividing the Union Bank Forward Contract
into two separate contracts. The contracts were divided
as follows, with the “Amendments” constituting the effective contracts after the amendment date, June 30,
1999:
Original SEC Contract10
No. of Shares:
Forward Price:
Total Price:

1,099,773
$43.2714
$47,588,714.00

 At some point after June 30, 1999, the promissory note was
amended to result in a total obligation to Enron by LJM of $64
million. This amendment appears subsequent to UBS’s role in the
transaction and thus is immaterial to an analysis of UBS’s involvement in the transaction. By way of explanation, however,
Enron sought a fairness opinion from Price WatterhouseCoopers
[sic] that the value of the Enron shares received by LJM was consistent with the value of the promissory note and derivative contract UBS received from LJM. The fairness opinion received by
Enron does not analyze the underlying transaction.
10
 The figures cited are taken from internal UBS documents
submitted during the transaction review process. The calculations are incorrect in that the forward price as indicated in the
contract was $44.0750, making the total notional value of the
original SBC contract $48,472,494.98.
9

App. 417
SBC Contract – Amendment A
No. of Shares:
Forward Price:
Total Price:

610,325
$79.8177
$48,714,737.75

SBC Contract – Amendment B
No. of Shares
Forward Price:
Total Price:

489,448
$0.08882
$43,472.77

Union Bank Contract11
No. of Shares:
Forward Price:
Total Price:

6,703,300
$44.6078
$299,019,465.74

Union Bank Contract – Amendment A
No. of Shares:
Initial Price:
Total Price:

3,815,051
$78.00
$297,573,978.00

Union Bank Contract – Amendment B
No. of Shares
Initial Price:
Total. Price:

2,888,249
$0.08882
$256,534.28

134. UBS transferred to LJM: (i) the shares covered by Amendment B to the SBC Forward Contract
and Amendment B to the Union Bank Forward
 The Union Bank Forward Contract included a floating forward price that was reset on the 12th day of every month. The
calculation of the forward price with a closing date of June 28,
1999 was $44.6078
11

App. 418
Contract, a total of 3,377,697 shares of Enron stock; as
well as (ii) UBS’s contractual rights and obligations
under Amendment B to the SBC Forward Contract and
Amendment B to the Union Bank Forward Contract.
The Enron shares UBS transferred were held in its
own portfolio to hedge its obligation to deliver shares
to Enron under the original contract. The market price
of Enron stock closed on June 29, 1999 at $81.186,
making the value of the Enron stock transferred to
LJM equal to $274,221,708.64. In exchange for the
shares, UBS and Enron added $149,580,721.37 in cumulative value to portions of the amended contracts
remaining with UBS.12
135. The transaction was memorialized through
an Assignment and Assumption Agreement between
UBS, Enron, and LJM, as well as the written confirmations effecting the four amendments described above.
The Assignment and Assumption Agreement evidences
UBS’s transfer of shares to LJM and UBS’s transfer of
its rights and obligations under the Amendment B confirmations to LJM. This agreement also contains a
“Tax Characterization” provision whereby UBS, Enron, and LJM all agreed that the “economic substance”
of the transaction was “the purchase by Enron of the
Assigned Shares by early settlement . . . with the purchase price paid for such shares being paid by means
of a readjustment to the forward price that applies to
 The value added is calculated as follows: (! SBC Forward
Price x No. Shares covered by SBC Amendment A) + (! Union
Bank Forward Price x No. Shares covered by Union Bank Amendment A).
12

App. 419
the remaining underlying shares[.]” The “Tax Characterization” provision creates a fiction in a number of
ways.
136. First, the amendment did not result in a
“settlement” of the original Forward Contracts because
the same number of shares subject to those two contracts remained subject to the four contracts produced
by the amendment. The documents on their face show
that no “early settlement” occurred with respect to the
two original contracts. The transaction is an undocumented, undisclosed loan precisely because no “early
settlement” occurred. UBS’s transfer of Enron common
stock in this transaction was the transfer of new value.
Enron’s promise to pay (or forego) approximately $150
million in the future was a new promise. Because the
amendments did not settle any portion of the original
contracts, but rather reflected a new promise by Enron
in exchange for UBS’s concurrent transfer of new
value, the transaction can only be properly regarded
and characterized as a loan.
137. Second, the statement in the “Tax Characterization” provision that Enron purchased the shares
assigned to LJM is false. The Assignment and Assumption Agreement unambiguously states that “[UBS]
hereby sells, transfers and assigns to [LJM] all of its
right, title and interest in and to the Assigned Shares.”
Hunt’s notes reflect UBS’s knowledge of this issue.
However, UBS selling the shares directly to LJM was
a necessary component of the argument to achieve
a hedge against the Illiquid Positions, a goal clearly
not accomplished if Enron purchased the “Assigned

App. 420
Shares” and then transferred those treasury shares to
LJM.
138. Not everyone at UBS was comfortable with
this transaction. In fact, individuals both within UBS
and Enron had concerns with the structure, especially
with regard to the risk in the event of full disclosure.
Even the final approval received from UBS’s control
functions was reserved – “legal, acct & tax – have confirmed
they’re ok (not 100%, but) & will support transac[tion].”
139. In the end the transaction closed and UBS
scored “high profile points” with Enron and Fastow.
Within days, Hunt’s notes reflect that as a result of the
“favor” Enron was now “teeing up som real deals” for
UBS and specifically set up a meeting with UBS to discuss its capabilities in structured finance. Hunt, when
e-mailing other officers of UBS in preparation for the
meeting, emphasized the “creative financing” Enron
employs under Kopper’s direction as follows:
we (Chris Pohle’s group) just completed a creative financing for Kopper, which on its face
seemed to be a straight forward restructuring of a $350 million (notional) portfolio
of forward stock purchase contracts. The restructuring enabled Enron to extract $260
million + in value from the forwards to capitalize a new business venture. (There’s more
to the story which demonstrates the kind of
creative thinking that Kopper’s group does.)
(Emphasis Added).


App. 421
2. 2000 Amendment
140. The story was repeated in April of 2000. In
March of 2000, Enron notified UBS that it again
wished to amend the Equity Forward Contracts remaining at UBS. Shortly after the June 1999 amendment, Enron announced a stock split. As a result, the
number of shares subject to the amended Equity Forward Contracts remaining at UBS doubled and the
Forward Price was cut in half. UBS’s credit officer for
Enron again wanted to run the amendment through
the UBS’s internal control functions, like legal, tax, accounting, and market risk. Collins, attempting to avoid
this additional review of the transaction, quickly emailed the credit officer stating,
Also in response to your legal, tax, and acct.
issues, this is the exact same transaction we
executed for [Enron] back in June. At that
time we ha[d] everybody (legal, tax, acct, compliance, market risk, trading. . . .) signed off
on it. I would think that this means we don’t
need to go through this again.
141. Collins then emphasized the importance of
the transaction to Enron from a reporting perspective by
stating “this entire transaction must be done by the end
of the month or my contact ends up in the ‘lose her job’
scenario.” Despite Collins’ efforts, the transactionj [sic]
was reviewed. On March 24, 2000, Collins e-mailed the
transaction review form to a larger group, but again
emphasized that the transaction needed to be completed within the week and that the “approval process

App. 422
should be fairly easy as we executed the identical
transaction with Enron in June 1999.”
142. UBS documents do not show the same
depth of review in connection with the April 2000
amendment, presumably because it was repeatedly
characterized as identical to the June 1999 amendment. In the transaction approval form, UBS explained
[t]he only difference between the two transactions is that the 1999 restructuring involved
assigning the forwards and stock to a Cayman
Islands SPV where this transaction will be
an assignment of forwards and stock to a
Delaware LLC . . . (the two members [being]
wholly owned subs of Enron and the managing member [being] an investment fund which
is a Delaware LP).
UBS also understood Enron’s purpose for the transaction to be the same as in the June 1999 amendment.
The LLC will then provide (i) some cash to
ENE and (ii) derivative structures to ENE to
hedge certain investments ENE has in US
publicly traded stocks which otherwise cannot
be economically hedged (thereby eliminating
unwanted volatility in ENE’s current earnings stream).
143. UBS took specific note of Enron’s exposure
from its “sprawling trading business.” Collins specifically discussed with Enron officer Anne Yeager (“Yeager”)
Enron’s need to hedge its equity investments. Yeager
agreed and explained that Enron historically hedged
its positions internally from one subsidiary to another.

App. 423
Collins recognized Enron could not produce effective,
true hedges in this manner and “impressed upon Yeager
the economics that are at stake by not hedging externally.”
144. Collins elevated his concerns, but nevertheless continued his push to complete the April 2000
amendment and enable Enron to complete yet another
internal hedge. UBS, Enron, and Harrier (another Enron SPV) executed a near identical Assignment & Assumption Agreement dated April 18, 2000, also including a
Tax Characterization provision mischaracterizing the
transaction as a settlement of the existing transactions. The 2000 amendments contained the following
terms:13
Amended SBC Contract14
No, of Shares:
Forward Price:
Total Price:

1,220,650
$40.7917
$49,792,327.57

SBC Contract – Amendment A
No. of Shares:
Forward Price:
Total Price:

706,274
$71.0499
$50,180,697.07

 Again note that Enron stock split subsequent to the 1999
amendment of the Equity Forward Contracts. Both the forward
prices and the number shares subject to the contracts in the 2000
amendment reflect the split.
14
 The figures cited are taken from internal UBS documents
submitted during the transaction review process. The figures are
incorrect and should reflect a $50,101,457.19 total notional value
of the original SBC contract at the forward price calculated by
UBS.
13

App. 424
SBC Contract – Amendment B
No. of Shares:
Forward Price:
Total Price:

514,376
$0.080232
$41,269.42

Amended UBS Contract15
No. of Shares:
Forward Price:
Total Price:

7,630,102
$40.7038
$310,573,887.00

UBS Contract – Amendment A
No. of Shares:
Initial Price:
Total Price:

4,405,303
$70.50
$310,573,861.50

UBS Contract – Amendment B
No. of Shares:
Initial Price:
Total Price:

3,224,799
$0.080232
$258,732.07

145. UBS transferred to Harrier 3,739,175 shares
of Enron common stock. The forward price of the contracts remaining with UBS were increased to add
$112,106,553.82 of value. On April 18, 2000, the effective date of the Assignment & Assumption Agreement,
Enron stock closed at $68.00. Thus, the Enron shares
received by Harrier were worth $254,263,900.00.
 Per UBS calculation of forward price on April 24, 2000.
The figures cited arc taken from internal UBS documents submitted during the transaction review process. The figures are incorrect and should reflect a $310,574,145.79 total notional value of
the original UBS contract at the forward price calculated by UBS.
15

App. 425
146. UBS’s and Enron’s twice restructuring of
the Equity Forward Contracts provided Enron with
what it considered hedges for assets that could not otherwise be hedged, as well as hundreds of millions of
dollars in “seed” capital for LJM and Harrier that.
Enron thereafter used for many illicit accounting
and corporate purposes. After structuring these sham
transactions and with institutional knowledge of their
fraudulent nature, UBS performed no due diligence in
connection with subsequent transactions to determine
the accuracy of Enron’s financial statements.
B. OSPREY & YOSEMITE IV
147. The obligation to perform due diligence generally derives from securities laws. Congress statutorily imposed very strict liability on issuers of securities
and other specific groups, such as underwriters, who
assist issuers in the process of selling securities to investors. A defense to this statutory liability may exist
if a potentially liable party behaves responsibility [sic]
and makes a good faith attempt to uphold the fundamental purpose of the securities laws. The standard
applied to this defense has become known as due diligence, a term of art generally combining common sense
with a reasonable degree of skepticism. In sum and
substance, due diligence charges the potentially liable
party with knowing what a reasonable, good faith investigation would have revealed under the circumstances. If this knowledge would have prompted a
reasonable person to take action that was not taken
because of a failure to investigate, due diligence

App. 426
standards were not satisfied. As UBS’s internal procedures reflect, due diligence is an absolutely necessary
process to ensure that one does not “participate in
transactions of a dubious or illegal nature or [which
carry] hidden or unclear risks.”
148. Under relevant industry standards and
UBS’s own internal policies, due diligence must be undertaken for all transactions. A financial services firm
cannot simply rely on another firm to conduct due diligence with respect to a transaction, but instead must
conduct its own investigation of the facts and circumstances to satisfy itself that no issues exist regarding
the issuer and/or the transaction. In the present case,
the extreme degree of recklessness exhibited by UBS
in connection with its dealings with Enron include
UBS’s admitted failure to conduct due diligence with
respect to Osprey and Yosemite IV.
1. Osprey Transaction
149. UBS participated as a co-manager in a follow-on offering of notes issued in connection with Enron’s Osprey structure in September of 2000. UBS’s
first analysis of Enron’s Osprey structure was early in
2000. A UBS presentation prepared for Enron discusses Enron’s initial use of the Osprey structure, recognizing the structure as a means by which Enron
could restructure its merchant portfolio. UBS characterized the structure as providing “non-recourse” financing to Enron, but noted that Enron maintained an

App. 427
ultimate obligation to repay the notes issued through
the structure by the delivery of Enron equity shares.
150. In late August of 2000, Enron invited UBS
to participate as an underwriter to the follow-on offering
of notes issued through the Osprey structure. Glisan
explained to Hunt and UBS Debt Capital. Markets
Group Managing Director Kimberly Blue (“Blue”) that
Enron needed to complete this structured bond deal for
year end balance sheet purposes and wanted UBS to
participate both (1) as an acknowledgment of the work
UBS had been doing for Enron and (2) to motivate UBS
in the work that lay ahead. UBS admits that it did not
conduct its own due diligence in connection with its
role in the Osprey follow on offering, but instead relied
upon due diligence carried out by Deutsche Bank Alex
Brown (“Deutsche”) and Donaldson, Lufkin & Jenrette
(“DLJ”).
151. UBS, however, entered into no agreements
with, and received no documentation concerning the
due diligence efforts of, the lead banks. This failure violates UBS’s own internal policy of creating an engagement letter clearly setting out the responsibilities of
the parties in the due diligence for the transaction.
Further, Deutsche confirmed that for UBS simply to
rely on the due diligence conducted by it or DLJ would
violate industry standards. Deutsche also confirmed
that no agreement supporting UBS’s alleged reliance
on Deutsche or DLJ existed. Finally, any reliance by
UBS on the due diligence of Deutsche and DLJ would
have been unreasonable in light of several complaints

App. 428
UBS received from DLJ concerning Deutsche’s failure
to cooperate on the deal.
152. Despite industry standards and known issues
between the parties upon whom UBS allegedly relied,
UBS employees merely listened in on two conference
calls, an initial scheduling call and the final call before
the issuance. Essentially, UBS took three actions relating to the transaction: (1) It lent its name to the
offering memorandum; (2) it marketed the notes to potential investors and forwarded orders for purchases of
the notes; and (3) it collected $411,062.00 in fees. In
fact, regarding the fees paid to UBS in connection with
the transaction, one UBS employee boasted, “Not too
bad for preparing a sales memo and reading some documentation.”
153. Apparently, the documentation UBS read
did not include the various opinion letters provided by
outside professionals for the structure. For example,
Vinson & Elkins, L.L.P. prepared an opinion letter regarding the issue of whether the assets and liabilities
of Osprey would be substantively consolidated with the
assets and liabilities of Enron in the event of an Enron
bankruptcy, but this letter was not even prepared or
received until after UBS solicited investors to purchase the securities. Thus, UBS cannot attempt to rely
on the advice of professionals as a reason for its failure
to conduct due diligence because the sales activities occurred without the benefit of any documented professional advice.

App. 429
154. UBS’s admission that it failed to conduct
reasonable due diligence seems strangely convenient
considering the purpose for which Enron used the Osprey structure. In fact, UBS senior-level employees
distance themselves from the responsibility for conducting due diligence on the Osprey structure by pointing the finger internally at other sections of the bank
as the responsible group for due diligence activities.
Whoever UBS charged with responsibility for due diligence, UBS internal policies demand that the firm only
participate in any complex or unusual transactions
after first forming a clear understanding of their economic and tax consequences. Consistent with this
mandate, testimony from the law firm hired by UBS
and the other banks involved in the transaction to assist with due diligence indicates UBS did, in fact, participate in due diligence and a last minute decision to
omit from the offering memorandum disclosures of
how the structure would be used to purchase certain
distressed assets from Enron in non-arm length transactions.
155. By denying that UBS performed any due
diligence on the project, UBS denies any knowledge
regarding Enron’s use of the Osprey structure. Thus,
UBS attempts to deny knowing that Enron used the
Osprey structure to generate income by parking overvalued, non-performing assets in the structure, which
structure Enron ultimately supported through a mandatory issuance of common stock. Even if UBS’s
confessed violations of its internal, as well as industry,
standards are accepted, UBS’s conduct does not

App. 430
exonerate it. In fact, under said circumstances, UBS’s
lack of knowledge would only be the result of its own
extremely reckless conduct in connection with the
transaction.
2. Yosemite IV
156. UBS takes the same position with regard to
its role in the transaction generally referred to as Yosemite IV. As the name implies, Enron had previously
closed three versions of transactions similarly structured. The Yosemite IV transaction closed on May 16,
2001. Enron used these Yosemite transactions to obtain what in economic substance were loans, despite
their public characterization as funds flow from operations.
157. Enron approached UBS regarding the transaction on April 10, 2001. Fastow told Hunt that Enron
instructed Salomon Smith Barney (“SSB”) to include
UBS as a co-lead on the transaction for “reasonable
economics.” An announcement of the deal was expected
on April 16th, which prompted UBS officer Karsten
Berlage (“Berlage”) to express his surprise that UBS,
as a co-lead, was only presented with the draft offering
memorandum a few days before. Prior to the transaction closing, and in violation of UBS policies regarding
due diligence and understanding the economic substance of transactions, UBS again attempts to limit its
involvement in the transaction to advising Enron with
regard to various timing issues that arose, such as European holidays, and preparing a sales memorandum

App. 431
for UBS employees to use in soliciting investors. UBS
would rather take the position it simply violated its
own internal policies and procedures, as well as established industry standards, by not conducting its own
due diligence prior to the closing of the transaction
than admit to knowing the details of a transactions
[sic] resulting in an undocumented $775 million loan
to Enron.
158. Interestingly, though, Hunt’s file contains
notes from a conference call conducted the day before
subscriptions in the transaction were sold. These notes
indicate UBS was, in fact, informed about the true purpose of the transaction. For example, Hunt notes the
ultimate purpose of the transaction was to generate
funds for Enron without increasing Enron’s use of
credit from banks, thereby preserving that capacity for
new use. Additionally, Hunt’s notes reflect the underlying mechanics of the transaction were discussed,
including the commodity forward contracts used to
provide Enron with disguised loans from the transaction. UBS documents also evidence Hunt’s and Blue’s
participation in a due diligence call the day after the
subscriptions were sold. Hunt notes that UBS avoided
directly selling the notes to investors by specifically requesting all sale orders be funneled through SSB. Immediately after the call Blue e-mailed Hunt stating “I
kinda feel like I am being lied too [sic].” Finally, Berlage himself admitted in an e-mail to his colleague in
late November of 2001 that he advised Enron on the
structuring of the transaction.

App. 432
159. This knowledge is also consistent with documents from April of 2000 when UBS was attempting
to put together its own form of a Yosemite transaction
for Enron. UBS first met with Enron on February 14,
2000 to discuss the Yosemite structure and to discuss
ideas about how UBS could improve upon transactions
Enron had already completed using this structure. By
April 7, 2000, UBS had developed a proposed structure,
which in UBS’s own presentation materials shows the
circular swap of a commodity that provided Enron with
up-front cash without it or any other participant in the
transaction taking on commodity price risk. The circular commodity swap eliminates the commodity price
risk and makes the transaction, in substance and in
form, nothing more than an undisclosed loan to Enron.
160. Attempting to avoid a badge of knowledge
regarding the improprieties of the Osprey and Yosemite IV transactions, UBS admits to violating internal
and industry standards for due diligence. This is nothing more than a defense strategy developed for this
litigation. A witness for SSB, just like Deutesche [sic]
and DLJ for Osprey, testified that each participate in
Yosemite IV should have completed their own independent due diligence. To accept UBS’s position a fact
finder must conclude that a wide group of UBS officers,
all ambitious in their careers, well experienced, and in
senior level positions, simply disregarded their responsibility to understand all the material aspects of the
transactions. UBS would rather a fact finder believe its
conduct was reckless than intentional. Either way,
UBS violated the anti-fraud provisions of the federal

App. 433
securities laws in connection with the Osprey and Yosemite IV transactions. UBS either knew, as did its
joint lead SSB, or was severely reckless in not knowing
about the commodity prepay aspect of the transaction,
the fact that the prepay transaction was not entered
into by any of the parties in order to make trading profits, and that the prepay transaction was nothing more
than yet another disguised loan to Enron. In light of
UBS’s own documents regarding this transaction, UBS
clearly knew Yosemite IV was nothing more than “direct [Enron] debt.”
C. E-NEXT GENERATION
161. E-Next perhaps serves as the best documented example of UBS participating in a materially
false public presentation of Enron’s financial appearance. On March 20, 2001, Wendy Field (“Field”), an Executive Director in UBS’s Investment Grade Loan
Origination Group, and two other individuals from
UBS’s credit department, attended an “Enron one-onone session to discuss what UBS deemed a “structured
‘secure’ loan to Enron.” The subject project was a $600
million structured off-balance sheet construction facility named E-Next Generation LLC (“E-Next”). By using the E-Next facility, Enron sought to finance, off
balance sheet, the construction of its US electric generating build out and then, once the construction was
complete, bring the project onto Enron’s balance sheet
at a time when the project was generating revenues.
Enron made UBS aware of this intention in order to
secure UBS’s participation.

App. 434
162. The E-Next project was divided into three
phases, on its face requiring a total seven (7) year loan
commitment by UBS. It was extremely important to
structure the project in three phases because that was
the only mechanism that could be used to keep the loan
off of Enron’s books. Phase I consisted of acquiring the
turbines and other ancillary equipment and beginning
initial development activity. In Phase II, Enron identified locations and constructed multiple gas-fired electric generating plants. Phase III consisted simply of
the operation of these plants. Enron maintained an option to purchase the plants at the end of Phase II and
represented to UBS that the option would absolutely
be exercised. Additionally, UBS had a right to prevent
Enron from proceeding into Phase III by forcing them
to exercise the purchase option. UBS’s Lending Commitments Committee Proposal for E-Next best summarizes UBS’s understanding of the transaction and
its financial commitment:
Phase III will never kick-in as this is NOT intended to be a project financing „ To achieve
off-balance sheet treatment, Enron needs to
have the equipment and plans owned by another legal entity. Enron will have the right to
purchase the equipment and facilities at the
end of Phase II at the full cost of construction.
Proceeds from the purchase will go to fully repay the loans associated with the cost of the
project. It is Enron’s intention to purchase
every project at the end of Phase II . . .
Thus, the entire Phase III mechanism
is simply a structure which will allow

App. 435
off-balance sheet treatment for the debt
and assets . . . [W]e view the financing as
3-year senior secured Enron Corp. risk.
(Emphasis Added).
163. UBS’s Credit Risk Control Group officers
reviewed the transaction and also understood its purpose. As one credit officer wrote,
The financing is structured primarily to
satisfy accounting rules . . . By having a
structured deal the assets can remain offbalance sheet until project completion
thus having no negative impact on [return on invested capital] . . . Even though
the facility has a tenor of seven years, it is
highly unlikely (and not intended) for it [to]
extend past three years without amending the
terms of the structure. (Emphasis Added).
164. Despite the risk associated with the formover-substance structuring of the transaction, UBS
knew the importance Enron placed on E-Next, as well
as in UBS’s participation in E-Next. UBS initially requested to be excused from the E-Next transaction;
however, Enron responded that E-Next was “critical”
and that UBS was expected to commit to the facility
and show its support. Hunt emphasized to Field that
she “cannot get a ‘no’ answer from credit” and later reminded her that she “must get approval” for the deal.
Hunt had reason to worry. On April 9, 2001, during the
sequence of the E-Next approval process, Bill Glass
(“Glass”), UBS’s Head of North American Credit, attended a senior-level “CFI Risk Meeting” wherein

App. 436
Enron was individually identified as one of only three
companies in the total universe of UBS counterparties
as a name “we do not like.” Thus, when Glass approved
UBS’s participation in the E-Next loan facility on April
10, 2001, he specifically conditioned his approval on
the requirement that UBS “sell down the position after
closing.”
165. In addition to having the transaction reviewed and approved by UBS’s Lending Commitment
Committee and its Head of North American Credit,
UBS had its in-house legal counsel review the transaction. On April 19, 2001, UBS attorney Sandra Costin
(“Costin”) e-mailed Field with regard to a technical issue concerning Enron’s guarantee of the E-Next project obligations and to note her conclusion that UBS’s
ability to prevent Enron from placing the assets into
Phase III of the project is not “absolute.” Field responded to Costin’s legal concerns in an e-mail to UBS
executives Chris Glocker and Richard Tavrow stating:
As far as the latter point [of UBS’s ability to
block Phase III], again this is sort of a business point. We did not look at this deal as a
Project Financing and we have been more
than vocal (to Enron and CSFB) about our
ability to block a project entering Phase 3.
Sandra’s point is that in a legal sense we
might not have a great leg to stand on if the
economics of the project are “market” and they
have met the rest of the conditions. Enron
has stated that they will not put a project
into phase 3. I have stated I will use
everything in my power to prevent it. So

App. 437
were [sic] are we? I explained this in the
approval process but I need your concurrence. (Emphasis Added).
166. Ultimately, UBS received all the internal
approvals necessary to participate in E-Next. On April
26, 2001, UBS was informed that the Master Assignment and Assumption Agreement for E-Next had been
closed and the conditions precedent to funding had
been met. UBS committed to fund $20 million of the
$600 million facility. In other words, in the second
quarter of 2001, UBS individually committed to issue
Enron a loan in the amount of $20 million, and more
generally knew that Enron was collectively being loaned
$600 million, through a structure solely designed to allow Enron to keep the total loan off its balance sheet
as a direct Enron obligation. From the outset, UBS
knew the deal was “purely a structured ‘secured’ loan
to Enron.” The existence of this loan, the necessary
public disclosures regarding it, and the fact that Enron
structured transactions for the sole purpose of avoiding public disclosure, were material facts to investors,
especially when considered in the context of the time
and the larger universe of financial obligations to
which Enron was then exposed.
D. ADDITIONAL UBS KNOWLEDGE
167. With the host of banks competing for the
uniquely large fees associated with Enron’s investment banking business, it is no surprise that UBS did
not win a mandate on every potential transaction. UBS
did, however, perform significant amounts of work on

App. 438
transactions that never closed or on which UBS did not
ultimately participate. Through this work, UBS came
into possession of even more non-public information on
Enron and its questionable activities that UBS kept
from the Class Plaintiffs at a time when they were
purchasing or acquiring Enron securities in UBS accounts.
168. One example is “Project Wiamea” or “Project
Kahuna” in 2000. This project was considered a “test of
UBS’s ability” to create a finance structure for Enron
that would maximize Enron’s earnings per share by reducing funding costs and credit exposure to certain assets. Through this project, Enron informed UBS how
assets were “sold” to special purpose entities while Enron maintained control over the asset and how Enron
used equity accounting to “disclose” the debt associated
with specific assets. Finally, Enron also informed UBS
how various activities did not show up on Enron’s balance sheet as debt, but rather were considered as part
of Enron’s footnotes on risk management activities.
169. Another example was UBS’s involvement in
the potential sale by Enron of all of its international
assets during the summer of 2000. Known as “Project
Summer” or “Enigma,” UBS represented a group of Middle Eastern investors who were looking to buy all of Enron’s international assets. The transaction did not close,
but many questions were raised by UBS regarding Enron’s treatment of its international assets. In one memorandum, UBS posed the following questions to Enron
regarding the accounting treatment for various assets:

App. 439
•

“Why is the debt not consolidated if the
rest of the project is?”

•

“Several projects in which [Enron] has an
ownership interest for US GAAP greater
than 50% but appear to not be consolidated
for US GAAP . . . Why is this the case?”

•

“The US GAAP balance sheet and the
project level balance sheet are quite different.”

170. Not only was Enron’s treatment of the debt
associated with these assets in question, Enron’s valuation of these assets were also in question. One Enron
executive working on this project commented that the
asset values on Enron’s books are “at best of little use,
and at worst misleading, to outside investors. Many of
the [book values] have little or nothing to do with Enron’s actual cash investment, market value, or any
other investor-relevant markers.” On Hunt’s copy of
this document, he wrote in the column next to the foregoing statement that he “couldn’t agree more.”
171. This known overvaluation of Enron’s international assets also became an issue early in 2001
when LJM, the Fastow-controlled investing entity disclosed in late 2001, approached UBS for assistance in
rasing [sic] capital from outside investors to enable
LJM to purchase Enron Wind from Enron. Hunt became frustrated by the project numbers generated by
UBS lower-level employees as being “too conservative.”
UBS found itself wrestling with the fact that the purchase price assumption being used for the project was

App. 440
too high considering the asset’s “recent financial performance.” In other words, UBS knew the asset was
grossly overvalued by Enron in the potential sale to
LJM.
172. Further, in connection with “Enigma II” in
early 2001, UBS recognized that its Enron executive
contacts were “on a special assignment from the CEO
and CFO” and were “out to raise as much [cash] as they
can this quarter.” The idea was to put together a transaction that would leverage Enron’s international assets “to the limit” and pull out from them whatever
cash they could, whether reasonable or unreasonable.
In this context, UBS employees again noted for the record that “the difference between book [earnings] and
cash flow can sometimes be significant. Thus, the consolidated financials for the asset package do not tell
the whole story.”
173. Despite UBS’s knowledge of these issues, it
continued to participate in other Enron transactions in
this time period, continued to commit to Enron credit
facilities in order to win additional business from Enron, continued to conduct proprietary trading in Enron
securities, and continued to allow Class Plaintiffs to
trade Enron securities through UBS accounts while ignorant of all these facts. Not once did UBS evaluate its
responsibilities to the Class Plaintiffs in light of this
information. Instead, as discussed in detail above, UBS
brokers were forced only to give their retail clients
UBS’s “Strong Buy” rating on Enron.

App. 441
IX. THE UNWINDING
174. The dénouement of the UBS/Enron saga
clearly had begun by June of 2001. The subsequent five
month period included a number of events, the ultimate result of which was UBS eliminating virtually all
of its trading and credit exposure to Enron prior to
Enron’s bankruptcy filing on December 2, 2001. In
June and July of 2001, UBS issued and sold JPY
20,000,000,000 (approximately $163 million) worth of
notes to a foreign investor. UBS’s payment obligations
under the notes were specifically linked to an Enron
credit event, such as Enron’s bankruptcy or default on
an obligation to UBS. In other words, in the event Enron filed bankruptcy or otherwise defaulted on an obligation to UBS, UBS could avoid repayment of the notes
it issued to this institutional investor. UBS developed
and employed the credit linked notes to transfer its
Enron credit exposure to a Japanese party that did not
have the material inside information UBS possessed.
175. Also in July of 2001, UBS began a process of
selling to a broader group of similarly uninformed investors, including its retail clients, certain Enron debt
securities held by UBS. In February of 2001, Enron issued and sold in a private placement a significant
amount of Zero Coupon Convertible Senior Notes Due
2021. UBS purchased from initial purchasers a cumulative face value at maturity amount of $261,800,000.00
worth of these notes. On July 18 2001, Enron filed a
S-3 registration statement with the SEC registering
the notes and the common stock issuable upon conversion and identifying various UBS entities as selling

App. 442
security holders of the notes. Enron also filed a supplement on August 15, 2001 registering additional stock
for issuance upon conversion. These registration statements enabled UBS to sell the notes in the US public
markets, which UBS then proceeded to do. UBS brokers even used UBS’s “Strong Buy” rating on Enron
equity securities as a tool to sell the notes, despite
UBS’s “Sell” and “Hold” rating on Enron debt securities.
A. AUGUST 2001 ISSUES
176. In the very month that Chung Wu sent his
infamous e-mail to his clients regarding Enron, UBS
faced two significant hurdles in its relationship with
Enron. At the time, UBS was poised to receive mandates on two items of investment banking business
from Enron that could, in combination, generate approximately $8 million in fees to UBS. The business
was especially important to UBS’s attaining budget for
the year. Aside from any credit exposure to Enron,
which UBS had already hedged as required by firm
policy for Enron, UBS also had approximately $390
million of notional trading exposure with Enron on the
Equity Forward Contracts. The first hurdle faced by
the parties concerned these Equity Forward Contracts.
In June of 2001 as Enron’s stock price approached
$50.00, UBS agreed to lower the trigger price on the
Equity Forward Contracts to $40.00. The Equity Forward Contracts contained a provision that gave UBS
the right to force Enron to settle the contracts, prior to
their Settlement Dates, if the price of Enron’s stock

App. 443
closed at or below a set trigger price for two consecutive days. Enron announced on August 14, 2001 the
resignation of its CEO, Jeff Skilling (“Skilling”). Enron’s stock price closed the next day below the trigger
price at $40.25. Enron immediately requested a renegotiation of the trigger price in the Equity Forward
Contracts. This request resulted in a broad debate
within UBS’s corporate finance, equity risk management, credit, trading, and legal departments regarding
the viability of Enron as a counterparty. The significance of the debate was such that UBS’s most senior
global executives were kept current, including the UBS
equivalent of a global CEO and the UBS global credit
risk officer.
177. In the course of this debate, the heads of
UBS’s trading desk and equity risk management espoused their opinions that the trigger prices should not
be lowered unless Enron offered specific concessions.
Dan Coleman (“Coleman”), the head of UBS’s North
American trading desk, went so far as to state
[for the record” his concerns regarding Enron’s trading “focus] on exotic structures in illiquid markets” and the potential for Enron
“to blow up due to [this] exotic derivative exposure.
Additionally, Chris Glockler (“Glockler”), UBS’s credit
risk officer for Enron at the time, voiced to a superior
his assumption that a “direct link” existed between
Skilling’s sudden resignation and a deterioration of
Enron’s quality of credit. Before making a decision on
lowering the Equity Forward Contract trigger prices,

App. 444
UBS required Enron to provide non-public information
on the number, amounts, and trigger prices of equity
forward contracts with other parties, as well as information concerning Enron’s recent trading activity in
its own shares. Without UBS knowing the extent of Enron’s exposure and terms under similar contracts with
other parties, UBS’s traders were concerned that a
“run for the door situation” could develop before UBS
could fully unwind its positions.
178. Enron notified UBS that it had two other
similar equity forward contracts covering an equal
number of combined shares as the UBS contracts. UBS
ultimately agreed to lower the trigger price of the Equity Forward Contracts, but only upon certain terms,
including a commitment to settle the large equity forward contract at its October maturity. UBS also forced
Enron to increase the number of shares with which Enron could net share settle the contracts. The effect of
this requirement was that only at a share price below
$9.93 would UBS fail to receive enough shares from
Enron to recover the full amount Enron owed under
the contract at the time of settlement.
179. Finally, UBS required Enron to provide
UBS with “Most Favored Nation” status, meaning Enron could not allow its other equity forward trades to
have a higher trigger price or more favorable unwind
conditions than UBS’s contracts. These terms were
communicated to UBS’s global executives on August
17, 2001, along with a note that UBS equity analyst,
Ron Barone, “has been widely quoted in the press as
bullish on Enron’s shares.” As Glocker admits, if UBS

App. 445
and Barone had been publishing less than favorable
information concerning Enron, it would have been difficult for UBS to unwind these trading positions.
180. UBS investment bank employees recognized the relationship damage avoided with the renegotiation of the Equity Forward Contracts and
expressed their relief internally. However, within a
matter of days, the Chung Wu incident occurred, causing additional trouble.
B. MATURITY

OF

EQUITY FORWARD CONTRACTS

181. UBS knew the Enron waters would not remain calm for long. On August 27, 2001, UBS credit
executive Gary Riddell (“Riddell”) e-mailed other
credit executives saying, “Enron is sure to be a hot
topic again, in October when the equities trade matures if not before.” In an apparent follow up to Coleman’s expression of concern regarding Enron’s
potential to “blow up” from its exotic derivative trading
exposure, Riddell recommended a UBS due diligence
visit to Enron “to evaluate in depth [Enron’s] trading
operation and risk control” and “to get beyond the
standard dog and pony show.” Enron’s subsequent
stock price decline, however, did not allow UBS this opportunity.
182. Internal discussions regarding the early
settlement of the Equity Forward Contracts began
again in earnest during the first week of September,
2001, when Enron once more requested an agreement
by UBS to lower the trigger price of the contracts. The

App. 446
smaller of the two Equity Forward Contracts, with a
notional value of approximately $54 million, had a Settlement Date of September 13, 2001. The larger of the
two Equity Forward Contracts, with a notional value
of approximately $340 million, had a Settlement Date
of October 12, 2001. In response to Enron’s request for
a lower trigger price, UBS required Enron to settle the
smaller contract at maturity while the parties negotiated with respect to the larger contract. As part of
UBS’s internal discussion on the issue, on September
7, 2001, UBS records show UBS considered providing
Enron a senior status loan to facilitate the settlement
of the Equity Forward Contracts and elevate UBS’s default position from that of an equity position to a senior
creditor position. The disruption of the commercial paper markets by the events of September 11, 2001
forced this issue.
183. In order to secure the settlement of the
smaller contract during this period of market disruption, UBS agreed to and did purchase directly from
Enron $104 million of two-week commercial paper,
$54,342,275.36 of which was used to settle the contract
and the remainder of which UBS bought specifically to
provide Enron with short term liquidity. Although
Enron settled the smaller of the two contract [sic], the
larger issue of whether to require Enron to settle the
$340 million forward contract early remained, as Enron’s stock traded below its trigger price. UBS prepared an early termination notice, but decided not to
serve it on Enron if Enron agreed to: (1) settle immediately 42% of the remaining equity forward exposure,

App. 447
equating to 50% of the total exposure prior to Enron
settling the smaller contract; (2) streamline the early
termination notification process; and (3) fully settle at
maturity the remainder of the large equity forward
contract. These terms did not please Enron.
184. DeSpain and Freeland told Hunt “in no uncertain terms” that requiring a full settlement by the
October 12th Settlement Date will terminate the relationship between UBS and Enron – “period.” Enron
specifically requested that UBS not take any action to
terminate the contract prior to September 30th, the
end of the quarter, to avoid a balance sheet hit on Enron’s debt/equity ratio. Enron explained to UBS that
an early settlement would have a “double dip” effect on
Enron’s balance sheet by reducing equity and adding
debt in equal amounts. Enron emphasized that its
other banks had “stepped up” and that “no other banks
[were] asking for [an] unwind.” Because a settlement
would impact Enron’s financials at the end of an already difficult quarter, UBS was “sensitive” to Enron’s
concerns. In addition, UBS’s Corporate Finance Department “argued strenuously for lenience in order not
to jeopardize an existing mandate for a debt exchange
and another one being sought for a securitization [of
Enron receivables,]” which together could generate
about $8 million in fees.
185. UBS was so concerned about Enron’s liquidity at this point that it initially demanded Enron to
escrow $142 million in a UBS account to prevent termination; however, UBS evidently believed even this
situation did not adequately address the risk posed by

App. 448
Enron because it decided to exercise its early termination rights as to about $142 million of the remaining
contract. UBS required a partial settlement on September 21, 2001 and agreed to extend the maturity of
the balance until January 14, 2002 in exchange for
Enron lowering the trigger price to $20.00 and committing sufficient shares such that UBS could recover that
which it was owed on the contract at a stock price as
low as $5.00. Additionally, as a condition of extending
the maturity date past the year end, UBS specifically
required a written acknowledgment from Fastow, as
Enron’s Chief Financial Officer, that Enron was obligated to purchase from UBS 2,555,076 shares of Enron
common stock at a price per share of $77.4438 when
the current market price per share was $28.30. These
conditions were seen to be as far as UBS could go without permanently ruining its relationship with Enron.
186. After the foregoing actions, three equity
derivative trades between UBS and Enron remained
outstanding, the remainder of the equity forward contract and two equity swap contracts. One equity swap
contract matured on October 24, 2001, and, on that
same day, with Enron stock trading below the
amended trigger price on the remaining forward contract, UBS exercised its early termination rights on
the remaining forward contract as well. Thus, within
a matter of days, UBS received from Enron a cash
payment of $22,347,457.54 to settle the equity swap
and a cash payment of $153,453,776.44 to settle the
remainder of the forward contract. UBS immediately
sold into the market the 2.2 million shares of Enron

App. 449
stock it held as a hedge to its obligations under these
contracts.
187. Enron voiced hard feelings about the treatment it received from UBS’s credit and trading departments during this critical period. Enron considered
UBS’s purchase of commercial paper to fund the prior
equity forward settlement a small concession because
“ ‘all of [Enron’s] banks’ came to their rescue with liquidity.” Requiring cash payments with the effect of an
increase to debt on Enron’s balance sheet at the end of
what was already a bad quarter troubled Enron and
made it “wonder about whether [UBS could] be
counted on when needed.” By understanding the default risk Enron posed throughout this period, UBS
was able to unwind its positions and nearly eliminate
all of its exposure to Enron before Enron’s liquidity crisis hit. Glockler, UBS’s credit officer for Enron, received special “congratulations” from UBS’s global
executives for the result and Coleman received recognition from his peers for his “crystal ball” e-mail from
August of 2001 concerning Enron’s potential to “blow
up.” Interestingly, not one member of the team of UBS
employees dealing with Enron has expressed any sincere surprise about Enron’s ultimate demise. To the
contrary, when addressing the fact that UBS unwound
its Enron positions at the same time that its brokers
were promoting a “Strong Buy” recommendation both
on Enron equity and debt securities, the general UBS
employee response is: “that’s just the way it is.”


App. 450
X. SECTION 10(b)/RULE 10b-5 LIABILITY
188. UBS violated Section 10(b) of the 1934 Act,
as implemented through Rule 10b-5, by employing a
scheme to defraud, or a course of conduct or business
practices that operated a fraud upon Plaintiffs and
those they seek to represent. UBS owed Plaintiffs a
duty of disclosure. It wholly failed to disclose to Plaintiffs material information within its knowledge. UBS
knew of and actually participated in, a false public
characterization of Enron’s financial position throughout the 1934 Act Class Period in an effort to progress
their deceptive purpose of maximizing earnings from
Enron at the expense and in conflict with the interests
of its retail clients purchasing, acquiring, and/or holding Enron securities. This information was material in
that a reasonable investor would have considered it
important in making an investment decision in Enron
securities and UBS had duty to disclose this information to the Plaintiffs.16 This duty arose from the
1934 Act itself and from UBS’s retail brokerage relationship with Plaintiffs. When the information UBS
participated in concealing and failed to disclose to its
retail clients was ultimately made public, it had a negative impact on the price of Enron securities, thereby
causing damage to Plaintiffs.
189. The fraud perpetrated by UBS on its retail
clients is exactly the type of scheme/course of business
 Plaintiffs rely on the presumption afforded by the Supreme Court’s decision in Affiliated Ute Citizens v. United States,
406 U.S. 125 (1972) for purposes of their class action allegations
of transaction causation.
16

App. 451
that securities laws exist to prevent. To make an informed decision about their Enron securities, Plaintiffs
needed to know the very things UBS acted upon to protect itself yet failed to disclose to its retail clients.
190. UBS’s actions were committed with scienter. Scienter is a mental state embracing intent to deceive, manipulate, or defraud. Ernst & Ernst v.
Hochfelder, 425 U.S. 185 (1976); Lovelace v. Software
Spectrum, Inc., 78 F.3d 1015, 1018 (5 Cir. 1996). The
Fifth Circuit has further defined scienter as including
“severe recklessness” that involves “ ‘an extreme departure from the standards of ordinary care and that
present[s] a danger of misleading buyers or sellers
which is either known to the defendant or is so obvious
that the defendant must have been aware of it.’ ”
Rosenzweig, 332 F.3d at 865 (quoting Nathenson v.
Zonagen, Inc., 267 F.3d 400, 408 (5th Cir. 2001)). Scienter may be partially satisfied by pleading facts showing
a defendant’s “regular pattern of related and repeated
conduct[.]” See In re Enron Corp. Sec. Litig., 235
F. Supp.2d 549, 694-95 (S.D. Tex. 2002). The nondisclosure of material information in violation of a duty to
disclose itself constitutes deception in securities fraud
cases. In re Enron, 235 F. Supp. 2d at 569 n. 9 (citing
Santa Fe Indus., Inc. v. Green, 430 U.S. 462, 470 (1977)).
UBS’s actions certainly show it acted with requisite
scienter.


App. 452
A. UBS’S COURSE

OF

DEALING – INVESTMENTS

191. On August 17, 2001, literally the same day
that UBS released another “Strong Buy” research report, Enron filed a Prospectus as part of a Registration
Statement for $1,907,698,000 of Zero Coupon Convertible Senior Notes Due 2021 (the “Notes”). Enron was
registering these Notes through this Registration
Statement as well as the common stock that was issuable upon conversion of the Notes. The Notes were
originally sold pursuant to a private placement on February 7, 2001 and UBS AG acquired some of the Notes
(from first tier purchasers of the Notes) totaling
$250,000,000 as the principal amount at maturity (the
“UBS Notes”). Enron registered 1,439,125 shares of its
common stock that were issuable upon conversion of
the UBS Notes pursuant to Prospectus Supplement
No. 2 dated August 15, 2001.
192. UBS Warburg, LLC also purchased some of
the Notes (from first tier purchasers of the Notes) totaling $800,000 as the principal amount at maturity
(the “UBS Warburg LLC Notes”). Enron registered
4,605.20 shares of its common stock that were issuable
upon conversion of the UBS Warburg LLC Notes pursuant to Prospectus Supplement No. 2 dated August
15,2001. UBS AG and UBS Warburg, LLC together
owned 13.14% of the Notes outstanding. In fact, UBS
AG was the third largest holder of the Notes, after Salomon Smith Barney Inc., which held 19.38% of the
Notes, and HighBridge International LLC, which held
10.75% of the Notes.

App. 453
193. The Prospectus was filed on July 18, 2002,
and the Amendment No. 2 announcing the inclusion of
UBS AG and UBS Warburg, LLC was filed with the
SEC on August 15, 2001. Interestingly, UBS also issued a STRONG BUY report and Barone analysis on
August 15, 2001. Enron stated that the Prospectus:
Will be used by selling security holders to resell their notes and the shares of our common
stock issuable upon conversion of their notes.
We will not receive any proceeds from sales by
the selling security holders.
We will not pay interest on the notes prior to
maturity. Instead, on February 21, 2021, the
maturity date of the notes, note holders will
receive $1,000 per note. . . . . . .Note holders
may require Enron to purchase all or a portion of their notes on February 7, 2004, February 7, 2009, and February 7, 2014 at a price
per note of $698.13, $775.96 and $862.46, respectively. We will pay cash for all notes purchased on February 7, 2004, but on the other
two purchase dates we may choose to pay the
purchase price in cash, in common stock valued at its Market Price, or in a combination of
cash and common stock, at our election.
The notes are unsecured obligations of ours
and rank equally with all of our other unsecured senior indebtedness.17

 Front page of Prospectus dated July 18, 2001, filed by
Enron Corp for $1,907,698,000 Zero Coupon Convertible Senior
Notes Due 2021.
17

App. 454
194. As unsecured creditors of Enron, UBS stood
to gain quite a bit if Enron’s stock held its value until
they sold their Notes backed by the common stock conversion. There is a clear conflict of interest if UBS did
not disclose that they were trying to sell their unsecured notes and Enron common stock, while they were
advocating a “Strong Buy” rating on Enron stocks and
bonds to PW’s retail customers. This conflict of interest is alarming because of the following facts.
Dan Scotto, a bond analyst at BNP Paribas
Securities in New York, was fired late last
year after writing a negative report on Enron
bonds in August 2001, just as the company began to unravel. Mr. Scotto, who had been an
analyst for 25 years, said he had seen a deterioration in compliance in recent years.
“Twenty years ago, firms worried more about
their reputations”, he said. “Research wasn’t
a sales job. But as the commission structure
broke down, there was a shift in compliance
department to be more sensitive to the revenue side of things, or the ‘deal’ side of things.
That accelerated in the ‘90’s.”18
In an eerily similar incidence to the Wu firing,
Daniel Scotto had advised his clients on August 23,
2001 that Enron securities “should be sold at all costs

 Gretchen Morgenson, The Enforcers of Wall St.? Then
Again, Maybe Not, N.Y. TIMES, June 20, 2002, available at
www.nytimes.com.
18

App. 455
and sold now.”19 Scotto was fired in December, 2001 after a long suspension by his firm for making this recommendation which had no “reasonable basis.”
195. Also UBS AG and its affiliates purchased
Enron’s lucrative trading arm for no money down, literally two and a half months after Enron filed bankruptcy. At the hearings before the Enron bankruptcy
court on this sudden purchase, it was disclosed that
this trading arm was the largest “and most profitable
business creating substantially all the company’s profits in excess of $2 billion. . . . . . . . Over a nine to
twelve-month period of time.”20
196. The UBS/Enron relationship was very close,
with the expert at that hearing testifying that UBS
was Enron’s partner. There were some considerable objections made during this hearing on January 18, 2002
hearing [sic]. Mr. Lauria, an attorney for one of the
debtors, has the following statements to make concerning UBS AG and its affiliates:
I think the clear fact is that there is up to $35
million that’s got to be paid on the front end
and 6 million of that is to be paid by Enron in
cash, the remaining 29 comes out of royalties,
if royalties are ever earned, but it comes out
off the top. It’s first dollars. So, in effect, we

 “Ex-Analyst at BNP Paribas Warned His Clients in August About Enron”, The Wall Street Journal, January 29, 2002.
20
 January 18, 2002 Transcript of Hearing re: Approval of
sale of Enron’s wholesale trading business: objections filed. At
Page 12, line [sic] 6 through 11.
19

App. 456
are paying UBS-Warburg to take over this
business.
Now, there are a number of important negative factors that should be considered carefully by the Court in trying to determine
whether or not this transaction, in fact, has
positive value for the estate: Number one,
UBS-Warburg has no obligation to operate
this business going forward, none whatsoever,
nor are they prohibited from using the assets
they acquire here for other businesses.
Number two, as I have alluded to, there is a
negative incentive built into the deal because
by operating at a low to moderate level during
the first three years, Warburg will be able to
exercise the right to buy the Debtor’s royalty
back at a low price.
Number three, this transaction contemplates
a royalty based on net profits.
Your Honor, without more that simply opens
the door to Hollywood accounting. This is not
a royalty on gross, this is a royalty on net profits. The problems with trying to protect that
royalty stream and verify that we’re getting
what we’re supposed to be getting are going
to be legion, particularly when you consider
the confidentiality provisions in this agreement. . . . . . .
And, finally, Your Honor, the appetite of the future owner for risk: Enron created this market that generated $90 billion in revenues and
$3 billion in gross margin in the last year by

App. 457
taking incredible risk, by being a very active
trader, by creating liquidity in markets for
commodities and products that nobody else
could or would.
The question has to be asked: Can we reasonably assume that this bank is going to use its
Double A rated balance sheet and take that
kind of risk to run $90 billion in transactions
per year through this vehicle? At least the
public statements of UBS indicate there’s not
a chance. Public statements of UBS is this
transaction does not represent a material
change in the business or profile of UBS. $90
billion a year would, Your Honor.21
197. In the Master Agreement Among Enron
Corp., Enron North America Corp., Enron Net Works
LLC and UBS AG dated January 14, 2002, under Article II, Section 2.2.(d), Brokers, it states as follows:
Except for UBS Warburg, the fees and expenses of which shall be borne by UBS, no
agent, broker, investment banker, person or
firm acting on behalf of UBS or under the authority of UBS is or will be entitled to any broker’s or finder’s fee or any other commission
or similar fee directly or indirectly from any
of the parties hereto in connection with any of
the transactions contemplated hereby for
which the Enron Parties will be liable.

 January 18,2002 Transcript of Hearing re: Approval of
sale of Enron’s wholesale trading business: objections filed. At
Page 31, line [sic] 15 through 18.
21

App. 458
198. In the Comprehensive License Agreement
Among Enron Corp., Enron North America Corp., Enron Net Works LLC and UBS AG dated January, 2002,
under Article XVIII, Section 18.2.(d), Brokers, it states
as follows:
Except for UBS Warburg, the fees and expenses of which shall be borne by UBS, no
agent, broker, investment banker, Person or
firm acting on behalf of UBS or under the authority of UBS is or will be entitled to any broker’s or finder’s fee or any other commission
or similar fee directly or indirectly from any
of the parties hereto in connection with any of
the transactions contemplated hereby for
which the Enron Parties will be liable.
199. As the Houston Chronicle reported:
While it may seem like a bad time to be
getting into the energy trading business,
UBS Warburg doesn’t see it that way. The affiliate of Swiss banking giant UBS AG, whose
assets are financial ones, likes its odds. The
company already trades any number of products, commodities and securities around the
globe. . . . . .
Earlier this year, UBS acquired Enron’s Internet trading technology at no up-front cost. Instead, it agreed to pay Enron’s estate a cut of
future profits.
UBS, which also hired about 630 of Enron’s
former trading employees, opened for business in February, occupying a brand-new
downtown trading floor built for Enron.

App. 459
“We have limited downside and a tremendous
amount of upside,” said John Costas, UBS
Warburg’s president and chief executive officer, on a recent visit to Houston. . . . . . .UBS
Warburg is stressing that it’s not Enron. It
didn’t assume any of Enron’s old trading contracts and UBS sets its business practices. . . . . . .Costas said his goal is to become
the market leader.22
200. Furthermore, PW and UBS made quite a
few million from its investment banking relationship
with Enron. This relationship fed UBS “Strong Buy”
advocation for many years. The following charts outline the public offerings that PaineWebber or UBS was
serving as underwriter:


 “Affiliate of Swiss bank giant already trades many goods”,
Houston Chronicle, June 9, 2002.
22

App. 460

App. 461

App. 462

App. 463
201. The clear ties that UBS had with Enron
were substantial and were indicative of the motive for
its blind eye and deaf ear to the red flags that waived
during the Class Period. In his testimony before The
Committee on Energy and Commerce, John Olson,
Senior Vice President and Director of Research, stated
as follows:
ENE’s top management was not remotely interested in objectivity. You were either for
them or against them. Some purely anecdotal
evidence.
! In one telephone call several years ago, the
then CEO told me quite succinctly: “we are for
our friends,” and proceeded to itemize the
monthly history of my own “unfriendly” Enron
ratings over the prior two years.
! Enron had a considerable investment
banking agenda every year, and attracted
bankers like roaches to honey. The common
unspoken, unwritten understanding came
back thus: ENE would be happy to do banking
business, provided the analyst had a strong
buy recommendation on the stock. . . . . . .
But if this Committee wonders aloud why, oh
why, there was such an embarrassment of Buy
recommendations on this Company; they need
not look farther than the interface between investment banking and research. In recent
years, investment banking held all the marbles on Wall Street. . . . . .Why didn’t analysts
change their ratings from $90 to $80 all the

App. 464
way down to zero in some cases? It made no
sense not to. These people are not dumb
Recommendations:
From a securities analyst point of view, there
are some very pragmatic fixes that need to be
made in the marketplace. . . . .Undertake a
thorough review to minimize or remove Investment Banking influences/pressures/and
personnel from Securities Research.
! In my opinion, Investment Banking has
gamed Research, solely to their advantage. Investors do not need analysts who simply make
Strong Buy recommendations. Robots can do
that.
! Terrible IPOs have been done, which essentially compromised the system with bad deals
coupled with favorable research recommendations. Azurix and New Power Company were
cases in point.23
B. UBS’s COURSE

OF

DEALING – BROKERS

202. In addition to the discussion regarding Wu
and the rules and policies of the Heritage branch office,
financial advisors at other UBS offices worked hard to
sell Enron to retail clients. As Enron’s stock continued
to plummet and, when the stock reached the $10.00 to
 Prepared Witness Testimony of John Olson, Senior Vice
President and Director of Research, Sanders, Morris, Harris, The
Committee on Energy and Commerce. Financial Collapse of Enron Corp., Subcommittee on Oversight and Investigations, February 7, 2002.
23

App. 465
$12.00 level, UBS began to actively seek investors to
support the stock value. Tim Kruger, manager of a
UBS Florida retail branch, specifically represented to
investors that $10.00 to $12.00 per share was “book
value” for Enron stock. Kruger represented that Enron
stock had fallen, not because the company had problems, but as the natural fallout surrounding the resignation of Jeff Skilling. Kruger represented that UBS
rarely advised clients to “catch-up” on stock, but that
Enron was such a “Strong Buy” at book value that it
had to recommend the purchase.
203. UBS’s abysmal failure to balance the investment picture with their own concerns about Enron
financial reporting practices, their failure to reveal
other adverse information regarding Enron that they
had knowledge of, and their failure to provide Plaintiffs and the Class with unbiased information about
Enron’s financial condition to help them make a truly
informed investment decision regarding their Enron
stock combined to cause, or at least become a significant contributing cause, to the financial losses suffered
by Plaintiffs and the Class they seek to represent. Defendants’ actions or inactions in these regards caused
its customers to artificially support a market in Enron
stock that should not have existed.
204. All the while, others called it like it was on
June 18, 2001:
But even at $50 a share, Enron is no bargain,
say its detractors, among them short seller
James Chanos of Kynikos Associates, whose

App. 466
short position in the stock means he’ll profit if
share prices drop. “Enron is basically a giant
hedge fund,” he says, and not a very lucrative
one at that. “Investors are paying four times
book value for returns on capital of 7 percent,”
complains Chanos. “You can do that in the
bond market for a lot less risk.” . . . Presumably, though, corporate insiders know what’s
what. Insider selling spiked last year, when
more than 8 million shares were sold. Insiders
have sold or said they will sell 2 million more
shares this year. Says short seller Chanos:
“They’re voting with their feet.”24
C. UBS’S COURSE

OF

DEALING – REPORTS

205. UBS purports to have “Research Principles.” During the class period, it represented to clients
that the purpose of its equity research was to benefit
the investing clients by (1) analyzing companies, industries and countries to forecast their financial and
economic performance; and (2) providing opinions on
the value and future behavior of securities. UBS represented that its equity research was objective, had a
reasonable basis and was balanced and objective. Perhaps most importantly, UBS represented that its Equity Research would not be used by UBS “ . . . to
advance its own interests over those of its client,
or to advance analysts’ own interests.”
206. Barone is the managing director in the energy group at UBS Equity Research and has been an
24

 U.S. News & World Report, June 18, 2001.

App. 467
analyst since 1971. At UBS, he specializes in natural
gas transmission, distribution, independent power production and energy marketing companies. He has been
ranked on Institutional Investors’ “All Star Team” for
27 consecutive years. In 2001, Barone was ranked No.
2 in the natural gas category by Institutional Investors’
All-American Research Team. Prior to joining UBS,
Barone was the natural gas analyst at PaineWebber,
Inc.
207. UBS’s fraudulent course of business is evidenced, in part, by its (1) willingness to allow Barone
to continue coverage on Enron when he espoused positions that UBS knew were wrong; and (2) requiring,
in the face of its knowledge, that Barone’s “Strong Buy”
Research Notes be given to each and every client who
asked questions regarding Enron. Within the UBS investment bank it was openly discussed that Barone
analysis and “Strong Buy” rating was inconsistent
with the investment bank’s knowledge of Enron’s finances. Moreover, the investment bank’s senior credit
officers admitted shortly before Enron’s bankruptcy
that Barone’s continuous “Strong Buy” rating when
highlighted by the press was “very embarrassing.”
208. UBS allowed Barone to accept, apparently
blindly, Enron upper management’s nonsensical explanations and ignore known hard data. More importantly, UBS did not manage Barone, took
advantage of Barone’s contrary rating to mitigate
UBS’s exposure to Enron, and used Barone to serve
Enron, UBS’s “true” client, by enhancing its investment banking and retail revenues at the complete

App. 468
expense of the Plaintiffs, to whom UBS owed concrete
regulatory duties of disclosure.
2.

Undisclosed Conflicts Of Interest

209. Today, “the whole world” knows about the
surreptitious way in which “disinterested, objective”
Wall Street research analysts were paid for investment
banking services. What most people do not realize is
that analysts were used as “bird dogs” to attract investment banking business from the get go. UBS is no
exception. UBS hired Barone to obtain investment
banking business and paid Barone for investment
banking business obtained through his efforts. Of
course, none of Barone’s activities, or payments, were
disclosed to the investing public or to Plaintiffs.
a.

Investment Banking Duties

210. At UBS, it was assumed that Equity Research Analysts would assist the investment banking
department of the Bank. For example, equity analysts
would frequently meet with top management of companies they covered. In the course of these meetings,
the analysts would identify investment banking opportunities. Upon their return, they would alert the bankers of the opportunities. Mark Altman, deputy head of
U.S. Equity Research for UBS, characterized the activity as “something that was done with some regularity.”
211. Another way that research analysts assisted in investment banking activities was to initiate

App. 469
coverage of a company as an incentive for the company
to do business with the Bank. From 1999 - 2001,
Altman admitted that investment bankers within UBS
would contact the Equity Research department and request that analysts initiate coverage on companies
with whom the bankers wanted to do business. The Equity Research department would capitulate and initiate coverage. Brian Barefoot, the head of PW’s
investment bank until its integration with UBS was
complete, was more forthcoming:
If investment banking wanted to pursue business with a corporate client, in the equity financing area, research had to have an opinion
on the stock, had to follow the stock. If it
didn’t, there was nothing to talk about. If it
did, that was one of the criteria that a company who was looking to use Wall Street services required, was that the firm doing
business, in this case PaineWebber, follow
their stock. So there, obviously – the business
relationship was influenced by whether or
not, first of all, the company was – that PaineWebber following that company from a research perspective and then, secondarily,
what was the view of the research department
of that company’s equity securities.
Thus, clearly, the investment bankers were far likelier
to obtain investment banking business from Enron if
Ron Barone maintained a “Strong Buy,” UBS’s highest
rating on a stock.
212. At PW, and at UBS, research analysts, as
part of their yearly evaluation, were required to keep

App. 470
track of the investment banking activities in which
they participated. In his evaluations, Barone was not
shy about explaining the ways in which he assisted in
investment banking activities, not the least of which
involved Enron and/or Enron related companies. In his
1999 evaluation, he pointed out that he took 18 clients
to visit Enron in August. He assisted in the Enron
owned Azurix IPO. Barone specifically noted that,
without his Enron relationship, PW would not have
been involved in the transaction. In September, he was
involved with EOTT (an Enron subsidiary) secondary
and senior note offerings. In February, 2000, Brian
Barefoot, on behalf of the investment banking department, contributed money to the “research compensation pool for Barone’s efforts, including those related to
Azurix and EOTT, the very Enron-related transactions
specified by Barone.
213. At the end of each year, the investment
bank would issue a report on each analyst, specify the
deals with which the analyst assisted the bank, and
determine how much money would be paid. The Bank
would also comment regarding the analyst’s investment banking work. In 1999, PW investment banker
Kevin McCarthy characterized Ron Barone’s help on a
number of transactions as: (1) “Analyst covered and
supported;” (2) “ ‘Easy deal: analyst provided solid support;” (3) “Very tough deal; analyst provided significant
help;” and (4) “Analyst provided significant support.”
214. By 2001, although the analysts no longer
identified as part of a self-evaluation the specific investment banking customers and relationships (s)he

App. 471
nurtured, Barone still evaluated himself in terms of
investment banking activities. He stated, “ . . . helped
to get UBSW chosen as a lead-or-co-manager for investment banking transactions; successfully marketed
all these transactions . . . ” In 2001, UBS was chosen as
co-lead manager and/or co-manager on Enron investment banking deals.
b.

Investment Banking Pay

215. Pre-UBS merger, PW’s compensation for
Ron Barone was clear and unequivocal. In his 1999 employment contract with PW, he received a $200,000.00
base salary, a guaranteed incentive bonus of at least
$1,800,000.00, plus payment in “customary fashion for
investment banking revenue” he generated. The 1999
contract indicated that the same pay scheme would
continue for the years 2000 and 2001.
216. Post UBS/PW merger, in October, 2000,
Barone entered into a new employment contract with
UBS. Under the UBS contract, Barone was paid a base
salary of $200,000.00 and a guaranteed incentive bonus of at least $2,300,000.00. The guaranteed incentive bonus stated it was exclusive of any investment
banking related revenue. For the year 2001, UBS eradicated the “former PaineWebber investment banking
related compensation program.” In lieu of the PW program, Barone’s 2001 compensation scheme with UBS
included his base salary of $200,000.00 and a guaranteed incentive bonus of at least $3,000,000.00, which
stated it was inclusive of consideration for any

App. 472
investment banking related compensation to which he
would have been entitled under the former PW program.
217. Though UBS eliminated the PW investment banking compensation program, it was a formover-substance change because it did not eliminate the
compensation for investment banking related activities. In fact, UBS clearly valued Barone’s investment
banking activities at around $700,000.00, which constitutes an additional 28% of his base salary and former incentive bonus. Mark Altman confirmed that the
compensation changes were in name only, and that the
increase in the guaranteed incentive bonus was actually the investment banking related compensation.
218. Pre-2001, under the old plan, the investment banking department would determine how valuable the analysts’ work was and contribute a
percentage of the investment banking fee to the research pool, which was used to pay analyst bonuses. In
1999, the investment bank issued a report indicating
that Ron Barone alone was involved in assisting bankers to generate over $6,000,000.00 in fees. This figure
included over $2,000,000.00 in fees for Enron related
Azurix and EOTT. The total contribution to the research departments bonus pool, for Barone’s efforts,
was nearly $500,000.00.
3.

UBS Debt/Credit Analyst Stewart
Morel

219. Within the “research umbrella” of UBS lay
another, far less celebrated research analyst for Enron:

App. 473
Stewart Morel. Morel was a debt/credit analyst. Where
Barone issued reports on Enron equity, Morel issued
reports on Enron bonds. While the two review similar
documents, their research is different. Barone concentrates on whether stock values will rise or fall. Morel
concentrates upon whether a company has the ability
to pay its debts.
220. In analyzing Enron, and 89 other companies in his sector, Morel looked at the amount of cash
generated relative to the amount of debt outstanding.
He relied upon publicly disclosed debt to perform his
analysis. Anyone within UBS was entitled to have a
copy of Morel’s opinions. Among those on his list of recipients to whom his opinions were automatically sent
was the Enron relationship banker, Jim Hunt.
221. In performing his analysis of Enron’ s public
filings, Morel noticed an increase in debt consistently
over the period from third quarter of 2000 until Enron
went out of business. Since Osprey and Marlin were
public bond deals, Morel knew about the debt obligations. They caused him concern because Enron’s deteriorating credit nature, combined with the prospect of
losing its investment grade status, would have resulted in an acceleration of those obligations. That in
turn would increase the amount of short-term money
Enron would need to satisfy its debt. that [sic] they
were Enron debt obligations.
222. Up to November, 2000, Morel listed Enron
debt as a “Buy.” After November, 2001 [sic], Morel reduced his rating on Enron debt to a “Hold.” In early

App. 474
2001, Morel moved from a “Hold” position to a “Sell”
position on Enron Bonds. He moved to a “Sell” based
upon a credit metrics he created, wherein he created
financial ratios that allowed a comparison of one company to another. He compared the “relative strength”
of 80 companies, including Enron, to each other. Based
upon his comparison, by June 30, 2001, Morel moved
to his “Sell” position on Enron Sr. Bonds. However, unlike Ron Barone’s “Strong Buy” opinion on Stock, Morel’s “Sell” opinion on bonds was not circulated to retail
investors, not even those encouraged by UBS to buy
Enron bonds after Morel’s downgrade.
4.

Fraudulent Practices Related To
Analysts

223. This is not an “analyst” case. Plaintiffs do
not sue UBS because Barone’s research was wrong or
because Morel’s research was right. However, the manner in which UBS actively used Barone’s Research
notes, and hid Morel’s, was a part of the scheme and
artifice to deceive its retail clients. As described above,
UBS required that its investment advisors send copies
of Barone’s research to retail clients. In fact, post8/21/01, UBS instituted a policy at the Heritage
Branch, requiring its financial advisors to only provide
Barone’s research, couched as advice, to retail clients.
224. At the same time, UBS represented to retail
clients that its equity research was objective, fair,
sound and founded upon a reasonable basis. UBS did
not reveal to its retail clients that the “objective”

App. 475
research analysts received significant amounts of
money as a result of investment banking activity, cozied up to corporate management in order to determine
whether there was investment banking business to be
had, and even covered companies, at the request of the
Bank, to facilitate investment banking business. This
knowledge would be absolutely material to any investor who was inundated with Barone’s research opinions and would be necessary information for the
investor to know so as to make an informed investment
decision.
225. Further, as far back as 1997, Union Bank
knew that Enron maintained material, off-balance
sheet debt. Off balance sheet debt, by its very nature,
is something the public can’t know because it is not reflected on the company’s audited financial statements.
A company’s use of off-balance sheet financings are a
concern in the industry because they are not transparent. Further, off-balance sheet debt is not reflected in
the company’s published leverage ratios. The consolidated UBS knew about significant off-balance sheet
debt as a result of its investigating potential deals, and
participating in the deals discussed above. Simultaneously, UBS knew that Ron Barone accepted Enron’s
representations regarding the financial stability of the
company, while UBS knew material information regarding the financial instability of Enron. At a time
when UBS was hedging its risk and securing its future,
it not [sic] allowed but mandated that its retail clients
receive incorrect information and/or opinions based on
false premises.

App. 476
226. When an investment bank obtains detrimental knowledge that is different from assumptions
that its research analyst makes, the bank should stop
the analyst’s coverage on the stock. In fact, in a situation where the bank discovers corporate malfeasance,
and knows that it has an array of clients who maintain
positions in that company, PW’s former head of investment banking articulates the industry standard for the
action the bank should take:
Well, first of all, you would suspend the stock
if it were. You would suspend the market making activities. You would certainly suspend
research coverage if they had equity outstanding, even if it was something like this that’s
not equity related but it does impact. That’s
the first thing you would do, and I’m sure we
would enter into some sort of a, quote, unquote, investigation, assign somebody the responsibility to take a look at this thing before
any action, whether it was to resume offering
an opinion or some other course of action.
In fact, Brian Barefoot states that the bank should suspend coverage on a stock even if something occurs like
a piece of information, a public announcement
that produces an unusual reaction . . . you
would suspend coverage pending further investigation so that you could respond as the
analyst to whatever the facts were with some
more understanding that just a knee-jerk reaction to something that was unexpected or
unanticipated.

App. 477
227. UBS, on the other hand, took none of the actions detailed by Brian Barefoot. Instead, UBS relentlessly hawked the “Strong Buy” opinion, which served
to support the market’s perception of the stock’s value,
while attempting to rid itself of all Enron exposure. In
fact, it used the material, non-public information that
it possessed when making decisions to sell its own Enron equity and debt securities to the investing public.
UBS’s actions evidence its scheme/artifice to deceive
the investing public, for its own gain.
XI. SECTION 12(a)(2) LIABILITY
228. Class-Representatives Lampkin, Ferrell,
and Swiber bring a claim in this lawsuit against UBS
PW for violations of Section 12(a)(2) of the 1933 Act on
behalf of themselves and a similarly situated sub-class
of plaintiffs who purchased or acquired options to purchase Enron securities, and/or purchased or acquired
Enron securities through the exercise of an option to
purchase Enron securities pursuant to the prospectuses connected with the registration statements identified below.
229. Generally, Section 12(a)(2) of the 1933 Securities Act imposes near strict liability on any person
who: (1) offers or sells (2) a security (3) by means of a
prospectus or oral communication (4) which includes
an untrue statement of material fact or omits to state
a material fact necessary in order to make the statements, in the light of the circumstances under which
they were made, not misleading.

App. 478
A. THE PROSPECTUSES/REGISTRATION STATEMENTS INVOLVED
230. Plaintiffs’ Section 12(a)(2) claims involve
the acquisition of options to purchase Enron equity securities and the exercise of those options to receive Enron common stock pursuant to one or more of the
prospectuses (the “Prospectuses”) accompanying the
following registration statements filed with the SEC
on Form S-8 (the “Registration Statements”):



App. 479

App. 480
231. The use of a prospectus is required under
federal securities law to be prepared by the issuer and
delivered to a prospective offeree of the securities.
Form S-8 mandates the inclusion of specific information in the Prospectuses and that the Prospectuses
be sent or given to employees as specified by Rule
428(b)(1) of the Act. The Prospectuses do not have to be
filed with the SEC, but they must be sent or given to
the individuals to whom the offering is extended.
232. The Prospectus required in an S-8 offering
includes documents incorporated by reference in the
Registration. Statement pursuant to Item 3 of Part II
of Form S-8, which documents, taken together, constitute a Prospectus that meets the requirements of Section 10(a) of the Act.25 Enron had to provide a written
statement to participants advising them these documents were incorporated by reference in the Prospectus. General Instruction “G” of Form S-8 specifies
updating information that should be contained in the
Prospectus during the offering period.26
 See Rule 428(a)(1) of the Securities Act of 1933, as
amended.
26
 “[U]pdating of information constituting the Section 10(a)
prospectus pursuant to Rule 428(a) during the offering of the securities shall be accomplished as follows:
1.
Plan information specified by Item 1 of Form S-8
required to be sent or given to employees shall be
updated as specified in Rule 428(b)(1). Such information need not be filed with the Commission.
2.
Registrant information shall be updated by the filing of Exchange Act reports, which are incorporated by reference in the registration statement
25

App. 481
233. In other words, the Prospectuses given or
delivered to Enron employees, Enron affiliate employees, and other individuals eligible to participate in the
continuous offering of Enron common stock would have
been comprised of a copy [sic] the 1991 Stock Option
Plan, the 1994 Stock Option Plan, the 1999 Stock Plan
and any and all restatements or amendments to these
stock plans, as well as all documents subsequently
filed by Enron pursuant to Sections 13(a), 13(e), 14 and
15(d) of the Securities Exchange Act of 1934, but prior
to the filing of any post-effective amendment which indicated that all securities offered have been sold or
which deregistered all securities then remaining unsold. Enron also had to furnish to all eligible participants its annual report to security-holders containing
the information required by Rule 14a-3(b) under the
Securities Exchange Act of 1934 for its latest fiscal
year, its annual report on Form 10-K, and the latest
prospectus filed pursuant to Rule 424(b) under the Act
that contains audited financial statements for Enron’s
latest fiscal year, provided that the financial statements are not incorporated by reference from another

3.

and the Section 10(a) prospectus. Any material
changes in the registrant’s affairs required to be
disclosed in the registration statement but not required to be included in a specific Exchange Act
report shall be reported on Form 8-K pursuant to
Item 5 thereof.
An employee plan annual report incorporated by
reference in the registration statement from Form
11-K (or Form 10-K as permitted by Rule 15d-21)
shall be updated by the filing of a subsequent plan
annual report on Form 11-K or 10-K.”

App. 482
filing, and provided further that such prospectus contains substantially the same information required by
Rule 14a-3(b) or Enron’s effective Exchange Act registration statement on Form 10 containing audited financial statements for Enron’s latest fiscal year.27
234. These Prospectuses sent to eligible plan
participants were used to offer or sell securities according to the three (four, if the amended and restated 1994
Stock Option Plan is included) Stock Option Plans offered by Enron through services rendered by UBS PW.
Furthermore, Enron undertook to file specific information mandated by Form S-8.28
27
28

 Rule 428, Securities Act of 1933, as amended.
 (1) To file, during any period in which offers or sales are
being made, a post-effective amendment to this Registration Statement:
(i) To include any prospectus required by Section 10(a)(3) of the Securities Act of 1933, as
amended (the “1933 Act”);
(ii) To reflect in the prospectus any facts or
events arising after the effective date of the
Registration Statement (or in the most recent post-effective amendment thereof)
which, individually or in the aggregate, represent a fundamental change in the information set forth in the Registration
Statement;
(iii) To include any material information with
respect to the plan of distribution not previously disclosed in the Registration Statement or any material change to such
information in the Registration Statement;
provided however, that paragraphs (1)(i)
and (1)(ii) do not apply if the information

App. 483
B. UNTRUE STATEMENTS & OMISSIONS
235. Class-Representatives Lampkin, Ferrell,
and Swiber base their Section 12(a)(2) misrepresentation and omission claims on the restatement of the
Enron financial information included (or omitted) in
the Prospectuses prior to November 8, 2001. Enron
provided formal notice of its restated financials on
November 8, 2001 by filing a Form 8-K. Enron’s restatement of financials was also contained in Enron’s
November 19, 2001, Form 10-Q for Quarter Ended
September 30, 2001. Both of these documents are incorporated herein by reference. It is undisputed the
Prospectuses and the Registration Statements contained incorrect financial statements and other information, and omitted material facts, as evidenced by the
undisputed fact that they had to be restated.
required to be included in a post-effective
amendment by those paragraphs is contained in periodic reports filed by the Registrant pursuant to Section 13 or Section 15(d)
of the Exchange Act that are incorporated by
reference in the Registration Statement.
(2) That, for purposes of determining any liability under
the 1933 Act, each filing of the Registrant’s annual
report pursuant to Section 13(a) or Section 15(d) of
the Exchange Act (and, where applicable, each filing
of an employee benefit plan’s annual report pursuant to Section 15(d) of the Exchange Act) that is
incorporated by reference in the Registration Statement shall be deemed to be a new Registration
Statement relating to the securities offered therein,
and the offering of such securities at that time shall
be deemed to be the initial bona fide offering
thereof. [emphasis added]

App. 484
236. Enron’s November 8, 2001 Form 8-K stated
it would be providing information to investors concerning several important matters, to wit:
•

A required restatement of prior period financial statements to reflect: (1) recording the
previously announced $1.2 billion reduction
to shareholders’ equity reported by Enron in
the third quarter of 2001; and (2) various
income statement and balance sheet adjustments required as the result of a determination by Enron and its auditors (which resulted
from information made available from further
review of certain related-party transactions)
that three unconsolidated entities should
have been consolidated in the financial statements pursuant to generally accepted accounting principles.

•

Enron intended to restate its financial statements for the years ended December 31, 1997
through 2000 and the quarters ended March
31 and June 30, 2001. As a result, the previously-issued financial statements for these
periods and the audit reports covering the
year-end financial statements for 1997 to
2000 should not be relied upon.

•

The accounting basis for the $1.2 billion reduction to shareholders equity.

•

The Special Committee appointed by Enron’s
Board of Directors to review transactions between Enron and related parties.

•

Information regarding the LJM1 and LJM2
limited partnerships formed by Enron’s then

App. 485
Chief Financial Officer, the former CFO’s role
in the partnerships, the business relationships and transactions between Enron and
the partnerships, and the economic results of
those transactions as known thus far to Enron, which are outlined [in the attached Tables to the report].
•

Transactions between Enron and other Enron
employees.

237. Further revelations in this Form 8-K revealed Enron’s financial restatements would include a
reduction to reported net income of approximately $96
million in 1997, $113 million in 1998, $250 million in
1999 and $132 million in 2000, increases of $17 million
for the first quarter of 2001 and $5 million for the second quarter and a reduction of $17 million for the third
quarter of 2001. These changes to net income were the
result of the retroactive consolidation of JEDI and
Chewco beginning in November 1997, the consolidation of the LJM1 subsidiary for 1999 and 2000 and
prior year proposed audit adjustments. The consolidation of JEDI and Chewco also increased Enron’s debt
by approximately $711 million in 1997, $561 million in
1998, $685 million in 1999 and $628 million in 2000.
238. The Prospectuses were false and misleading
due to, among other things, the incorporation by reference of Enron’s 10-K’s from 1997-2001. These 10-Ks
contained Enron’s admittedly false financial statements. Enron filed 10-Ks for those years which misrepresent Enron’s financial results, including earnings,

App. 486
the debt-to-equity ratio, total debt, and shareholder
equity, by failing to consolidate non-qualifying SPEs,
as required by GAAP and numerous other accounting
misstatements and omissions which misstatements
and omissions were outlined by Enron in its November,
2001 and post November, 2001 Exchange Act filings, all
of which are incorporated herein by reference.
239. Interestingly, the Enron 1997 Form 10-K,
which was incorporated by reference in Form S-8 filings, misstated and understated the loss incurred by
EES for 1997, reported $107 million, due to the overvaluation of the EES contracts and abuse of mark-tomarket accounting, as detailed herein. Additionally,
Enron’s 1996 Form 10-K, which was incorporated by
reference in Form S-8 filings, reported that Phase I of
Enron’s Dabhol plant was to begin commercial operations in December, 1998. This was false and misleading
because cost overruns on the Dabhol project and problems with political and regulatory officials, which had
occurred by December 31, 1997, ensured the plant
would likely never begin commercial operations on the
terms represented and, if begun, commercial operations would result in huge losses because to break even
Enron would have to charge its only customer (the Indian state government) four times the price other
power generators were charging to supply electricity
energy in order to recoup Enron’s investment.
240. The November 8, 2001 restatements filed by
Enron evidenced a charge to earnings of approximately
$500 million or about 20 percent of earnings during
that period. On November 19, 2001, Enron filed its

App. 487
Form 10-Q, which for the first time, disclosed the November 9, 2001 downgrade to BBB- had triggered a demand for $690 million from Enron which it could not
pay. This $690 million obligation was associated with
an entity called “Whitewing,” a structure in which
UBS had been involved in as detailed herein.
C. UBS PW LIABILITY

AS A

SELLER

241. UBS PW is a “seller” under Section 12(a)(2)
with respect to the securities offered and sold by
means of the Prospectuses. A “seller” of a security for
the purposes of Section 12(a)(2) liability includes one
who successfully promotes or solicits the purchase of a
security motivated at least in part by a desire to serve
his own financial interests or the financial interests of
the securities owner.29
242. As the United States Supreme Court recognizes, “brokers and other solicitors are well positioned
to control the flow of information to a potential purchaser, and, in fact, such persons are the participants
in the selling transaction who most often disseminate
material information to investors.”30 Understanding
that an investor is most likely to be injured when a
broker allows only certain information to reach the investor, the Supreme Court concludes a natural reading
of the “seller” language of Section 12 includes within it
the persons who urged the investor to purchase the
 Crawford v. Glenns, Inc., 876 F.2d 507 at 510-12 (5th Cir.
1989).
30
 Pinter v. Dahl, 486 U.S. 622, 682 (1988).
29

App. 488
security at issue, such as through corporate policies requiring the delivery of positive analyst ratings without
regard to whether those ratings were suitable for any
particular investor.31
1.

UBS PW’s Financial Benefit

243. To understand why UBS PW promoted and
solicited Enron stock as alleged below, one must first
understand the intense financial motivation underlying those actions. UBS PW’s relationship with Enron
funneled staggering amounts of money into UBS PW’s
coffers and this wealth became a great motivating
force for UBS PW.
244. UBS PW contractually cornered the market
on the financial wealth of the Enron and Enron affiliate employees. Rocky Emery (“Emery”) came to UBS
PW in 1996 and developed the exclusive captive broker
relationship with Enron for its stock option plans. An
October 16, 1998 Letter Agreement (the “Agreement”)
between UBS PW and Enron formed an exclusive relationship between the parties concerning the “administration” of Enron’s stock option plans.
245. UBS PW used this Agreement as its entrée
into the world of all Enron’s and Enron affiliates’ employees. UBS PW agreed to provide certain services to
these employees for free and then worked to capture at
least 1/3 of the assets generated from the exercise of
those stock options. Emery informed UBS’s financial
31

 Id. at 680.

App. 489
advisors the reason for the exclusivity of the contract
with Enron was to allow UBS PW the opportunity to
retain a substantial portion of the net amount of
wealth after the exercise of the stock options. This
scheme spawned enormous financial benefit to UBS
PW. All Enron employees, all Enron affiliates’ employees, and all other individuals covered by the Form S-8
registered stock option plans, which was in excess of
27,000 or more individuals over 5 years, were directed
by Enron and Enron Human Resources to call UBS PW
for any exercise of the stock options and any questions
they had regarding the stock options.
a.

The UBS PW Plan to Acquire the
Wealth of the Enron Employees

246. UBS PW captured the wealth of the Enron
employees via a three-pronged approach. First, PW required Enron employees to open an account with UBS
PW before they were able to exercise their stock options. Forcing Enron employees to open a UBS PW account before any stock options could be bought or sold
was UBS PW’s “foot in the door” on keeping the Enron
employees’ assets in the UBS PW coffers. UBS PW
made it very easy for the Enron employees to rationalize keeping their account at UBS PW to avoid having
more paperwork to fill out and the hassle of moving the
investments to another broker-dealer or financial advisor.
247. When Enron employees opened an account
with UBS PW as directed, they are guided by UBS

App. 490
PW’s phone bank of financial advisors to open up another account as well. The reason for the live phone
bank was to immediately capture all of the telephone
calls from Enron employees. The object was to have a
UBS PW financial advisor establish personal one-toone contact with the Enron employee. Having the first,
second, and third personal contact with these employees was invaluable, during a vulnerable period of time
when the employee was searching for guidance and understanding about the exercise of the options. UBS PW
was inserting itself as an indispensable member of the
option exercise at this point in terms of reliance by the
Enron employee.
248. At this same time, UBS PW obtained valuable insight into this individual; e.g., how much money
the Enron employee has tied up in stock options, how
much money this employee has in other investment or
retirement accounts, what sophistication level this employee has, what his or her financial goals and risk tolerance are, and whether this optionee needs the cash.
The financial advisors would answer questions from
the optionee and “close” the relationship between UBS
PW and the Enron employee for the “additional services” UBS PW and Enron contemplated UBS PW
would sell.
249. UBS PW’s second prong in its approach to
Enron’s employees was to provide printed materials to
the employees designed to convince them the management of their stock options involved financial considerations too complicated and numerous for them to
handle without the assistance of a UBS PW financial

App. 491
advisor. In making stock option issues complex for
these potential retail customers and then providing
stock option analysis free of charge, UBS PW made itself invaluable to Enron’s employees. An example of
such a publication is the Guide to Exercising Your
Stock Options Online.32
 PW gave the plan participant its opinion on “Valuing Your
Stock Options” on page 19 of the Guide to Exercising Your Stock
Options Online.
Your options also enjoy value of time. . . . .Because you
have a set period of time in which to exercise your options, you can time your exercise with the objective of
receiving the most gain. For example, if you have 10
vested options with an exercise price of $55.50 and the
market price of the stock is $40.00 per share, your options have no monetary value if you exercised at that
time. However, if the option does not expire for five
years, there is a possibility that over that time the market price will rise above the option price of the option.
Therefore, the period of time you have to exercise your
options gives you the ability to wait for the market
price of the stock to increase.
And it is no surprise that PW wants to give the eligible plan
participant offeree its free stock option analysis to assist in the
timing of the exercise of those stock options. After all, as PW
points out:
Once your options are vested, the decision to exercise
them is entirely up to you. You decide when to exercise
your options and how many shares you want to exercise. . . . .Although your options have value once there is
a positive difference between the exercise price and the
current market price of your company’s stock, that does
not mean it is the right time to exercise your options.
Your stock option program was created as a long-term
incentive – it is part of your total compensation – and
many factors should be considered before you exercise
your options. [emphasis added]
32

App. 492
250. UBS PW’s final prong was offering certain
services related to Enron employees’ stock options free
of charge. The result of this approach was the influx of
millions and millions of dollars from Enron employees
into UBS PW’s managed accounts. UBS PW made
these services a loss leader to the more lucrative Financial Planning Services.
251. UBS PW’s Agreement with Enron would
have been essentially worthless to UBS PW if it could
not capture the wealth of the Enron employees. Accordingly, UBS PW ensured the Agreement explicitly enabled it to capture the wealth of the Enron employees.33
!

How many options do you want to exercise and
from which grant(s)?
!
How do you want to exercise your options? What
type of order do you want to place? Do you want
to own shares of stock or would you like the net
proceeds from a sale in cash?
!
What are your current and future financial needs?
!
Will you use your options as part of your overall
long-term investment plan?
!
When do you plan to retire? How much stock do
you want to own at your retirement date?
!
What are the prospects for your company’s stock
price? Can you tolerate fluctuations in the market
price?
!
What are the tax implications of exercising your
options?
!
Are you a Section 16 Reporting insider of your
company? As an insider you are subject to SEC
restrictions, including the requirement to report
your exercise activity to the SEC.
33
 The Agreement stated: “PaineWebber, however is not prohibited from offering and conducting further business with

App. 493
It is clear from this Agreement that Enron and UBS
PW knew UBS PW was aggressively going to pursue
“further business” with Enron’s employees. This was
the financial key for UBS PW to Enron’s employees
and the wealth tied up in their stock options and other
financial assets. The Agreement paves the way for UBS
PW to provide other services to Enron employees directly related to “the investment of any proceeds from
the exercise and sale of shares from stock options
granted by the Corporation or the deposit of any stock”
and UBS PW will derive its collateral compensation
from this relationship and on the “proceeds from the
exercise and sale of shares from stock options.”

Corporation employees who have Established Accounts (Employee
Accounts which currently hold cash or securities) with PaineWebber pursuant to this Agreement and have elected to conduct further
business with PaineWebber . . . PaineWebber [is not] prohibited
from conducting seminars, presentations or meetings at which one
or more Corporation employees may be in attendance as a consequence of general solicitation by PaineWebber. Further, PaineWebber is not prohibited from establishing accounts for and
conducting business with such attendees . . . In the event an employee of the Corporation elects to conduct further business and
maintain an Established Account with PaineWebber, such Established Account shall be between PaineWebber and the employee
. . . . . . . . . . PaineWebber agrees to require any Corporation employee, who elects to conduct further business with PaineWebber
(including, but not limited to, the investment of any proceeds from
the exercise and sale of shares from stock option grants by the Corporation or the deposit of any stock), to sign an agreement to
acknowledge that. . . . . . .any further business conducted between
PaineWebber and the employee is a matter of personal discretion.”
Agreement, at page 2.

App. 494
252. The first page of “A Guide to Exercising Your
Stock Options Online,” welcomes the eligible participant with these words:
Enron Corp. has rewarded your hard work
and dedication with an opportunity to share
in the success of Enron through participation
in its stock option program. A well-thoughtout plan for exercising these options is a
critical factor in making the most of your
stock options. PaineWebber is pleased to assist you in your option transactions. . . . .This
brochure describes the PaineWebber five-step
process for exercising your options and the
basics of a stock option program. In addition,
it addresses important information including
. . . . additional services offered by PaineWebber . . . . PaineWebber representatives are
available to assist you with the Internet Web
site and to answer questions about your stock
options. We look forward to working with you.
[emphasis added].
253. At the very first introduction of UBS PW to
the optionee, UBS PW is already in sales mode trying
to get the optionee to look at UBS PW’s other “additional services.” Again, UBS PW is telling these optionees they need UBS PW because the optionee needs
a “well-thought-out plan for exercising these options,”
which was a “critical factor in making the most of
[their] stock options.” This sales pitch to get these
Enron employees to use UBS PW for assistance in preparing this “well-thought-out plan for exercising these
options” is not UBS PW confining itself to merely

App. 495
exercising the stock options for the optionee. UBS PW
was selling itself and the “additional services” UBS PW
had, all in a concerted plan, approved by Enron, to get
these individuals as ultimate retail customers for UBS
PW. This is, by anyone’s definition, not confining itself
to simple administrative services. Instead, UBS PW focused on offering voluminous financial services to
these customers (as set forth in the Guide to Exercising
Your Stock Options Online), including access to UBS’s
equity research analyst’s reports and ratings.34
34

!



Dedicated toll-free phone number to UBS PW Representatives.
!
Transaction fee of $4.50 was waived on all stock option exercise transactions.
!
Wire fee of $25,00 was waived for wiring proceeds
to the employee’s bank account.
!
Low commission rates of $0.06 on the sale of shares
and no fee for exercising options.
UBS PW also offered a number of additional complimentary brokerage and financial services to Enron Employees.
Resource Management Account (RMA)
The RMA is UBS PW’s traditional full-service account available
to all UBS PW clients. However, for Enron employees, the regular
$85.00 annual fee was waived. The RMA provides the following:
!
Purchase or sell, stock, bonds, mutual funds and
other investment products.
!
Consolidate many of your investments with
monthly and annual statements, as applicable.
!
Receive year-end tax-reporting statements.
!
Automatic sweep of any idle cash into interestbearing money market funds.
!
Use margin on your account.

App. 496
254. Only one of the following three possible alternatives could occur when an Enron employee
opened an account with UBS PW: (i) the employee exercised the stock option and kept the Enron stock;
(ii) the employee exercised the stock options and immediately sold all or a portion of it into the market; or
(iii) the employee did not exercise the option. The employee’s decision to do one of the above-described actions was facilitated by UBS PW’s advice about the
!

Obtain personal checks, direct deposit, electronic
funds transfer and personal debit card.
!
Access your account online through UBS PW online
services.
IRA and Rollovers
The regular $35 annual fee on an IRA was waived for Enron employees. Enron employees were encouraged to consolidate all of
their retirement assets at UBS PW. UBS PW explained how both
RMA and IRA account statements could be combined by UBS PW
for easier more efficient reporting.
UBS PW also offered programs in the areas of estate planning
and personal trust services to Enron employees.
Financial Planning Services
UBS PW also offered the following services to Enron employees
at no cost with the representation that the services would help
the client maximize their investment benefits:
!
Stock option analysis.
!
Retirement savings analysis.
!
Educational needs analysis.
Professional Asset Allocation
UBS PW also discussed its purported ability to develop an investment portfolio with asset allocations specifically tailored to meet
individual investment objectives and risk tolerance and assured
Enron employees that UBS PW’s professional money managers
would then manage their portfolios.

App. 497
advisability to exercise the stock option. Indeed, all financial advisors were repeatedly advised they were
not to give any opinion whatsoever regarding the exercise of the stock options until the employee had set up
an account with UBS PW. This facilitated the rush of
the employees and the employees of the Enron affiliates to sign up and become a UBS PW customer so they
could get this free stock option analysis and financial
planning. Without this information, the employee was
often paralyzed with indecision about what to do with
the options and how they fit into the employee’s overall
financial plan to maximize the options into their retirement or personal goals.
b.

The Direct and Collateral Enrichment of UBS PW

255. The Agreement resulted in collateral enrichment to UBS PW far in excess of that which was
the usual and customary distributors’ or sellers’ commission. UBS PW’s plan to enrich itself collaterally
through the capture of at least 1/3 of all of the wealth
generated from the stock option exercise by these Enron stock plan participants spawned hundreds of millions of dollars of value to UBS PW. UBS PW actually
exceeded its goal and retained up to 50-60% of this
wealth. The financials [sic] advisors themselves were
making obscene amounts of money off of the Enron employees too. For example, first-year financial advisors
in the Enron group were making in excess of $100,000
per year.

App. 498
256. In addition to the collateral enrichment received by UBS PW from the rank-and-file Enron employees, the insider trading of the control officers and
directors in Enron generated millions of dollars to
UBS PW. UBS PW sold over $550,000,000 for the top
ranking individuals at Enron just in the latter part of
2000 and first half of 2001. UBS PW earned $.06 per
share of options exercised, and placed approximately
$80,000,000 in annuities, for which there was a 6% upfront fee, or $4,200,000 in fees earned. The financial
advisor would get 50% and UBS PW would get the remaining 50%. And that is only $80,000,000 in annuities; there was the remainder of the $550,000,000 to
try to control for these insiders and the rest of the
funds generated from the other Enron employees as
well.
257. When considered in its totality, the amount
UBS PW desired to keep as its compensation were
managed assets totaling 1/3 of 7 billion dollars or
$2,331,000,000, together with the $.06 per share on the
sale of stock, together with the additional funds these
employees might have outside of their Enron options.
UBS PW made itself a “one-stop shop” for these individuals by offering all of those free financial services
and accounts. Indeed, as anticipated by UBS PW, many
individuals became comfortable working with UBS PW
and transferred other accounts into UBS PW, in addition to their Enron accounts.
258. UBS PW jealously guarded this Enron exclusive relationship to the very end because of the
wealth it generated for UBS PW. In fact, this model

App. 499
was so successful that UBS PW built up a resume of
major corporations in which it was also the exclusive
stock option plan administrator. But Enron was special
and the account was treated differently than all of
UBS PW’s other stock option plan clients. Until transactions like the Equity Forward Contracts, Osprey/
Whitewing, Yosemite, and E-Next became publicly
known, Enron’s stock was valuable, and Enron was
just two blocks away from the UBS PW downtown office. The experience of Wu, the former UBS PW financial advisor fired at Enron’s demand, provides a clear
example of the staggering wealth being funneled into
UBS PW through its exclusive relationship with Enron. In less than two years, Wu, still a “trainee” when
he was fired, collected over 26 1/2 million dollars in assets from Enron employees without having to make
cold calls. Wu was at the very bottom of the pecking
order in terms of production at UBS PW; he and other
new hires took the accounts no one else wanted. Wu
built up this asset base with approximately 530 clients
out of the over 27,000 or more that were Enron employees or Enron’s affiliates employees. This boils down to
leads generating over one million dollars a month
in managed wealth for one financial advisor still in
training at UBS PW and who had no accredited investor clients. UBS PW brokers had to do absolutely nothing to start generating solid leads, open accounts and
manage wealth without the dreaded “cold calls” so
prevalent at other, less fortunate firms.
259. Distribution of the revenues at UBS PW resulting from its relationship with Enron resembles a

App. 500
pyramid scheme. Fisher, the financial advisor responsible for the Enron account after Emery’s departure,
testified that out of every dollar brought in as revenue,
UBS PW’s headquarters received 20%; the financial
advisor received a payout, and the remainder stayed at
the branch office. Wu received 29% of every dollar he
generated in revenue from the Enron account (after he
reached gross production revenue to $250,000 a year,
he would receive 40% of every dollar he generated in
revenue). Out of Wu’s 29%, Emery, the group leader
prior to July 2001, received 20%. UBS PW and the
branch office kept the remainder of the revenue.
260. UBS PW generated revenue both from
transactional services and asset management. The fee
based revenue came from two sources; (i) from referring clients out to money managers, or (ii) setting up
fee based portfolios the financial advisor managed
himself or herself. A 2% base fee was charged for the
UBS PW financial advisor to manage the account or
2.75% if the account was managed by an equity manager. UBS PW would receive a certain percentage, a
“haircut” of 0.50%, leaving the remaining 2.25% to be
allocated to Wu (29% of 2.25%) and the remainder of
the 2.25% (or 1.5975%) to go to UBS PW and the
branch office. Again, Emery was above Wu in the UBS
PW pyramid and would receive 20% of Wu’s cut of the
revenue allocation.
261. Mendenhall, the branch office manager
above Emery in the UBS PW pyramid, personally received a percentage of the overall total profitability of
the branch office. He earned over a million dollars a

App. 501
year from the management of the Heritage Branch of
UBS PW that was the sole and exclusive promoter and
broker for the Enron stock option accounts. By extrapolation of the shared percentages divided from the fees
the financial advisors earned from their transactional
services (buying and selling stock for accounts) and fee
based accounts (managing assets), Emery earned millions in a year and UBS PW, obviously the top of the
UBS PW pyramid (but not the top of the UBS pyramid), itself earned millions of dollars in a year. If UBS
PW managed the accounts of the $550,000,000 from
the insider’s sales, for example, and charged the 2.75%
fee, the fees to be divided between the financial advisors, the money managers, the UBS PW branch office
and UBS PW headquarters would be $ 15,125,000 from
just the few top officers and directors’ accounts PW
sold off during the Class Period. If UBS PW captured
at least 1/3 of the 7 billion dollars and charged its
2.75% fee, UBS PW would earn a fee of $64,102,500 –
annually.
262. In conclusion, UBS PW had an enormous financial motive to sell and promote Enron stock on behalf of Enron. UBS PW itself stood to collect tens of
millions of dollars annually from Enron’s employees,
and so long as the Enron stock option plan remained
at UBS PW.
2.

The Solicitation and Promotion of
Enron Stock

263. UBS PW relentlessly promoted Enron
stock. UBS PW required its brokers to recommend

App. 502
Enron stock by providing their clients with every UBS
“Strong Buy” rating. UBS PW made no analysis of
whether UBS’s rating was appropriate for the retail
client, nor did UBS PW conduct any analysis as to
whether UBS’s research had a reasonable basis and
was free from conflicts of interest as between UBS and
Enron. Instead, anytime a question was raised by an
Enron employee regarding the exercise of their stock
options, UBS PW’s internal policy required the answer
always recited UBS’s “Strong Buy” rating. Importantly,
the UBS analyst research note containing its “Strong
Buy” rating of Enron stock specifically state they are
intended to be distributed in the United States to major institutional investors only. Despite this stated intention, UBS PW required its brokers to send these
analyst ratings to its retail clients disregarded the fact
the “Strong Buy” rating contained within these analyst
reports was not intended by the analyst to be a blanket
recommendation and did not consider individual asset
allocations, investment objectives, and risk tolerance.
264. This deliberate one-size-fits-all action by
UBS PW added professional sponsorship to the Enron
securities regardless of the suitability of the Enron securities for a particular retail client. If UBS PW and
its financial advisors did not advocate the “Strong Buy”
and actively promote the Enron stock to its retail clients, Enron would terminate its relationship with UBS
PW and would find a more compliant broker-dealer to
promote and solicit its stock in exchange for the lucrative exclusive relationship to the shelf registration

App. 503
offerings. The termination of Wu expressly demonstrates this fact.
265. Enron required UBS PW to promote Enron
securities. Any UBS PW employee who refused to promote Enron securities was quickly eliminated from the
equation. Indeed, UBS PW’s own policy was that no financial analyst could recommend anything other than
a “Strong Buy” without UBS PW’s permission and,
even if permission was granted, the financial advisor
would be forced to send the UBS “Strong Buy” rating
to the retail client as well. The result of this policy
would be the retail client receiving two contrary recommendations, one from a financial advisor and one
from UBS. Additionally, any advice by a financial advisor necessitating a sale of Enron securities had to be
couched as a plan of diversification. No negative commentary on Enron was permitted, by UBS PW or Enron.
266. UBS’s involvement added a professional
sponsorship to the Enron securities by a member of the
perceived “disinterested” financial community. UBS
PW was the first source of information about the investment in and the exercise of the Plaintiff ’s stock options. Further, UBS PW had a contract with each of its
Enron employee clients establishing privity between
the seller and the retail customers. UBS PW established accounts for these retail customers and through
a mandatory corporate policy made a “Strong Buy” recommendation to the retail customer when the customer asked for advice about the sale of the Enron
stock.

App. 504
D. CONCLUSION
267. UBS PW was a “seller” of Enron securities
to Plaintiff as the term is understood in the context of
Section 12(a)(2) for two specific reasons: (1) because of
UBS PW’s direct participation in the timing and the
exercise of Enron employees’ stock options on Enron’s
behalf and its active solicitation and promotion of
Enron securities during these transactions; and (2) because UBS PW’s direct participation and active solicitation/promotion of Enron securities was motivated by
and resulted in unprecedented amounts of collateral
enrichment to UBS PW. Contrary to UBS PW’s contention, UBS PW was far more than a mere conduit for
Enron employees’ receipt of Enron securities.
268. For purposes of this Section 12(a)(2) claim,
Plaintiffs Lampkin, Ferrell, and Swiber expressly disclaim any allegations that may be interpreted as allegations of fraud and/or knowing or reckless conduct.
Plaintiffs’ Section 12(a)(2) claim relies entirely upon
allegations of negligence and/or strict liability on the
part of UBS PW. Any allegations contained within this
section that may be interpreted as allegations of fraud
and/or knowing or reckless conduct are included for
the limited purpose of showing why UBS PW was a
seller of Enron securities to the Plaintiffs during the
class period.
XII. SECTION II LIABILITY
269. Class-Representative Plaintiffs Lampkin,
Ferrell, and Swiber bring a claim in this lawsuit

App. 505
against UBS PW for violations of Section 11(a) of the
1933 Securities Act on behalf of themselves and a
similarly situated subclass of Plaintiffs who, like
Lampkin, Ferrell, and Swiber, purchased or acquired
securities which were offered and/or offered and sold
through the Registration Statements.
270. Section 11(a) of the 1933 Securities Act imposes liability on every “underwriter” of a security for
any untrue statements of material fact or omissions to
state a material fact found in a registration statement.
A. REGISTRATION STATEMENTS
271. The Registration Statements upon which
Plaintiffs’ Section 11 claims are based are the same
Registration Statements identified in Paragraph 230
above, which are hereby incorporated by reference.
These S-8 Registration Statements registered the entire process for the offer and sale of Enron securities
through the relevant SOPs.
B. UNTRUE STATEMENTS & OMISSIONS
272. The untrue statements and omissions upon
which Plaintiffs’ Section 11 claims are based are the
same untrue statements and omissions identified in
connection with Plaintiffs’ Section 12(a)(2) claims, as
set forth above, which are hereby incorporated by reference.

App. 506
C. PW WAS THE STATUTORY UNDERWRITER
ENRON’S SOPS
1.

FOR

Underwriter Status

273. An “underwriter” is defined under Section
2(a)(11) of the 1933 Act as follows:
The term “underwriter” means any person
who has purchased from an issuer with a view
to, or offers or sells for an issuer in connection with, the distribution of any security, or participates or has a direct
or indirect participation in any such
undertaking, or participates or has a
participation in the direct or indirect
underwriting of any such undertaking;
but such term shall not include a person
whose interest is limited to a commission from
an underwriter or dealer not in excess of the
usual and customary distributors’ or sellers’
commission. As used in this paragraph the
term “issuer” shall include, in addition to an
issuer, any person directly or indirectly controlling or controlled by the issuer, or any person under direct or indirect common control
with the issuer.35 (emphasis added)
274. The statutory definition of “underwriter”
covers every person who participates directly or indirectly in the distribution of securities, and the Supreme Court broadly interprets participation with
regard to the 1933 Act’s definition of “underwriter.”
The plain meaning of the statute itself demands a
35

 15 U.S.C.S. §77b(11), as amended.

App. 507
broad interpretation of participation. And, as recognized by members of the Supreme Court throughout
the last century, the plain language of a statute alone
provides the most reliable guide to a statute’s meaning.36
275. In addition to the 1933 Act’s plain language
and the affirmation of that language by the courts,
commentators also recognize that participation in a
shelf registration context falls within the statutory
definition of “underwriter.” For example, Louis Loss
and Joel Seligman state: “There have been five basic
‘underwriting’ techniques, sometimes with variations:
[1] strict or ‘old fashioned’ underwriting, [2] firm commitment underwriting, [3] best efforts underwriting,
[4] competitive bidding, and [5] shelf registration.”37
2.

The Traditional Underwriter Function

276. Underwriters have long played the critical
role of gatekeeper between the United States securities markets and issuers. The gatekeeper role gives the
 See e.g. United States v. Mo. Pac. R.R. Co., 278 U.S. 269,
278 (1929) (stating “where the language of an enactment is clear
and construction according to its terms does not lead to absurd or
impracticable consequences, the words employed are to be taken
as the final expression of the meaning intended”); see also W. Va.
Univ. Hosps., Inc. v. Casey, 499 U.S. 83, 98-99 (1991) (stating the
text of a statute alone is what is presented to the President for his
signature or veto).
37
 Louis Loss and Joel Seligman, SECURITIES REGULATIONS,
3D, § 2-A (2001) (emphasis added).
36

App. 508
sales process an orderly structure and provides the issuer with a strong advocate in the secondary market.
Indeed, one of the main roles the underwriter has is to
provide sponsorship of the stock in the financial markets and ensure the issuer is providing truthful and
adequate information upon which the investing public
can make an informed investment decision.
277. After investigating the issuer, doing its due
diligence and putting its “stamp of approval” on the issuance, the underwriter’s role often changes into that
of a “market maker.” A market maker attempts to
achieve a distribution of the company’s shares among
private individuals and institutional purchasers that
will assure a good price in the offering and adequate
trading in the shares. The underwriter supports the issuer in the financial community after the offering by
making a market in the company’s stock, providing research and analysis on the company for investors, organizing communications with investors and potential
investors, and generally helping the company create or
maintain a following in the investment community.
Once issued, the company’s stock will be traded in the
market. The ability of the underwriter as a “market
maker” to support the market is essential to the issuer.
By timing purchases and sales of the company’s stock
in the market, the “market maker” gives the company’s
stock needed liquidity, which helps stabilize trading
prices.
278. On the one hand, issuers contract with underwriters for their market-maker abilities and the
more powerful firms on Wall Street actually promote

App. 509
their analysts’ reports as financial superstars that will
give investors unconflicted advice on a given issuer. investment banking firms who are the underwriters vie
with one another for an issuer’s underwriting positions
in new offerings, in consulting and other investment
banking opportunities. On the other hand, the investing public relies upon underwriters for protection from
the Enrons of the world. As the statutory definition of
“underwriter” conveys, UBS PW cannot assume the
role of market maker without also assuming the role
of gatekeeper between the United States securities
markets and issuers. With regard to the Registration
Statements, PW embraced its role as a market maker
on behalf of Enron, and has promoted, offered and sold
for Enron and had a direct or indirect participation in
the offer and sale and the distribution of the securities
at issue into the initial and secondary security markets.
3.

UBS PW Directly Participated in the
Promotion, Offer, Sale, and Distribution of Enron Securities through the
Registered Transactions

279. Section 11, written in the disjunctive, addresses four types of statutory underwriters, including
two relevant here, one who “offers or sell [sic] for an
issuer in connection with . . . the distribution of a security” and one who “participates or has a participation
in the direct or indirect underwriting of any such undertaking.” UBS PW’s activities as a “seller” in connection with the registered transactions are detailed in

App. 510
Section X. In addition to satisfying the “seller” aspect
of the statutory definition of underwriter, UBS PW also
satisfies the “participation” aspect of the definition.
280. According to the SEC, the words “participates” and “participation” include anyone “enjoying
substantial relationships with the issuer or underwriter, or engaging in the performance of any substantial functions in the organization or management of
the distribution.” Opinion of General Counsel Securities Act Release No. 33-1862 (Dec. 14, 1938). Even UBS
PW’s most general obligations under the Agreement
establish its “participation” in the underwriting of securities in the registered transactions. In consideration for an exclusive right to broker an optionee’s
exercise of options under the SOPS, UBS PW assumed
the responsibility of the day-to-day administration of
the SOPs. Specifically, UBS PW agreed to assume responsibility for the following activities relating to the
Enron SOPs:
•

Record keeping for Enron with respect to all
stock options granted by Enron’s Compensation Committee, including sending out notices
of grants to the recipients;

•

Coordinating with Enron all “Insider” sales
subject to Section 16 of the Securities Exchange Act of 1934;

•

Coordinating with Enron all “Affiliate” sales;

•

Confirming employee eligibility for proposed
transactions;

App. 511
•

Recording transactions on an individual and
aggregate basis daily;

•

Calculating and recording tax withholding for
each transaction;

•

Establishing an Omnibus Account to hold Enron shares pending transfer to employee accounts;

•

Opening employee accounts, issue confirmations, Form 1099s, and monthly account statements;

•

Assisting Enron affiliate employees in preparing and filing Rule 144 documentation and
Stockholder Representation Letters

•

Responding to communications from Enron
employees within five (5) minutes;

•

Wiring funds to Enron’s designated bank account; and

•

As of December 7, 2000, maintaining an Internet site for optionees to access and review
their stock option grants.

281. In sum and substance, Enron outsourced
the organization and management of its SOPs to UBS
PW. UBS PW added value to this function as well. For
example, Enron could not advise its employees as to
whether they should exercise and sell, exercise and
buy, or not exercise their stock options at all. Enron
was not a broker-dealer and could not advise its own
employees as to their financial position, goals, suitability, diversification, etc. Only a licensed and registered

App. 512
broker-dealer and its licensed employees passing
specific licenses [sic] examinations can do this. Enron
could not be a market maker of its own stock. UBS PW
provided sponsorship in the financial markets to support the value of the securities, a typical underwriter
function.
282. Additionally, UBS PW provided market
making activities with respect to these securities. Enron awarded the task of selling the common stock to
the investor (and financing this sale), the task of giving
investor advice and explanation of the Plan and how
this exercise fit into their overall investment goals, as
well as timing large blocks of exercises into the market
to avoid price fluctuations. UBS PW would even at
times effectuate an optionee’s exercise, pay both Enron
for the exercise and the optionee for the amount he or
she would have realized if the shares were sold into the
secondary market, and then hold the shares in UBS
PW’s account until it determined the market was best
suited for a sale. With the enormous amounts of insider
stock being dumped into the market in late 2000 and
early 2001, performance of this underwriter function
by UBS PW was invaluable to Enron, and UBS PW was
the only broker-dealer who could, and did, support the
market with respect to the sale of the SOP securities.
UBS PW performed these and other traditional underwriting functions in the offer and sale of the Form
S-8 registered stock, and was compensated by a commission paid by the option exerciser and a collateral
opportunity to enrich itself from the exclusive arrangement.

App. 513
283. Another example of a UBS PW function
akin to a traditional underwriter was the initial financing of Enron employees’ exercise of stock options
through a broker-financed exercise pursuant to the
provisions of Regulation T of the Federal Reserve
Board. The 1999 SOP, for example, stated an option
granted to a 1999 Plan participant could be exercised
through a broker-financed exercise. A “broker financed
exercise” is:
to temporarily finance a customer’s receipt of
securities pursuant to an employee benefit
plan registered on SEC Form S-8 or the withholding taxes for an employee stock award
plan, a creditor may accept, in lieu of the securities, a properly executed exercise notice,
where applicable, and instructions to the issuer to deliver the stock to the creditor. Prior
to acceptance, the creditor must verify that
the issuer will deliver the securities promptly
and the customer must designate the account
into which the securities are to be deposited.38
A “creditor” is a broker or dealer or any member of
a national securities exchange.
284. UBS PW contractually obligated itself in
the Agreement to finance the Plaintiffs’ exercise of
Enron stock options pursuant to Regulation T of the
Federal Reserve Board. In order to comply with this
SOP management function, UBS PW designed a

 Section 220.3(e)(4) of Regulation T of the Federal Reserve
Board.
38

App. 514
complete system to finance Enron employees’ exercise
of options pursuant to Regulation T.
285. Another example of UBS PW’s underwriting role with regard to the Registration Statements is
its transfer of Enron stocks to Enron employees when
they decided to exercise their stock options. Specifically, UBS PW agreed to:
establish an Omnibus Account for the Corporation which PaineWebber will use solely to
hold Corporation (Enron) shares pending
transfer to individual Corporation (Enron)
employee accounts (“Employee Accounts”) on
the first business day immediately following
trade date and to deposit shares received from
optionees to pay option price and/or amounts
due for tax withholding[.]
286. UBS PW contractually arranged to be the
exclusive conduit for Enron securities being placed
into the hands of Enron employees and all Enron affiliates’ employees through the SOPs. Enron employees
were instructed “PaineWebber [was] Enron’s exclusive
broker for employee stock options.”39 UBS PW’s exclusive broker status for Enron’s SOPs meant it was the
sole gatekeeper to the initial and secondary markets
for the 100,000,000 securities issued via the process
registered by the Registration Statements. A contractual arrangement with an issuer whereby a brokerdealer becomes the administrator, organizer, manager,
39

gram.

 Employee Guide EnronOptions, Your Stock Option Pro-

App. 515
and exclusive conduit for the distribution of hundreds of millions of securities clearly falls within the
statutory definition of an underwriter. As has long
been recognized, statutory underwriters include any
person who is “engaged in steps necessary to the distribution of security issues.” Securities & Exchange
Com. v. Chinese Consol. Benevolent Ass’n, 120 F.2d 738,
741 (2nd Cir. 1941). The Agreement establishes UBS
PW as a necessary step in the registered transactions.
4.

UBS PW Cannot Prove the Statutory
Exemption to Underwriter Status

287. The statutory definition of underwriter does
contain a statutory exemption from that designation.
Specifically, the term underwriter does not include “a
person whose interest is limited to a commission from
an underwriter or dealer not in excess of the usual and
customary distributors’ or sellers’ commission.” UBS
PW cannot prove its exclusive brokerage relationship
with the Enron SOPs falls within this statutory exclusion by arguing UBS PW received nothing more than
the usual and customary commission in connection
with the distribution of the securities covered by the
Registration Statements. Such an argument ignores
the very language of the statute. The statute only exempts from its definition of underwriter those who receive such a commission directly “from an underwriter
or dealer.” UBS PW received its compensation for being
the exclusive conduit into the market for the subject
securities from the investor, not from an underwriter

App. 516
or dealer.40 Consequently, the statute leaves UBS PW
with no defense to liability in connection with the misstatements in the Registration Statements.
D. CONCLUSION
288. When UBS PW’s combined roles with regard to Enron’s SOPs are viewed objectively, there is
no doubt UBS PW was an “underwriter” of the securities issued pursuant to the Registration Statements
and is subject to liability under Section 11 for the untrue statements of material facts and omissions of material facts in the Registration Statements. UBS PW
offered and sold securities for Enron. UBS PW participated directly and indirectly in the sale and distribution of Enron stock to Lampkin, Ferrell, and Swiber,
and other former employees of Enron or its affiliate
companies by and through their respective employee
stock option plans. UBS PW’s activities cause it to fall
within the statutory definition of “underwriter” found
in Section 2(11) of the Securities Act.
289. For purposes of this Section 11 claim, Plaintiffs expressly disclaim any allegations that may be
interpreted as allegations of fraud and/or knowing
or reckless conduct. Plaintiffs’ Section 11 claims rely
entirely upon allegations of negligence and/or strict
liability on the part of UBS PW. Any allegations contained within this section that may be interpreted as
 “PaineWebber shall receive $.06 per share commission
plus SEC fee from Corporation employees . . . ” October 19, 1998
Letter Agreement
40

App. 517
allegations of fraud and/or knowing or reckless conduct are included for the limited purpose of showing
why UBS PW was the “underwriter” of Enron securities to the Plaintiffs during the class period.
XIII. PRAYER FOR RELIEF
WHEREFORE, Plaintiffs pray for relief and judgment as follows:
A. Determining this action is a proper class action, and certifying Plaintiffs as class representatives
under Rule 23 of the Federal Rules of Civil Procedure;
B Awarding compensatory damages in favor of
Plaintiffs and the other class members against Defendants, jointly and severally, for all damages sustained
as a result of Defendants’ wrongdoing, in an amount to
be proven at trial, including interest thereon;
C. As to the Section 11 and/or Section 12 claims,
awarding rescission or a recessionary measure of damages;
D. Awarding Plaintiffs and the class members
their reasonable costs and expenses incurred in this
action, including counsel fees and expert fees; and
E. Such other and further relief as the Court
may deem just and proper.
Date: _________________
/s/ ANDY TINDEL
ANDY TINDEL
State Bar No. 20054500
Southern Dist. Bar No. 8015

App. 518
PROVOST! UMPHREY LAW
 FIRM, L.L.P.
112 E. Line Street, Suite 304
Tyler, Texas 75702
Tel: (903) 596-0900
Fax: (903) 596-0909
E-mail: atindel@andytindel.com
Lead Counsel for Plaintiffs
SPENCER & ASSOCIATES, P.C.
Bonnie E. Spencer
Dawn R. Meade
Joseph J. Hroch
David L. Augustus
Joel S. Shields
4635 Southwest Freeway, Suite 900
Houston, Texas 77027
Tel: (713) 961-7770
Fax: (713) 961-5336
THOMAS L. HUNT & ASSOCIATES, P.C.
Thomas L. Hunt
5353 West Alabama, Suite 605
Houston, Texas 77056
Tel: (713) 977-3447
Fax: (713) 490-3359
PROVOST! UMPHREY LAW FIRM, L.L.P.
Walter Umphrey
490 Park Street
Beaumont, Texas 77704
Tel: (409) 835-6000
Fax: (409) 838-8803


App. 519
LEVIN & KASNER. P.C.
Steve Stewart
500 Summit Tower
Eleven Greenway Plaza
Houston, Texas 77046
Tel: (713) 877-1600
Fax: (713) 439-1600
ATTORNEYS FOR PLAINTIFFS,
KEVIN LAMPKIN, JANICE SCHUETTE,
ROBERT FERRELL, and STEPHEN MILLER,
Individually and on Behalf of all Others
Similarly Situated
[Certificate Of Service Omitted]

EXHIBIT A
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN LAMPKIN, JANICE
SCHUETTE, ROBERT
FERRELL, STEPHEN
MILLER, DIANNE SWIBER,
TERRY NELSON, JOE
BROWN, and FRANKLIN
GITTESS, Individually and on
Behalf of All Others Similarly
Situated,
      Plaintiffs,
VS.

§
§
§
§
§
§
§
§
§
§
§
§

Judge
Melinda Harmon
CIVIL ACTION NO.
H:02-CV-0851

App. 520
UBS FINANCIAL SERVICES, §
INC., and UBS SECURITIES §
LLC,
§
§
      Defendants.
AFFIDAVIT

OF

JOE BROWN

STATE OF TEXAS

§
§
COUNTY OF HARRIS §
On this day, Joe Brown, appeared before me, the
undersigned notary public, and after I administered an
oath to him, upon his oath, he said:
“My name is Joe Brown. I am over 18 years of age,
of sound mind, and am fully competent to make
this affidavit. The facts stated in this affidavit are
within my personal knowledge and are true and
correct.
“I have reviewed the Plaintiffs’ Third Amended
Class Action Complaint and approve it for filing. I
did not purchase my Enron securities, the securities that are the subject of the complaint, at the
direction of my counsel or in order to participate
in any private action arising under 15 U.S.C. §78a
et seq. I am willing to serve as a representative
party on behalf of the class, including providing
testimony at deposition and trial, if necessary. I
have been a party to no other actions filed under
15 U.S.C. §78a et seq. within the last three years.
I do not expect, nor will I accept, payment for
serving as the class representative beyond my pro
rata share of any recovery, except as ordered or

App. 521
approved by the court in accordance with 15 U.S.C.
§78u-4(a)(4).”
“I had an investment account at UBS PaineWebber, Inc. On February 16, 2001 I purchased 200
shares of Enron Corp. common stock at a price of
$76.17 per share.”
FURTHER AFFIANT SAYETH NOT
/s/ Joe Brown
Joe Brown
SUBSCRIBED AND SWORN TO BEFORE ME by
Joe Brown this 18 day of August, 2006.
[NOTARY STAMP]

/s/ Connie Brooks
Notary Public in and for
the State of Texas.

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN LAMPKIN, JANICE
SCHUETTE, BOBBY
FERRELL, STEPHEN
MILLER, DIANNE SWIBER,
TERRY NELSON, JOE
BROWN, and FRANKLIN
GITTESS, Individually and on
Behalf of All Others Similarly
Situated,
      Plaintiffs,

§
§
§
§
§
§
§
§
§
§

Judge
Melinda Harmon
CIVIL ACTION NO.
H:02-CV-0851

App. 522
VS.

§
UBS FINANCIAL SERVICES, §
INC., and UBS SECURITIES §
§
LLC,
§
      Defendants.
§
AFFIDAVIT

OF

BOBBY FERRELL

STATE OF TEXAS

§
§
COUNTY OF HARRIS §
On this day, Bobby Ferrell, appeared before me,
the undersigned notary public, and after I administered an oath to him, upon his oath, he said:
“My name is Bobby Ferrell. I am over 18 years of
age, of sound mind, and am fully competent to
make this affidavit. The facts stated in this affidavit are within my personal knowledge and are true
and correct.
“I have reviewed the Plaintiffs’ Third Amended
Class Action Complaint and approve it for filing. I
did not purchase my Enron securities, the securities that are the subject of the complaint, at the
direction of my counsel or in order to participate
in any private action arising under 15 U.S.C. §78a
et seq. I am willing to serve as a representative
party on behalf of the class, including providing
testimony at deposition and trial, if necessary. I
have been a party to no other actions filed under
15 U.S.C. §78a et seq. within the last three years.
I do not expect, nor will I accept, payment for serving as the class representative beyond my pro rata

App. 523
share of any recovery, except as ordered or approved by the court in accordance with 15 U.S.C.
§78u-4(a)(4).”
“I had investment accounts with UBS PaineWebber, Inc. in which I held Enron Corp. securities
during the fraud class period. On January 18, 2000
I purchased/acquired 50 options to purchase. Enron Corp. stock at $55.50 per share as part of an
Enron Corp. employee stock option plan.”
FURTHER AFFIANT SAYETH NOT.
/s/ Bobby Ferrell
Bobby Ferrell
SUBSCRIBED AND SWORN TO BEFORE ME by
Bobby Ferrell this 19 day of August, 2006.
[NOTARY STAMP]

/s/ LaJuana Davis
Notary Public in and for
the State of Texas

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN LAMPKIN, JANICE
SCHUETTE, BOBBY
FERRELL, STEPHEN
MILLER, DIANNE SWIBER,
TERRY NELSON, JOE
BROWN, and FRANKLIN
GITTESS, Individually and on

§
§
§
§
§
§
§

Judge
Melinda Harmon
CIVIL ACTION NO.
H:02-CV-0851

App. 524
Behalf of All Others Similarly
Situated,

§
§
§
      Plaintiffs,
§
VS.
§
UBS FINANCIAL SERVICES, §
INC., and UBS SECURITIES §
§
LLC,
§
      Defendants.
§
AFFIDAVIT

OF

FRANKLIN GITTESS

STATE OF TEXAS

§
§
COUNTY OF HARRIS §
On this day, Franklin Gittess, appeared before me,
the undersigned notary public, and after I administered an oath to him, upon his oath, he said:
“My name is Franklin Gittess. I am over 18 years
of age, of sound mind, and am fully competent to
make this affidavit. The facts stated in this affidavit are within my personal knowledge and are true
and correct.
“I have reviewed the Plaintiffs’ Third Amended
Class Action Complaint and approve it for filing. I
did not purchase my Enron securities, the securities
that are the subject of the complaint, at the direction
of my counsel or in order to participate in any private action arising under 15 U.S.C. §78a et seq. I am
willing to serve as a representative party on behalf
of the class, including providing testimony at deposition and trial, if necessary. I have been a party to
no other actions filed under 15 U.S.C. §78a et seq.

App. 525
within the last three years. I do not expect, nor will
I accept, payment for serving as the class representative beyond my pro rata share of any recovery,
except as ordered or approved by the court in accordance with 15 U.S.C. §78u-4(a)(4).”
“I had an investment account with UBS PaineWebber, Inc. On November 2, 2001 I purchased
1,366 shares of Enron Cap Trust II 8.125% Tops
Preferred stock and purchased another 1,500
shares of Enron Cap Trust II 8.125% Tops Preferred stock on November 6, 2001.”
FURTHER AFFIANT SAYETH NOT.
/s/ Franklin Gittess
Franklin Gittess
SUBSCRIBED AND SWORN TO BEFORE ME by
Franklin Gittess this 19 day of July, 2006.
[NOTARY STAMP]



/s/ Ifeoma Mbanefo
Notary Public in and for
the State of Texas.

App. 526
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN LAMPKIN, JANICE
SCHUETTE, BOBBY
FERRELL, STEPHEN
MILLER, DIANNE SWIBER,
TERRY NELSON, JOE
BROWN, and FRANKLIN
GITTESS, Individually and on
Behalf of All Others Similarly
Situated,

§
§
§
§
§
§
§
§
§
§
      Plaintiffs,
§
VS.
§
UBS FINANCIAL SERVICES, §
INC., and UBS SECURITIES §
§
LLC,
§
      Defendants.
§
AFFIDAVIT

OF

STATE OF MISSISSIPPI
COUNTY OF MONROE

Judge
Melinda Harmon
CIVIL ACTION NO.
H:02-CV-0851

KEVIN LAMPKIN
§
§
§

On this day, Kevin Lampkin, appeared before me,
the undersigned notary public, and after I administered an oath to him, upon his oath, he said:
“My name is Kevin Lampkin. I am over 18 years
of age, of sound mind, and am fully competent to
make this affidavit. The facts stated in this

App. 527
affidavit are within my personal knowledge and
are true and correct.
“I have reviewed the Plaintiffs’ Third Amended
Class Action Complaint and approve it for filing. I
did not purchase my Enron securities, the securities that are the subject of the complaint, at the
direction of my counsel or in order to participate
in any private action arising under 15 U.S.C. §78a
et seq. I am willing to serve as a representative
party on behalf of the class, including providing
testimony at deposition and trial, if necessary. I
have been a party to no other actions filed under
15 U.S.C. §78a et seq. within the last three years.
I do not expect, nor will I accept, payment for serving as the class representative beyond my pro rata
share of any recovery, except as ordered or approved by the court in accordance with 15 U.S.C.
§78u-4(a)(4).”
“I had an investment account with UBS PaineWebber, Inc. I purchased 600 shares of Enron
Corp. stock on March 14, 2001 at $61.30 per share.
On December 31, 1999 I purchased/acquired 185
options to purchase shares of Enron Corp. stock at
$44.37 per share as part of an Enron Corp. employee stock option plan. On January 18, 2000 I
purchased/acquired 50 options to purchase shares
of Enron Corp. stock at $55.50 per share as part of
an Enron Corp. employee stock option plan.”
FURTHER AFFIANT SAYETH NOT.
/s/ Kevin Lampkin
Kevin Lampkin

App. 528
SUBSCRIBED AND SWORN TO BEFORE ME by
Kevin Lampkin this 22 day of August, 2006.
/s/ [Illegible]
Notary Public in and for
the State of Mississippi
EXPIRES 6-12-2010

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN LAMPKIN, JANICE
SCHUETTE, BOBBY
FERRELL, STEPHEN
MILLER, DIANNE SWIBER,
TERRY NELSON, JOE
BROWN, and FRANKLIN
GITTESS, Individually and on
Behalf of All Others Similarly
Situated,

§
§
§
§
§
§
§
§
§
§
      Plaintiffs,
§
VS.
§
UBS FINANCIAL SERVICES, §
INC., and UBS SECURITIES §
§
LLC,
§
      Defendants.
§


Judge
Melinda Harmon
CIVIL ACTION NO.
H:02-CV-0851

App. 529
AFFIDAVIT

OF

STEPHEN MILLER

STATE OF Texas

§
§
COUNTY OF Jefferson §
On this day, Stephen Miller, appeared before me,
the undersigned notary public, and after I administered an oath to him, upon his oath, he said:
“My name is Stephen Miller. I am over 18 years of
age, of sound mind, and am fully competent to
make this affidavit. The facts stated in this affidavit are within my personal knowledge and are true
and correct.
“I have reviewed the Plaintiffs’ Third Amended
Class Action Complaint and approve it for filing. I
did not purchase my Enron stock, the security that
is the subject of the complaint, at the direction of
my counsel or in order to participate in any private
action arising under 15 U.S.C. §78a et seq. I am
willing to serve as a representative party on behalf
of the class, including providing testimony at deposition and trial, if necessary. I have been a party
to no other actions filed under 15 U.S.C. §78a et
seq. within the last three years. I do not expect,
nor will I accept, payment for serving as the class
representative beyond my pro rata share of any recovery, except as ordered or approved by the court
in accordance with 15 U.S.C. §78u-4(a)(4).”
“I had an investment account with UBS PaineWebber, Inc. in which I made the following purchases of Enron Corp. stock:


App. 530
•

1000 shares of Enron Corp. stock on November 7, 2001 at $11.015 per share;

•

1000 shares of Enron Corp. stock on November 9, 2001 at $10.05 per share;

•

2000 shares of Enron Corp. stock on November 13, 2001 at $8.45 per share;

•

2000 shares of Enron Corp. stock on November 14, 2001 at $8.80 per share;

•

2000 shares of Enron Corp. stock on November 21, 2001 at $9.00 per share;

•

2000 shares of Enron Corp. stock on November 27, 2001 at $5.40 per share;

•

2000 shares of Enron Corp. stock on November 27, 2001 at $5.45 per share.

I sold all my shares of Enron Corp. stock subsequent to Enron’s bankruptcy at $1.15 per share.”
FURTHER AFFIANT SAYETH NOT.
/s/ Stephen Miller
Stephen Miller
SUBSCRIBED AND SWORN TO BEFORE ME by
Stephen Miller this 22 day of August, 2006.
[NOTARY STAMP]

/s/ Cindy King
Notary Public in and for
the State of Texas

App. 531
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN LAMPKIN, JANICE
SCHUETTE, BOBBY
FERRELL, STEPHEN
MILLER, DIANNE SWIBER,
TERRY NELSON, JOE
BROWN, and FRANKLIN
GITTESS, Individually and on
Behalf of All Others Similarly
Situated,

§
§
§
§
§
§
§
§
§
§
      Plaintiffs,
§
VS.
§
UBS FINANCIAL SERVICES, §
INC., and UBS SECURITIES §
§
LLC,
§
      Defendants.
§
AFFIDAVIT

OF

Judge
Melinda Harmon
CIVIL ACTION NO.
H:02-CV-0851

TERRY NELSON

STATE OF Illinois §
§
COUNTY OF Will §
On this day, Terry Nelson, appeared before me, the
undersigned notary public, and after I administered an
oath to him, upon his oath, he said:
“My name is Terry Nelson. I am over 18 years of
age, of sound mind, and am fully competent to
make this affidavit. The facts stated in this

App. 532
affidavit are within my personal knowledge and
are true and correct.
“I have reviewed the Plaintiffs’ Third Amended
Class Action Complaint and approve it for filing. I
did not purchase my Enron stock, the security that
is the subject of the complaint, at the direction of
my counsel or in order to participate in any private
action arising under 15 U.S.C. §78a et seq. I am
willing to serve as a representative party on behalf
of the class, including providing testimony at deposition and trial, if necessary. I have been a party
to no other actions filed under 15 U.S.C. §78a et
seq. within the last three years. I do not expect,
nor will I accept, payment for serving as the class
representative beyond my pro rata share of any recovery, except as ordered or approved by the court
in accordance with 15 U.S.C. §78u-4(a)(4).”
“I had investment accounts with UBS PaineWebber, Inc. and held Enron Corp. common stock and
options to purchase Enron Corp. common stock in
those investment accounts throughout the fraud
class period.”
FURTHER AFFIANT SAYETH NOT
/s/ Terry L. Nelson
Terry Nelson
SUBSCRIBED AND SWORN TO BEFORE ME by
Terry Nelson this 21st day of August, 2006.
[NOTARY STAMP]

/s/
Notary Public in and for
the State of IL

App. 533
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN LAMPKIN, JANICE
SCHUETTE, BOBBY
FERRELL, STEPHEN
MILLER, DIANNE SWIBER,
TERRY NELSON, JOE
BROWN, and FRANKLIN
GITTESS, Individually and on
Behalf of All Others Similarly
Situated,

§
§
§
§
§
§
§
§
§
      Plaintiffs,
§
§
VS.
§
UBS FINANCIAL SERVICES, §
INC., and UBS SECURITIES §
LLC,
§
§
      Defendants.
AFFIDAVIT

OF

Judge
Melinda Harmon
CIVIL ACTION NO.
H:02-CV-0851

JANICE SCHUETTE

STATE OF TEXAS

§
§
COUNTY OF ________ §
On this day, Janice Schuette, appeared before me,
the undersigned notary public, and after I administered an oath to her, upon her oath, she said:
“My name is Janice Schuette. I am over 18 years
of age, of sound mind, and am fully competent to
make this affidavit. The facts stated in this affidavit are within my personal knowledge and are true
and correct.

App. 534
“I have reviewed the Plaintiffs’ Third Amended
Class Action Complaint and approve it for filing. I
did not purchase my Enron stock, the security that
is the subject of the complaint, at the direction of
my counsel or in order to participate in any private
action arising under 15 U.S.C. §78a et seq. I am
willing to serve as a representative party on behalf
of the class, including providing testimony at deposition and trial, if necessary. I have been a party
to no other actions filed under 15 U.S.C. §78a et
seq. within the last three years. I do not expect,
nor will I accept, payment for serving as the class
representative beyond my pro rata share of any recovery, except as ordered or approved by the court
in accordance with 15 U.S.C. §78u-4(a)(4).”
“I had an investment account with UBS PaineWebber, Inc. and held approximately 434 shares of
Enron Corp. common stock in that investment account throughout the fraud class period.”
FURTHER AFFIANT SAYETH NOT.
/s/ Janice Schuette
Janice Schuette
SUBSCRIBED AND SWORN TO BEFORE ME by
Janice Schuette this 21st day of August, 2006.
[NOTARY STAMP]

/s/ Lynn West
Notary Public in and for
the State of Texas

App. 535
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN LAMPKIN, JANICE
SCHUETTE, BOBBY
FERRELL, STEPHEN
MILLER, DIANNE SWIBER,
TERRY NELSON, JOE
BROWN, and FRANKLIN
GITTESS, Individually and on
Behalf of All Others Similarly
Situated,

§
§
§
§
§
§
§
§
§
      Plaintiffs,
§
§
VS.
UBS FINANCIAL SERVICES, §
INC., and UBS SECURITIES §
§
LLC,
§
      Defendants.
§
AFFIDAVIT
STATE OF TEXAS
COUNTY OF Harris

OF

Judge
Melinda Harmon
CIVIL ACTION NO.
H:02-CV-0851

DIANNE SWIBER

§
§
§

On this day, Dianne Swiber, appeared before me,
the undersigned notary public, and after I administered an oath to her, upon her oath, she said:
“My name is Dianne Swiber. I am over 18 years of
age, of sound mind, and am fully competent to
make this affidavit. The facts stated in this affidavit are within my personal knowledge and are true
and correct.

App. 536
“I have reviewed the Plaintiffs’ Third Amended
Class Action Complaint and approve it for filing. I
did not purchase my Enron securities, the securities that are the subject of the complaint, at the
direction of my counsel or in order to participate
in any private action arising under 15 U.S.C. §78a
et seq. I am willing to serve as a representative
party on behalf of the class, including providing
testimony at deposition and trial, if necessary. I
have been a party to no other actions filed under
15 U.S.C. §78a et seq. within the last three years.
I do not expect, nor will I accept, payment for serving as the class representative beyond my pro rata
share of any recovery, except as ordered or approved by the court in accordance with 15 U.S.C.
§78u-4(a)(4).”
“I had an investment account at UBS PaineWebber, Inc. I purchased/acquired options to purchase Enron Corp. stock as part of an Enron Corp.
employee stock option plan during the relevant
time period.”
FURTHER AFFIANT SAYETH NOT
/s/ Dianne Swiber
Dianne Swiber
SUBSCRIBED AND SWORN TO BEFORE ME by
Dianne Swiber this 18th day of August, 2006.
[NOTARY STAMP]

/s/ Frankie J. Johnson
Notary Public in and for
the State of Texas

